No.

JACKSON NATIONAL LIFE INSURANCE COMPANY,
PETITIONER
v.
TAMARIN LINDENBERG, Individually and as Natural
Guardian of Her Minor Children ZTL and SML
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
PETITION FOR A WRIT OF CERTIORARI

DANIEL W. VAN HORN
AMY M. PEPKE
ELIZABETH E. CHANCE
GADSON W. PERRY
BUTLER SNOW LLP
6075 Poplar Avenue,
Suite 500
Memphis, TN 38119
(901) 680-7200

DANIEL R. ORTIZ
Counsel of Record
UNIVERSITY OF VIRGINIA
SCHOOL OF LAW
SUPREME COURT
LITIGATION CLINIC
580 Massie Road
Charlottesville, VA
22903
(434) 924-3127
dortiz@law.virginia.edu

II
ROBERT N. HOCHMAN
SIDLEY AUSTIN LLP
One South Dearborn St.
Chicago, IL 60603
(312) 853-7000

I
QUESTIONS PRESENTED
The Sixth Circuit has struck down Tennessee’s
statutory cap on punitive damages. It did so as a
matter not of federal law, but as a matter of its own
interpretation of the Tennessee Constitution. On June
19, 2019, in McClay v. Airport Mgmt. Services, LLC,
No.
M2019-00511-SC-R23-CV,
the
Tennessee
Supreme Court accepted certification of the closely
related question of whether Tennessee’s non-economic
damages cap is consistent with the Tennessee
Constitution. That ruling will likely provide clear
guidance on the two state constitutional law issues in
this case.
The questions presented are:
1. Do principles of cooperative federalism, judicial
efficiency, and concern for the consistent application of
state law compel the Sixth Circuit to certify to the
Tennessee Supreme Court three questions of
Tennessee law that the Tennesse Supreme Court
specifically indicated it was willing to consider, all of
which determine liability and the scope of relief in this
case, none of which had previously been addressed by
the Tennessee Supreme Court, and two of which
concern the Tennessee Constitution.
2. In the alternative to setting this case for
briefing and argument on the merits, should this
Court hold this petition with a view to granting,
vacating, and remanding to the Sixth Circuit to
reconsider in light of the Tennessee Supreme Court’s
disposition of McClay v. Airport Mgmt Services, LLC.

II
PARTIES IN THE COURT OF APPEALS
In addition to the parties listed on the cover, the
State of Tennessee appeared as an intervenorappellee.
CORPORATE DISCLOSURE STATEMENT
Jackson National Life Insurance Company is
indirectly wholly owned by Prudential plc, a
publically-owned British company that trades on the
New York Stock Exchange under the symbol “PUK.”

III
TABLE OF CONTENTS
Page(s)
Questions Presented ............................................... I
Parties In The Court Of Appeals ......................... II
Corporate Disclosure Statement .......................... II
Table Of Authorities ............................................ VI
Opinions Below ...................................................... 1
Jurisdiction ............................................................ 1
Relevant Constitutional And Statutory Provisions And Tennessee Supreme Court Rule ..... 2
Introduction ........................................................... 4
Statement ............................................................... 5
A. Factual Background And District Court
Proceedings ................................................. 5
B. Court Of Appeals Proceedings .................. 10
Reasons For Granting The Petition .................... 16
I. The Lower Federal Courts Are Confused As
To When They Should Certify Uncertain
Issues Of State Law To State Courts ............ 16
A. Ten Circuits Hold That Uncertainty Is
The Most Important Or A Key Factor In
Deciding Whether To Certify .................... 17
B. Four Of These Circuits Also Consider The
Importance Of The State-Law Issue ........ 21

IV
TABLE OF CONTENTS
Page(s)
C. The Sixth Circuit, By Contrast, Holds That
An Issue Must Be Both “New” And
“Unsettled” To Certify It ........................... 22
D. The Bare Guidance That Exists Fails To
Promote Consistent Decisions Regarding
Certification .............................................. 23
II. This Case Provides An Excellent Opportunity
To Promote Consistency In Certification Of
State-Law Questions ...................................... 26
A. Respecting State Sovereign Interests,
Judicial Efficiency, And Reducing Forum
Shopping Are The Primary Values Served
By Certifcation .......................................... 27
B. Review In This Case Provides A Robust
Opportunity To Announce Materially
Clearer Standards For Certification ........ 31
III. As An Alternative To Full Briefing And
Argument On The Merits, This Court
Should Hold This Petition With A View To
Granting, Vacating, And Remanding The
Decision Back To The Sixth Circuit In Light
Of The Tennessee Supreme Court’s Decision
In McClay ...................................................... 36
Conclusion ............................................................ 38

V
TABLE OF CONTENTS
Page(s)
Appendix:
Sixth Circuit Opinion (Dec. 21, 2018) .......... 1a
District Court Order Denying Defendant’s
Motion To Dismiss Plaintiff ’ s Claim For
Punitive Damages (Dec. 9, 2014)............ 79a
District Court Order Denying Defendant’s
Motion For Judgment As A Matter Of
Law And Granting Plaintiff ’s Motion For
Certification Of Questions To The
Tennessee Supreme Court (Nov. 24,
2015) ...................................................... 101a
District Court Order Certifying Questions
Of State Law To The Supreme Court Of
Tennessee (Nov. 24, 2015) .................... 127a
Supreme Court Of Tennessee Order
Declining To Answer The District Court’s
Certified Questions (June 23, 2016) ..... 133a
District Court Order On Defendant’s
Motion For Judgment As A Matter Of
Law As To Punitive Damages (Sept. 28,
2016) ...................................................... 136a
Sixth Circuit Denial Of Rehearing En Banc
(March 28, 2019) ................................... 170a

VI
TABLE OF AUTHORITIES
Page(s)
Cases:
Arizona v. Gant, 540 U.S. 963 (2003)..................... 37
Arizonans for Official English v. Arizona, 520
U.S. 43 (1997) ............................................ passim
Baltimore & Ohio R.R. Co. v. Baugh, 149 U.S.
368 (1893) .......................................................... 34
Bellotti v. Baird, 428 U.S. 132 (1976) .................... 29
Blue Cross & Blue Shield of Ala., Inc. v. Nielsen,
116 F.3d 1406 (11th Cir. 1997) ................... 20, 26
Brockett v. Spokane Arcades, Inc., 472 U.S. 491
(1985) ................................................................4-5
Chauca v. Abraham, 841 F.3d 86 (2d Cir. 2016) ... 21
Cleary v. Philip Morris, Inc., 656 F.3d 511 (7th
Cir. 2011) ........................................................... 17
Colonial Props., Inc. v. Vogue Cleaners, Inc., 77
F.3d 384 (11th Cir. 1996) .................................. 17
Doe v. Guthrie Clinic, 710 F.3d 492 (2d Cir.
2013)................................................................... 18
Erie R.R. Co. v. Tompkins, 304 U.S. 64
(1938) ........................................................... 27, 34
Florida ex rel. Shevin v. Exxon Corp., 526 F.2d
266 (5th Cir. 1976)................................. 17, 19, 20
Gilbert v. Seton Hall Univ., 332 F.3d 105 (2d
Cir. 2003) ..................................................... 19, 35
Haley v. Univ. of Tenn.-Knoxville, 188 S.W.3d
518 (Tenn. 2006) ................................................ 15

VII
TABLE OF AUTHORITIES
Page(s)
Hanna v. Plummer, 380 U.S. 460 (1965) .............. 27
Hatfield v. Bishop Clarkson Mem’l Hosp., 701
F.2d 1266 (8th Cir. 1983) ............................ 18, 20
Heil Co. v. Evanston Ins. Co., 690 F.3d 722 (6th
Cir. 2012) .................................................... 11, 23
In re Badger Lines, Inc., 140 F.3d 691 (7th Cir.
1998) .................................................................. 21
In re Complaint of McLinn, 744 F.2d 677 (9th
Cir. 1984) ........................................................... 16
In re Engage, Inc., 544 F.3d 50 (1st Cir.
2008) ............................................................ 18, 20
Johnson v. Fankell, 520 U.S. 911 (1997) .............. 30
Klamath Irrigation Dist. v. United States, 532
F.3d 1376 (Fed. Cir. 2008)........................... 19, 21
Kremen v. Cohen, 325 F.3d 1035 (9th Cir.
2003) ............................................................ 20, 21
Lawrence v. Chater, 516 U.S. 163 (1996) ............... 37
Lehman Bros. v. Schein, 416 U.S. 386
(1974) ................................................. 5, 16, 27, 28
Lords Landing Village Condo. Council of Unit
Owners v. Continental Ins. Co., 520 U.S. 893
(1997) ................................................................. 37
McCarthy v. Olin Corp., 119 F.3d 148 (2d Cir.
1997) .................................................................. 25

VIII
TABLE OF AUTHORITIES
Page(s)
McClay v. Airport Mgmt. Servs., No. M201900511-SC-R23-CV (Tenn. S. Ct. filed March
20, 2019), https://www2.tncourts.gov/Public
CaseHistory/CaseDetails.aspx?id=76003&P
arty=True ............................................ I, 15, 36-37
Metz v. BAE Sys. Tech. Sols. & Servs., Inc., 774
F.3d 18 (D.C. Cir. 2014) ............................. 21, 22
Mosher v. Speedstar Div. of AMCA Int’l, Inc., 52
F.3d 913 (11th Cir. 1995) .................................. 18
Munn v. Hotchkiss Sch., 795 F.3d 324 (2d Cir.
2015) ............................................................ 20, 26
O’Mara v. Town of Wappinger, 485 F.3d 693 (2d
Cir. 2007) .......................................................... 21
Owens v. Republic of Sudan, 864 F.3d 751 (D.C.
Cir. 2017) ........................................................... 18
Parrot v. Guardian Life Ins. Co. of Am., 338 F.3d
140 (2d Cir. 2003) ............................................. 26
Pino v. United States, 507 F.3d 1233 (10th Cir.
2007)........................................................... passim
Plastics Eng’g Co. v. Liberty Mut. Ins. Co., 514
F.3d 659 (7th Cir.2008) ..................................... 24
Riad v. Erie Ins. Exch., 436 S.W.3d 256 (Tenn.
Ct. App. 2013) ................................................... 23
Showtime Entm’t, LLC v. Town of Mendon, 769
F.3d 61 (1st Cir. 2014) ................................. 18, 19
Slayman v. FedEx Ground Package Sys., Inc.,
765 F.3d 1033 (9th Cir. 2014) ..................... 18, 19

IX
TABLE OF AUTHORITIES
Page(s)
Smith v. Joy Techs., Inc., 828 F.3d 391 (6th Cir.
2016) .................................................................. 22
State Farm Mut. Auto. Ins. Co. v. Pate, 275 F.3d
666 (7th Cir. 2001)............................................. 17
Swindol v. Aurora Flight Sci. Corp., 805 F.3d
516 (5th Cir. 2015)............................................. 20
Thomas v. Am. Home Products, Inc., 519 U.S.
913 (1996) .................................................... 37, 38
Tidler v. Eli Lilly & Co., 851 F.2d 418 (D.C. Cir.
1988)................................................................... 18
Todd v. Societe BIC, S.A., 9 F.3d 1216 (7th Cir.
1993) ............................................................ 21, 25
Transamerica Ins. Co. v. Duro Bag Mfg. Co., 50
F.3d 370 (6th Cir. 1995) ................................... 22
Younger v. Harris, 401 U.S. 37 (1971) .................. 28
Zahn v. N. Am. Power & Gas, LLC, 815 F.3d
1085 (7th Cir. 2016)........................................... 24
Statutes and Rules:
28 U.S.C. § 1254(1) ................................................... 1
Tenn. Const. art. I, § 6 .............................................. 2
Tenn. Code Ann. § 29-39-102 ........................... 15, 36
Tenn. Code Ann. § 29-39-104 ........................... 2, 4, 8
Tenn. Code Ann. § 56-7-105 ................................. 3, 6
Tenn. Sup. Ct. R. 23(1) ............................................ 3

X
TABLE OF AUTHORITIES
Page(s)
Miscellaneous:
Ann Althouse, How to Build a Separate Sphere:
Federal Courts and State Power, 100 Harv. L.
Rev. 1485 (1987) ............................................... 30
Deborah
J.
Challener,
Distinguishing
Certification From Abstention in Diversity
Cases: Postponement Versus Abdication of the
Duty to Exercise Jurisdiction, 38 Rutgers L.J.
847 (2007) .................................................... 16, 17
Jona Goldschmidt, Certification of Questions of
Law: Federalism in Practice 53 (Am.
Judicature Soc’y 1995) ................................ 28, 29
Judith S. Kaye & Kenneth I. Weissmann,
Interactive Judicial Federalism: Certified
Questions in New York, 69 Fordham L. Rev.
373 (2000) .....................................................28-29

1
PETITION FOR A WRIT OF CERTIORARI
OPINIONS BELOW
The opinion of the court of appeals (App., infra, 1a78a) is reported at 912 F.3d 348 (6th Cir. 2018). The
denial of the petition for rehearing en banc and
accompanying opinions (App., infra, 170a-198a) are
reported at 919 F.3d 992 (6th Cir. 2019). The district
court’s orders (1) denying defendant’s motion to
dismiss plaintiff ’ s claim for punitive damages (App.,
infra, 79a-100a) is unreported but may be found at
2014 WL 11332306 (W.D. Tenn. Dec. 9, 2014); (2)
denying defendant’s motion for judgment as a matter
of law and granting plaintiff ’ s motion for certification
of questions to the Tennessee Supreme Court (App.,
infra, 101a-126a) is reported at 147 F. Supp. 3d 694
(W.D. Tenn. 2015); (3) certifying questions of state law
to the Supreme Court of Tennessee (App., infra, 127a132a) is unreported; and (4) on defendant’s motion for
judgment as a matter of law as to punitive damages
(App., infra, 136a-169a) is reported at 304 F. Supp. 3d
711 (W.D. Tenn. 2016). The order of the Supreme
Court of Tennessee declining to answer the district
court’s certified questions (App., infra, 133a-135a) is
unreported.
JURISDICTION
The judgment of the court of appeals was entered
on December 21, 2018. On January 4, 2019, petitioner
filed a petition for rehearing en banc, which was
denied on March 28, 2019. The jurisdiction of this
Court is invoked under 28 U.S.C. § 1254(1).

2
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS AND
TENNESSEE SUPREME COURT RULE
Article I, section 6 of the Tennessee Constitution
provides:
That the right of trial by jury shall remain
inviolate, and no religious or political test shall
ever be required as a qualification for jurors.
Article II of the Tennessee Constitution provides:
Section 1. The powers of the government shall
be divided into three distinct departments:
legislative, executive, and judicial.
Section 2. No person or persons belonging to
one of these departments shall exercise any of the
powers properly belonging to either of the others,
except in the cases herein directed or permitted.
Tenn. Code Ann. § 29-39-104 provides, in
pertinent part, that:
(a) In a civil action in which punitive damages
are sought:
***
(5) Punitive or exemplary damages shall not
exceed an amount equal to the greater of:
(A) Two (2) times the total amount of
compensatory damages awarded; or
(B) Five
($500,000).

hundred

thousand

dollars

3
Tenn. Code Ann. § 56-7-105(a) provides, in
pertinent part, that
[t]he insurance companies of this state * * * in all
cases when a loss occurs and they refuse to pay the
loss within sixty (60) days * * * shall be liable to
pay the holder of the policy or fidelity bond, in
addition to the loss and interest on the bond, a sum
not exceeding twenty-five percent (25%) on the
liability for the loss; provided, that * * * the refusal
to pay the loss was not in good faith, and that the
failure to pay inflicted additional expense, loss, or
injury including attorney fees upon the holder of
the policy or fidelity bond; and provided * * * the
additional liability, within the limit prescribed,
shall, in the discretion of the court or jury trying
the case, be measured by the additional expense,
loss, and injury.
Rule 23(1) of the Tennessee Supreme Court
provides:
The Supreme Court may, at its discretion,
answer questions of law certified to it by the
Supreme Court of the United States, a Court of
Appeals of the United States, a District Court of the
United States in Tennessee, or a United States
Bankruptcy Court in Tennessee. This rule may be
invoked when the certifying court determines that,
in a proceeding before it, there are questions of law
of this state which will be determinative of the
cause and as to which it appears to the certifying
court there is no controlling precedent in the
decisions of the Supreme Court of Tennessee.

4
INTRODUCTION
In 2011, Tennessee enacted a cap on punitive
damages that limits such awards to $500,000 or two
times compensatory damages, whichever is larger.
Tenn. Code Ann. § 29-39-104(a)(5). The law exempts
from its limits certain intentional or criminal
misconduct. Id. at § 29-39-104(a)(7). The Tennessee
legislature adopted the provision to encourage greater
business investment and activity in the state by
providing a greater degree of predicatability for civil
litigation.
A divided panel of the Sixth Circuit in this case has
declared that Tennessee’s punitive damages cap
violates the Tennessee Constitution. The Sixth Circuit
decided this novel question of fundamental Tennessee
law despite being asked by the State of Tennessee,
acting through its Attorney General, to certify it to
Tennessee’s Supreme Court, despite the Tennessee
Supreme Court’s express willingness to consider the
issue, and despite the absence of any authority from
the Tennessee Supreme Court to guide its
adjudication.
This Court has encouraged lower federal courts to
certify uncertain questions of state law to state courts
to avoid precisely this outcome. “Speculation by a
federal court about the meaning of a state statute in
the absence of prior state court adjudication is
particularly gratuitous when . . . the state courts stand
willing to address questions of state law on
certification from a federal court.” Arizonans for
Official English v. Arizona, 520 U.S. 43, 79 (1997)
(acknowledging that) (quoting Brockett v. Spokane

5
Arcades, Inc., 472 U.S. 491, 510 (1985) (O’Connor, J.,
concurring)). Certification of questions of state law
“save[s] time, energy, and resources and helps build a
cooperative judicial federalism.” Lehman Bros. v.
Schein, 416 U.S. 386, 391 (1974).
But this Court has yet to provide lower courts clear
benchmarks for when they should exercise their
discretion to certify questions to state supreme courts.
As a result, lower courts are inconsistently employing
the procedure. Respect for judicial efficiency and state
Supreme Court authority over the development of
state law demands more. This case provides an
especially strong opportunity to make clear that some
circumstances weigh so heavily in favor of certification
that, barring exceptional circumstances, it is an abuse
of discretion not to certify questions to the State
Supreme Court. This case also provides an ideal
occasion for this Court to articulate more clear
standards that can be consistently applied by both the
circuit and district courts when determining whether
to certify questions to state supreme courts.
STATEMENT
A. Factual Background And District Court
Proceedings
Respondent Tamarin Lindenberg, on behalf of
herself and her children, filed a claim with petitioner
Jackson National Life Insurance Company (Jackson
National) to recover the benefit of a life insurance
policy after the death of her ex-husband. App., infra,
5a. After unsuccessfully negotiating, largely over the
rightful beneficiaries of the insurance proceeds, she

6
sued in state court, alleging breach of contract and
statutory and common-law bad faith. Ibid. Jackson
National removed the case to federal district court and
filed an answer with an interpleader complaint. App.,
infra, 83a. There, it explained that it was “not in a
position to determine, factually or legally, who is
entitled to the Death Benefit” and asked the district
court to determine the proper beneficiary. App., infra,
5a-6a, 83a.
Ultimately, the district court dismissed the
interpleader complaint and ordered Jackson National
to pay Lindenberg the full value of the policy plus
interest. App., infra, 6a. Jackson National then
moved to dismiss Lindenberg’s remaining punitive
damages and bad-faith claims. It argued, among other
things, that under Tennessee law, an award against
an insurance company for bad-faith refusal to pay
promptly (see Tenn. Code Ann. § 56-7-105) precludes
both common-law bad-faith damages and punitive
damages. App., infra, 86a-87a. The district court
dismissed Lindenberg’s common-law bad-faith claim,
but allowed her claims for punitive damages and for
statutory bad faith to proceed. App., infra, 6a. The
case was tried to a jury. App., infra, 7a. During the
trial, Jackson National moved for judgment as a
matter of law, which the court denied. App., infra, 7a8a.
The jury returned a verdict finding that (1) Jackson
National had breached the insurance contract causing
$350,000 in actual damages; (2) Jackson National’s
nonpayment was in bad faith, resulting in additional
damages of $87,500; and (3) its “refusal to pay was

7
either intentional, reckless, malicious, or fraudulent.”
App., infra,7a. After hearing further testimony, the
jury returned a special verdict awarding $3,000,000 in
punitive damages. App., infra, 7a.
Jackson National renewed its motion for judgment
as a matter of law against the punitive damages award
and argued that even if permissible in light of the badfaith award, the punitive damages award still must be
reduced under Tennessee’s statutory punitive
damages cap. App., infra, 7a. Lindenberg responded
that the statute capping punitive damages violated
both state constitutional separation of powers
principles and the state constitution’s right to trial by
jury. App., infra, 7a. She moved to certify these
questions of Tennessee constitutional law to the
Tennessee Supreme Court, arguing, among other
things, (1) that “the questions of law before the
Court have not been answered by the Tennessee
Court of Appeals, much less the Tennessee
Supreme Court”; (2) that “certification would ‘afford
the [Tennessee Supreme Court] the opportunity to
address a not insubstantial issue under the law of
that State’”; and (3) that “certifying the questions will
reduce the twin risks of forum shopping and
inconsistent outcomes.” Lindenberg D.C. Mot. For
Certification, ECF 167 at 3-4. Jackson National
countered that certification would be premature, since
the district court had yet to decide the threshold issue
of whether Lindenberg proved her claim for punitive
damages as a matter of law. Jackson National D.C.
Resp. to Pl.’s Mot. for Cert’n of Questions to the Tenn.
Sup. Ct., ECF 174 at 2-3. It also argued, however, that

8
it should win on the constitutional questions should
the court decide them. Id. at 6, 7-14. The State of
Tennessee then intervened as a party to defend
against Lindenberg’s state constitutional challenges
and agreed with Jackson National that the issues were
not yet ripe for certification. State of Tenn. D.C. Resp.
in Opp. To Pl.’s Mot. for Cert’n of Questions to the
Tenn. Sup. Ct., ECF 178 at 3.
The district judge nevertheless certified the
following state constitutional questions to the
Tennessee Supreme Court:
1. Do the punitive damages caps in civil cases
imposed
by
Tennessee
Code
Annotated
Section 29-39-104 violate a plaintiff ’ s right to a
trial by jury, as guaranteed in Article I, section 6 of
the Tennessee Constitution?
2. Do the punitive damages caps in civil cases
imposed
by
Tennessee
Code
Annotated
Section 29-39-104 represent an impermissible
encroachment by the legislature on the powers
vested exclusively in the judiciary, thereby
violating the separation of powers provisions of the
Tennessee Constitution?
App., infra, 7a-8a, 131a. The district court believed the
questions deserved certification because they were
“determinative of the cause and because there are no
Tennessee Supreme Court decisions that control.”
App., infra, 124a.
On receipt of the certified questions, the Tennessee
Supreme Court agreed that they “raise issues of first
impression not previously addressed by the appellate

9
courts of Tennessee.” App., infra, 134a. But it
concluded that to consider these two questions it would
first have to consider the statutory question Jackson
National had raised, namely whether Tennessee’s law
providing for an award against an insurance company
for bad-faith refusal to pay promptly precludes an
award of punitive damages. The district court had not
certified that statutory question. App., infra, 135a. So,
the Court explained, “it would be imprudent for it to
answer the certified questions concerning the
constitutionality of the statutory caps on punitive
damages” because at that point in the case “the
question of the availability of those damages in the
first instance ha[d] not been and [could not] be
answered by this Court.” Ibid. The Tennessee
Supreme Court further indicated its willingness to
consider the statutory and constitutional questions
together:
Nothing in this Court’s Order is intended to
suggest any predisposition by the Court with
respect to the United States Court of Appeals for
the Sixth Circuit’s possible certification to this
Court of both the question of the availability of the
remedy of common law punitive damages in
addition to the remedy of the statutory bad faith
penalty and the question of the constitutionality of
the statutory caps on punitive damages, in the
event of an appeal from the final judgment in this
case.
App., infra, 135a n.1.
Instead of recertifying all three state law questions
together, the federal district court decided the issues

10
itself. App., infra, 8a. It ultimately denied Jackson
National’s motion for judgment as a matter of law,
holding that the Tennessee statutory bad-faith
provision did not preclude punitive damages. App.,
infra, 140a-141a. But the court upheld the punitive
damages cap under the Tennessee Constitution, App.,
infra, 158a, 167a, and accordingly reduced the
punitives from $3,000,000 to $700,000, App., infra,
168a. Jackson National and the State of Tennessee
appealed. App., infra, 8a. Lindenberg cross-appealed.
Ibid.
B. Court Of Appeals Proceedings
On appeal, the State of Tennessee asked the Sixth
Circuit to certify the state constitutional questions if it
held that punitive damages were authorized. Tenn.
C.A. Opening Br. 9 n.2. Both Linderberg and Jackson
National supported certification at oral argument.
Lindenberg stated that “I think [certification is] an
option this court has. And certainly we don’t object to
[it] and think [it] would be reasonable.”
Oral
Argument at 19:05, Lindenberg v. Jackson Nat’l Life
Ins. Co., 912 F.3d 348 (6th Cir. 2018) Nos. 17-6034, 176079), http://tinyurl.com/y59uqvnl. Jackson National
argued that the court did not need to reach any of these
state law issues because punitives were inappropriate,
but agreed that “of course it would be better to allow
the state high court to opine on th[e] question[s] if the
court should reach [them].” Id. at 15:20.
Despite the invitation from the Tennessee Supreme
Court, the urging of the Tennessee Attorney General,
and the agreement of both private parties in the case
that certification was warranted, the Sixth Circuit

11
decided the state law issues on its own. And though
the panel opinion did not present any reasons why the
court declined certification, the author of the panel
opinion, Judge Clay, left no doubt, in his separate
opinion accompanying the denial of rehearing, that the
issue had been considered. Judge Clay expressed the
view that certification is not subject to any
“mathematical” or “rigid formula.” App., infra, 174a175a. He also expressed the view that clear guidance
regarding certification would be inconsistent with the
obligations imposed on courts by Congress when it
authorized jurisdiction in diversity cases. Id. at 174a175a.
On the merits, the panel first held that Tennessee’s
statutory bad-faith provision, Tenn. Code Ann.
§ 56-7-105, did not preclude punitive damages. App.,
infra,18a-19a. In reaching this conclusion, it conceded
that circuit precedent would hold such damages
foreclosed. See App., infra, 13a (“If Heil [Co. v.
Evanston Ins. Co., 690 F.3d 722, 728 (6th Cir. 2012),]
remains good law * * * then the district court should
have dismissed Plaintiff ’ s claim for punitive damages
in its entirety.”). It held, however, that “the Tennessee
Court of Appeals has abrogated [our prior]
pronouncement that the statutory remedy of bad faith
is the ‘exclusive extracontratual remedy for an
insurer’s bad faith refusal to pay on a policy,’” App.,
infra, 14a (quoting Heil, 690 F.3d at 728), and so held
further that under Tennessee law “a plaintiff may
freely pursue common law claims and remedies
alongside a statutory bad faith claim,” App., infra, 16a.

12
Second, it held that Tennessee’s cap on punitive
damages “violates the individual right to a trial by jury
set forth in the Tennessee Constitution.” App., infra,
28a. It began by noting that “the state’s appellate
courts have not addressed the issue presented” and
conceded both that “Tennessee statutes receive ‘a
strong presumption’ of constitutionality” and that the
Tennessee Supreme Court sees its “charge [as]
uphold[ing] the constitutionality of a statute whenever
possible.” Ibid. It nevertheless went on to hold, on the
basis of one North Carolina case from 1797 and one
Tennessee case from 1840, “that punitive damages
awards were part of the right to trial by jury at the
time the Tennessee Constitution was adopted.” App.,
infra, 29a. “Further review,” it thought, supported
this holding by “show[ing] that [in Tennessee] the
proper measure of punitive damages is historically a
‘finding of fact’ within the exclusive province of the
jury.” App., infra, 31a.
Further confirming that certification was
thoroughly considered by the panel, Judge Larsen
dissented from the court’s refusual to certify. “This
case,” she noted,
presents two uncertain and important questions of
state law: one concerning the proper construction
of a Tennessee statute; the other concerning the
conformity of a different Tennessee statute with
the Tennessee Constitution. The Tennessee
Supreme Court has signaled its willingness to
decide both of these state law questions, and we
have a mechanism—certification—that allows the
Tennessee Supreme Court to decide them. I would

13
take advantage of that mechanism to learn from
Tennessee’s highest court how it would interpret its
statutes and its Constitution.
App., infra, 43a (Larsen, J., concurring in part and
dissenting in part). In particular, she noted that “the
preclusive effect of Tennessee’s bad faith statute and
the constitutionality of the punitive damages cap are
both unsettled questions on which there is no
Tennessee Supreme Court authority and little (and
conflicting) state law guidance.
As such, both
questions are ideally suited for certification.” App.,
infra, 44a-45a). And because “Tennessee’s highest
court has expressed its receptiveness to certification;
the State urges certification; and neither Lindenberg
nor Jackson National objects to certification,” App.
infra, 45a, the case, in her view, presented a
substantial danger of the “friction-generating error”
common when federal courts “endeavor[ ] to construe
a novel state Act not yet reviewed by the State’s
highest court,” App. infra, 46a (citing Arizonans for
Official English v. Arizona, 520 U.S. 43, 79 (1997)).
Jackson National and Tennessee both petitioned
for rehearing en banc. Jackson National argued,
among other things, that the Sixth Circuit should
certify both the statutory preemption question and the
constitutional questions to the Tennessee Supreme
Court. Jackson National C.A. Pet. Reh’g En Banc 1314, 16, 18. Tennessee argued that “[t]he [s]tate
[c]onstitutional [q]uestions [a]re [n]ovel and
[u]nsettled and [s]hould [h]ave [b]een [c]ertified to the
Tennessee Supreme Court,” Tenn. C.A. Pet. Reh’g En

14
Banc 6, and that “[t]he [s]tate [c]onstitutional
[q]uestions [a]re [e]xceptionally [i]mportant,” id. at 10.
The Sixth Circuit denied the petition for rehearing
en banc, App., infra, 172a, but at least four judges—
Judges Thapar, Bush, Larsen, and Nalbandian—
“would have granted rehearing en banc to certify the
state-law questions to the Tennessee Supreme Court.”
App., infra, 195a (Nalbandian, J., statement regarding
the denial of rehearing en banc). Judge Bush, who
dissented separately, argued that “th[e] case presents
an unusually strong set of reasons for certification to
the Tennessee Supreme Court.” App., infra, 178a
(Bush, J., dissenting). The underlying problem, as he
saw it, was lack of guidance from the Supreme Court:
“[b]ecause the Supreme Court has not announced
concrete rules to govern lower federal courts in
deciding whether to certify questions, th[e] lower
federal courts have had to make their own guidelines
[and o]ur circuit standards do nothing to narrow the
discretion left to each district judge and Sixth Circuit
panel.” App., infra, 182a. Although “Sixth Circuit
case law states that certification is appropriate if the
question of state law is ‘new’ and ‘unsettled,’” he noted,
it
fails to provide guidance in a recurring set of cases
* * * in which the question may not be new in the
sense that no court has addressed it, but a decision
from a federal court has the foreseeable potential
to create a different state-law rule than what the
state supreme court would have produced.
App., infra, 183a. He therefore “would welcome”
“further guidance” from “the Supreme Court” to

15
ensure that “an encroaching federal judiciary [does
not] use federal judicial power to diminish the power
of state judiciaries.” App., infra, 193a. Indeed, he
observed that the Tennessee Supreme Court itself has
made clear that it views “the certification procedure
[as] protect[ing] state sovereignty.” Id. at 187a
(quoting Haley v. Univ. of Tenn.-Knoxville, 188 S.W.3d
518, 521 (Tenn. 2006)).
In the meantime, the Tennessee Supreme Court
has accepted certification of two closely related
questions of Tennessee constitutional law: whether
Tennessee’s similar cap on non-economic damages,
Tenn. Code Ann. § 29-39-102, violates the Tennessee
Constitution’s right to trial by jury or separation of
powers. McClay v. Airport Mgmt. Services, LLC, No.
M2019-00511-SC-R23-CV, order at 1 (Tenn. S.C. June
19, 2020), https://www2.tncourts.gov/PublicCaseHisto
ry/CaseDetails.aspx?id=76003&Party=True.
The
parties have fully briefed those questions and the
Tennessee Supreme Court’s answers will likely
provide clear guidance on the state constitutional
questions at issue here. (In addition, the Tennessee
Supreme Court will consider whether the cap violates
the Tennessee Constitution because it discriminates
against women.)

16
REASONS FOR GRANTING THE PETITION
I. The Lower Federal Courts Are Confused As
To When They Should Certify Uncertain
Issues Of State Law To State Courts
This Court has long recognized that certification
“allows a federal court faced with a novel state-law
question to put the question directly to the State’s
highest court, reducing the delay, cutting the cost, and
increasing the assurance of gaining an authoritative
response.” Arizonans for Official English v. Arizona,
520 U.S. 43, 76 (1997). “[I]n the long run,” doing so not
only “save[s] time, energy, and resources[, but even
more importantly] helps build a cooperative judicial
federalism.” Lehman Bros. v. Schein, 416 U.S. 386,
391 (1974).
But this “Court has addressed” the standard
governing “certification in only one case: Lehman
Brothers v. Schein.”
Deborah J. Challener,
Distinguishing Certification From Abstention in
Diversity Cases: Postponement Versus Abdication of
the Duty to Exercise Jurisdiction, 38 Rutgers L.J. 847,
872 (2007). There, it simply noted, “in view of the
novelty of the question and the great unsettlement of
[state] law,” certification “would seem particularly
appropriate.” Lehman Bros., 416 U.S. at 391.
The result has been unpredictably varying use of
the mechanism. The Ninth Circuit, for example,
complained as early as the 1980s that “Lehman Bros.
* * * provides no clear standards as to when
certification should be used.” In re Complaint of
McLinn, 744 F.2d 677, 681 (9th Cir. 1984); see also

17
App., infra, 193a (Bush, J., dissenting from denial of
rehearing en banc) (“I would welcome” “guidance” from
“the Supreme Court.”). Commentators agree. See,
e.g., Challener, 38 Rutgers L.J. at 866 (“[The Supreme]
Court has provided little guidance to the lower courts
regarding the circumstances under which certification
is appropriate.”). Given the important state
sovereignty and judicial economy interests at stake, it
is time for this Court to speak to the standards for
certifying questions to state courts in a way that will
promote greater consistency. This case provides an
unusually strong opportunity to do so.
A. Ten Circuits Hold That Uncertainty Is The
Most Important Or A Key Factor In
Deciding Whether To Certify
The Fifth, Seventh, Eleventh, and D.C. Circuits
hold that a state law’s uncertainty is the “most
important” factor separating routine decisions about
state law from those warranting certification. See,
e.g., Florida ex rel. Shevin v. Exxon Corp., 526 F.2d
266, 274-275 (5th Cir. 1976) (“The most important
[factors] are the closeness of the question and the
existence of sufficient sources of state law.”); Cleary v.
Philip Morris, Inc., 656 F.3d 511, 520 (7th Cir. 2011)
(holding “the most important consideration” is
“whether the reviewing court finds itself genuinely
uncertain about a question of state law”) (quoting
State Farm Mut. Auto. Ins. Co. v. Pate, 275 F.3d 666,
671 (7th Cir. 2001)); Colonial Props., Inc. v. Vogue
Cleaners, Inc., 77 F.3d 384, 387 (11th Cir. 1996)
(“Where there is any doubt as to the application of
state law, a federal court should certify the question to

18
the state supreme court.”) (quoting Mosher v. Speedstar Div. of AMCA Int’l, Inc., 52 F.3d 913, 916-917
(11th Cir. 1995)); Owens v. Republic of Sudan, 864
F.3d 751, 812 (D.C. Cir. 2017) (“The most important
consideration guiding [certification] . . . is whether the
reviewing court finds itself genuinely uncertain about
a question of state law.”) (quoting Tidler v. Eli Lilly &
Co., 851 F.2d 418, 426 (D.C. Cir. 1988)).
The First, Second, Eighth, Ninth, Tenth, and
Federal Circuits hold that uncertainty, if not the most
important factor, is a key factor in determining
whether to certify. See, e.g., Showtime Entm’t, LLC v.
Town of Mendon, 769 F.3d 61, 79 (1st Cir. 2014)
(holding certification appropriate where state law
lacks sufficient “controlling precedent,” in that the
“course the state court would take is [not] reasonably
clear” but instead “presents close and difficult legal
issues”) (quoting In re Engage, Inc., 544 F.3d 50, 53
(1st Cir. 2008)); Doe v. Guthrie Clinic, 710 F.3d 492,
497 (2d Cir. 2013) (holding certification appropriate
where “we cannot predict with confidence how the
[state high court] would rule on this legal question”)
(citation and internal punctuation omitted); Hatfield
v. Bishop Clarkson Mem’l Hosp., 701 F.2d 1266, 1268
(8th Cir. 1983) (en banc) (holding certification
appropriate where “this court is without guidance from
the [state] courts”); Slayman v. FedEx Ground
Package Sys., Inc., 765 F.3d 1033, 1041 (9th Cir. 2014)
(declining to certify because case did “not raise an
unsettled question of substantive state law”); Pino v.
United States, 507 F.3d 1233, 1236 (10th Cir. 2007)
(Gorsuch, J.) (holding certification appropriate where

19
potentially dispositive state law question “is
sufficiently novel that we feel uncomfortable
attempting to decide it without further guidance”);
Klamath Irrigation Dist. v. United States, 532 F.3d
1376, 1377 (Fed. Cir. 2008) (holding certification
appropriate where “[t]his court discerns an absence of
controlling [state] precedent”); see also Gilbert v. Seton
Hall Univ., 332 F.3d 105, 114 (2d Cir. 2003)
(Sotomayor, J., dissenting from denial of certification)
(“Certification * * * is appropriate where * * * existing
state precedents do not enable us to predict how that
state’s highest court would decide the question.”).
This emphasis on uncertainty avoids certifying in
the ordinary course in cases where state law is at
issue. These circuits have thus recognized that
certification is inappropriate where “sources of state
law—statutes, judicial decisions, attorney general’s
opinions” are “sufficient” to “allow a principled rather
than conjectural conclusion.” See, e.g., Shevin, 526
F.2d at 274; Showtime Entm’t, 769 F.3d at 79 (holding
certification inappropriate if “the course the state
court would take is reasonably clear”); Slayman, 765
F.3d at 1041 (holding certification unnecessary when
resolution of the state issue requires “simply * * *
apply[ing] legal tests that [state] courts have applied
many times in prior cases”).
Respect for federalism underlies this focus on
uncertainty. The Second, Fifth, Eighth, Ninth, Tenth,
and Eleventh Circuits explicitly hold the federalism
concerns this Court identified in Lehman Brothers are
“compelling comity interests” that “guide us in
deciding whether to certify a question to a state

20
supreme court.” See, e.g., Munn v. Hotchkiss Sch., 795
F.3d 324, 329-334 (2d Cir. 2015) (“[E]specially where
the [state issues] implicate the weighing of policy
concerns, principles of comity and federalism strongly
support certification.”); Swindol v. Aurora Flight Sci.
Corp., 805 F.3d 516, 522 (5th Cir. 2015) (citing Shevin,
526 F.2d at 274-275) (discussing “the degree to which
considerations of comity are relevant in light of the
particular issue and case to be decided”); Hatfield, 701
F.2d at 1269 (“Delay in the factual context of the
present case does not outweigh the significant
principle of comity.”); Kremen v. Cohen, 325 F.3d 1035,
1038 (9th Cir. 2003) (“[T]he spirit of comity and
federalism cause us to seek certification.”); Pino, 507
F.3d at 1236 (“In making the assessment whether to
certify, we also seek to give meaning and respect to the
federal character of our judicial system, recognizing
that the judicial policy of a state should be decided
when possible by state, not federal, courts.”); Blue
Cross & Blue Shield of Ala., Inc. v. Nielsen, 116 F.3d
1406, 1413 (11th Cir. 1997) (certifying because
“[f]ederalism and comity require at least that much
deference to state courts on ultrasensitive state law
matters”).
Though not expressly justifying certification
through federalism and comity, the First, Seventh,
D.C., and Federal Circuits emphasize closely
analogous concerns about state issues of “extreme
public importance in which the [state] has a
substantial interest” justifying certification. See, e.g.,
In re Engage, Inc., 544 F.3d at 57 (holding certification
warranted for “importan[t] and complex[ ] ” state law

21
questions); Todd v. Societe BIC, S.A., 9 F.3d 1216,
1222 (7th Cir. 1993) (en banc) (holding certification
avoids “the state los[ing] the ability to develop or
restate the principles that it believes should govern
the category of cases”); Metz v. BAE Sys. Tech. Sol’ns
& Servs. Inc., 774 F.3d 18, 24 (D.C. Cir. 2014);
Klamath Irrigation Dist., 532 F.3d at 1377 (certifying
where state supreme court was “in a better position”
to interpret uncertain state law).
B. Four Of These Circuits Also Consider The
Importance Of The State-Law Issue
The Second, Seventh, Ninth, and D.C. Circuits also
consider the importance of the issue although they
consider it somewhat differently. See, e.g., Chauca v.
Abraham, 841 F.3d 86, 93 (2d Cir. 2016) (“In
determining whether to certify a question, then, ‘we
consider: (1) the absence of authoritative state court
decisions; (2) the importance of the issue to the state;
and (3) the capacity of certification to resolve the
litigation.’”) (quoting O’Mara v. Town of Wappinger,
485 F.3d 693, 698 (2d Cir. 2007); In re Badger Lines,
Inc., 140 F.3d 691, 698 (7th Cir. 1998) (“We have held
that * * * certification is appropriate when the case
concerns a matter of vital public concern.”); Kremen,
325 F.3d at 1037 (“The certification procedure is
reserved for state law questions that present
significant issues, including those with important
public policy ramifications.”); Metz, 774 F.3d at 24
(“Not only is the question Metz poses insufficiently
uncertain, it is also insufficiently significant.”).
Considering an issue’s importance ensures that the
“[state’s] interest [is] something more than that the

22
question is one of [state] law,” thus preventing “every
diversity case [from] com[ing] within its compass.”
Ibid.
C. The Sixth Circuit, By Contrast, Holds That
An Issue Must Be Both “New” And
“Unsettled” To Certify It
The Sixth Circuit holds that “[r]esort to the
certification procedure is most appropriate when the
issue is new and state law is unsettled.” Transamerica
Ins. Co. v. Duro Bag Mfg. Co., 50 F.3d 370, 372 (6th
Cir. 1995). Both elements are required before the
Sixth Circuit may consider certification. See, e.g.,
Smith v. Joy Techs., Inc., 828 F.3d 391, 397 (6th Cir.
2016) (“We may therefore decline certification even if
the [state] [s]upreme [c]ourt ‘has not addressed the
exact question at issue,’ so long as [state] law provides
‘well-established principles to govern’ the outcome of
the case.”) (quoting Transamerica, 50 F.3d at 372).
Although this standard may appear facially similar
to other circuits’ general formulations, the distinction
between a “new” and an “unsettled” or “uncertain”
issue is critical. In the Sixth Circuit, “new” is used “in
the sense that no court has addressed it [i.e., the
issue].” App., infra, 183a (Bush, J., dissenting from
denial of rehearing en banc) (emphasis added).
“Uncertain,” on the other hand, means that the answer
is unclear. Thus, even if “a decision from a federal
court has the foreseeable potential to create a different
state-law rule than what the state supreme court
would have produced” because the law is unclear, the
Sixth Circuit’s standard bars certification if a prior
lower state court “has addressed” the issue. See ibid.

23
This is exactly the situation here with respect to
the statutory bad-faith question. Since an intermediate state appellate court has previously
addressed it, it is no longer “new” and certificationworthy—even though its answer is so unclear that the
Sixth Circuit had in a prior case reached the opposite
conclusion. Compare Heil Co. v. Evanston Ins. Co., 690
F.3d 722, 728 (6th Cir. 2012) (holding punitive
damages unavailable on a claim for bad-faith breach of
insurance contract), with Riad v. Erie Ins. Exch., 436
S.W.3d 256, 275-276 (Tenn. Ct. App. 2013) (holding
punitive damages available). “As a result,” Judge
Bush noted, “the panel majority” failed to certify and
“reached a decision that is not opposed by any
controlling Tennessee authority but that nonetheless
presents a significant danger of being wrong.” App.,
infra, 183a (Bush, J., dissenting from denial of
rehearing en banc).
D. The Bare Guidance That Exists Fails To
Promote Consistent Decisions Regarding
Certification
Whether put in terms of “uncertain” or “unsettled,”
and whether with or without a gloss of “importance,”
the current lack of meaningful standards promotes
inconsistent outcomes. For example, lower courts have
taken different views regarding the impact on
certification of the presence of lower intermediate
appellate decisions. The Tenth Circuit certified in a
case lacking an “authoritative decision of the [state]
[s]upreme [c]ourt,” despite the presence of a “state
[intermediate appellate] court decision directly on
point.” Pino, 507 F.3d at 1237-1238 (Gorsuch, J.). The

24
reason: the state supreme court had “explicit[ly]
reserve[ed]” the “exact question presented in [the
intermediate appellate decision], indicat[ing] that the
state’s highest court considers it still very much open.”
Id. at 1238. In other words, the Tenth Circuit has
considered uncertainty less in terms of the quantum of
state court authority and more in terms of reason to
believe that the State Supreme Court recognizes the
issue as one that remains open for it to resolve. See
also Zahn v. N. Am. Power & Gas, LLC, 815 F.3d 1082,
1085 (7th Cir. 2016) (“[W]e have looked at * * *
‘whether “the state supreme court has yet to have an
opportunity [to] illuminate a clear path on the issue.’”)
(quoting Plastics Eng’g Co. v. Liberty Mut. Ins. Co., 514
F.3d 651, 659 (7th Cir.2008) (citation and quotation
marks omitted)).
The Sixth Circuit here, quite plainly, concluded
otherwise. The Tennessee Supreme Court has
indicated its view that the statutory and constitutional
issues remain open for it to resolve, and that it is open
to doing so. Despite its familiarity with the intermediate state appellate opinion directly on point, it
stressed that the statutory bad-faith question is one
that “has not before been addressed by this Court.”
App., infra, 135a. The statutory question’s uncertainty, in fact, made it “imprudent for [the court] to
answer” the two certified constitutional questions.
Ibid. Those two questions, the Tennessee Supreme
Court noted, were even more uncertain than the
statutory one. They “raise issues of first impression
not previously addressed by [any] appellate court[ in]
Tennessee.” App., infra, 135a (emphasis added). The

25
Tenth Circuit would have thus certified, as it did in
Pino.
Judge Calabresi has noted the distorting effect
over-reliance on state intermediate appellate decisions
can have on a litigant’s choice of forum:
[F]ederal courts have all too often refused to certify
when they can rely on state lower court opinions to
define state law. * * * Reluctance to certify is
wrong because it leads to precisely the kind of
forum shopping that Erie R.R. Co. v. Tompkins was
intended to prevent. This is especially so in
situations where there is some law in the
intermediate state courts, but no definitive holding
by the state’s highest tribunal. In such cases, and
in the absence of certification, the party that is
favored by the lower court decision will almost
invariably seek federal jurisdiction. It will do this
in order to prevent the state’s highest court from
reaching the issue, in the expectation that the
federal court—unlike the state’s highest court—
will feel virtually bound to follow the decisions of
the intermediate state courts.
McCarthy v. Olin Corp., 119 F.3d 148, 15-158 (2d Cir.
1997) (Calabresi, J., dissenting) (footnote and citations
omitted). Judge Easterbrook, too, has observed a
similar effect from federal courts over-weighing state
intermediate appellate court decisions. See Todd, 9
F.3d at 1222 (“The panel's analysis had substantial
propensity to attract all future cases of this kind into
federal court; an error in either direction could do so.
Little would be served by substituting the guess of
eleven judges for that of three; far better to pose the

26
questions to the only judges who can give definitive
answers.”).
Layering a vague reference to “importance” over
the vague determination of “uncertainty” does not
promote greater clarity. Here, the Sixth Circuit
apparently concluded that a question of state
constitutional law was insufficiently important to
merit certification. Other courts would take a different
view. The “ultrasensitive” “state constitutional law
issues” are precisely the kind that should be certified
because of “how closely they sound to the heart of a
state’s self-government.” E.g., Blue Cross & Blue
Shield of Ala., 116 F.3d at 1413. At a minimum,
whether statutory bad-faith damages abrogate
common law damages and, if not, whether Tennessee’s
punitive damages cap is constitutional are “significant
issues of state law,” which implicate the state’s
prerogative to “weigh[ ] ” competing “policy concerns.”
Munn, 795 F.3d at 334 (quoting Parrot v. Guardian
Life Ins. Co. of Am., 338 F.3d 140, 144 (2d Cir. 2003)).
II. This Case Provides An Excellent Opportunity
To Promote Consistency In Certification Of
State-Law Questions
This Court’s few statements regarding certification
offer general values that certification promotes. This
case provides an opportunity to operationalize those
values into standards capable of consistent
application.

27
B. Respecting State Sovereign Interests,
Judicial Efficiency, And Reducing Forum
Shopping Are The Primary Values Served
By Certification
“Through certification of novel or unsettled
questions of state law for authoritive answers by a
State’s highest court, a federal court may save ‘time,
energy, and resources and help build a cooperative
judicial federalism.’” Arizonans for Official English v.
Arizona, 520 U.S. 43, 77 (1997) (quoting Lehman Bros.
v. Schein, 416 U.S. 386, 391 (1974)). When the law is
unclear and courts of appeal hazard a guess as to what
a state court would do, they may be correct; “[y]et
under the regime of Erie R.R. Co. v. Tompkins, 304
U.S. 64 (1938), a State can make just the opposite her
law.” Lehman Bros., 416 U.S. at 389. “Federal courts
lack competence to rule definitively on the meaning of
state legislation.” Arizonans for Official English, 520
U.S. at 48. State high courts, rather than federal
courts, should thus be given the opportunity to
determine unsettled matters of state law.
From Erie R.R. Co. v. Tompkins, 304 U.S. 64
(1938), on, this Court has sought to promote uniform
application of state law in state and federal courts and
so discourage forum shopping. See, e.g., Hanna v.
Plummer, 380 U.S. 460, 468 (1965) (discussing “the
twin aims of the Erie rule: discouragement of forumshopping and avoidance of inequitable administration
of the laws”). Indeed, this was one of the reasons why
Lindenberg initially asked the district court to certify
the constitutional questions. “[C]ertifying the questions,” she argued, “will reduce the twin risks of

28
forum shopping and inconsistent outcomes.”
Lindenberg D.C. Mot. For Certification, ECF 167 at 34. Certification promotes these “twin aims” by limiting
divergence in the application of state law between
state and federal courts.
Certification thus reflects a particular instance of
“Our Federalism,” or “the notion of ‘comity,’ that is, a
proper respect for state functions” and “recognition of
the fact that the entire country is made up of a Union
of separate state governments.” Younger v. Harris,
401 U.S. 37, 44 (1971). Respecting this comity not only
benefits the States but also the federal government:
“the National Government will fare best if the States
and their institutions are left free to perform their
separate functions in their separate ways.” Ibid. Of
particular importance to the courts, doing so promotes
a healthy “cooperative judicial federalism.” Lehman
Bros., 416 U.S. at 391.
Judges on both lower federal courts and state high
courts have praised the positive impact that
certification has on federal-state court relations. See
Jona Goldschmidt, Certification of Questions of Law:
Federalism in Practice 53 (Am. Judicature Soc’y 1995)
(surveying “federal judges and state justices” and
finding “comity,” “expeditious resolution of unsettled
questions of state law,” “reducing risks of different
outcomes depending on forum choice,” and helping
“federal courts avoid the embarrassment of a wrong
guess on the development of state law” to be “major
benefits of certification”); Judith S. Kaye & Kenneth I.
Weissmann, Interactive Judicial Federalism: Certified
Questions in New York, 69 Fordham L. Rev. 373, 422

29
(2000) (“[T]he procedure has enabled state and federal
courts to speak openly to one another in the resolution
of cases that concern them both, thereby promoting a
cooperative federalism that independent court
systems and overflowing dockets do not ordinarily
permit.”). In a comprehensive survey, Goldschmidt
found that “[a]lmost all circuit judges (98%), district
judges (90%), and state justices (93%) agree that
certification allows the court to resolve the issues in
the case, ‘while respecting the answering court’s
authority.’” Goldschmidt 64 (emphasis and citation
omitted).
Additionally, the author found that
“[a]lmost all of the circuit judges (93%), district judges
(86%), and state justices (87%) agree that certification
improves federal-state comity.” Id. at 66 (emphasis
omitted).
When abstention remained the only option for
sending a question to the states, federal courts
sometimes hesitated to seek guidance, but “the
availability of certification greatly simplifies the
analysis.” Bellotti v. Baird, 428 U.S. 132, 151
(1976). By “put[ting] the question directly to the
State’s highest court,” certification “reduc[es] the
delay [and] cut[s] the cost” of litigation in the long
run. Arizonans, 520 U.S. at 76. Rather than itself
conducting potentially indeterminate research in a
quest for an uncertain answer, a federal court may
simply ask the authoritative interpreter what state
law means.
Certification also prevents future parties unhappy
with the federal rule from litigating the identical issue
in state court in an effort to obtain a better result.

30
Since it is a “proposition, fundamental to our system of
federalism” that “[n]either this Court nor any other
federal tribunal has any authority to place a
construction on a state statute different from the one
rendered by the highest court of the State,” Johnson v.
Fankell, 520 U.S. 911, 916 (1997) (citations omitted),
the federal courts would have to conform their view of
the law to the state supreme court’s after it issued its
decision.
As discussed above, pp. 25-26, supra, both Judges
Calebresi and Easterbrook have observed how
insufficient use of the certification process encourages
litigation of unsettled state law issues in federal court.
See, e.g., Ann Althouse, How to Build a Separate
Sphere: Federal Courts and State Power, 100 Harv. L.
Rev. 1485, 1511-1512 (1987) (“Plaintiffs will choose to
litigate their state law rights in a federal forum if they
believe—as many do—that a federal judge will be more
sympathetic to their claims and more likely to
translate favorable findings into generous remedies.”).
Discouraging such gamesmanship, moreover, would
encourage parties from the beginning to litigate cases
containing uncertain issues of state law in state court,
thereby promoting efficiency in the federal court
system and respect for state supreme court authority
over the development and interpretation of state law.
If litigants knew that the state supreme court, not the
federal court, would decide any uncertain and possibly
controlling issues of state law no matter where the
case was litigated, they would be unlikely to see any
advantage in taking the case to federal court. A
properly functioning certification system will

31
efficiently encourage parties to develop state law
through adjudication before state authorities.
B. Review In This Case Provides A Robust
Opportunity To Announce Materially
Clearer Standards For Certification
Given the variety of circumstances present here
favoring certification, this case provides an ideal
opportunity for this Court to promote consistency in
the certification procedure.
First, and most importantly, this case makes clear
that, absent exceptional circumstances, a federal court
should certify when a state supreme court has
previously made clear that an unresolved question of
state law merits its review. This approach satisfies all
the values motivating the certification procedure
better than a vague standard of “uncertainty” or
“unsettled law.” This approach looks beyond the bare
question whether intermediate state courts have ruled
on the issue. That may be relevant in the absence of a
clear indication from the state supreme court of its
interest in an issue, but it cannot and should not, by
itself, overcome such an expression of interest. “In
making the assessment whether to certify, we also
seek to give meaning and respect to the federal
character of our judicial system, recognizing that the
judicial policy of a state should be decided when
possible by state, not federal, courts.” Pino v. United
States, 507 F.3d 1233, 1236 (10th Cir. 2007) (Gorsuch,
J.).
Second, in the absence of such an express
indication by the state supreme court, a federal court

32
should certify a question whenever the federal court,
after examining the state supreme court’s standards
for accepting review within the state’s own court
system, concludes that the issue would be among those
to generate at least serious discussion among the state
justices regarding whether to accept review. If the
federal court concludes that it would, it should, absent
exceptional circumstances, certify the issue. Once
again, this approach is less focused on the bare
identification of state intermediate appellate court
decisions than it is on the likely behavior of the state’s
highest court. That remains the proper focus.
Considerations familiar to this Court would prove
relevant: whether there is disagreement among state
intermediate courts, whether the state supreme court
has previously been presented the opportunity to
review the issue and declined, whether the issue
frequently recurs or arises only rarely, etc.
Third, except in rare circumstances, a federal court
that concludes a state statute raises a substantial
question of consistency with a state constitutional
provision should not resolve the state constitutional
question unless the state supreme court has spoken to
the issue with sufficient clarity to leave the federal
court highly confident in its ruling. Questions of state
constitutional authority necessarily speak to matters
of public policy, expressed through legislation as well
as judicial pronouncements, that are the heart of state
soverign authority. Federal courts should not wander
into such controversies without clear guidance.
And when, as here, a federal court has a state
statutory question that presents a threshold question

33
that could, depending on how it is resolved, raise a
substantial state constitutional question, certification
of the statutory and constitutional questions is
appropriate As Judge Bush noted, “[b]ecause
federalism concerns as well as avoidance concerns
appear in a case like this one, where a state
constitutional question lurks behind a predicate statelaw question, certification seems doubly wise.” App.,
infra, 189a (Bush, J., dissenting).
Fourth, federal courts should give due respect to
the requests for certification from duly authorized
state executive branch officials. Cooperative
federalism is a matter not merely for court-to-court
interactions. Federal courts owe special regard to
state executive branch officials who speak for the
interests of the state in determining its own law.
To be sure, it is important not to bog down the
adjudication of diversity cases in federal courts by
making certification of state law issues routine. But
nothing in the standards noted above threatens to
promote routine certification. As this Court is well
aware, it is not the routine case that generates
potential legal issues for a jurisdiction’s highest court
to resolve. There should also be some clear negative
guidelines. For instance, in no case should a federal
court certify a state law question unless it concludes
that an aswer to the question is necessary to a proper
adjudication, including the scope of relief, of the claim
at issue. And, obviously, a federal court may certify a
state law question only if doing so comports with the
requirements for certification embodied in the
relevant state certification statute or rule.

34
Contrary to Judge Clay’s suggestion, clear
guidance that identifies more precisely when
certification is appropriate does not impinge on federal
court obligations to resolve cases that fall within its
diversity jurisdiction. The ultimate judgment in the
case, even after certification, remains a federal court
judgment. Congress’s grant of federal jurisdictional
authority in diversity cases provided authority to
resolve disputes that fall within the diversity
jurisdiction. But, as every first-year law student
learns, at least since Erie, the diversity jurisdiction is
not a grant of authority to federal courts to make state
law. Certification operationalizes one of our federal
system’s most fundamental tenets—a state’s
prerogative to say what its own law is. See, e.g., Erie
R.R. Co. v. Tompkins, 304 U.S. 64, 78 (1938) (“[T]he
constitution of the United States * * * recognizes and
preserves the autonomy and independence of the
states.”) (quoting Baltimore & Ohio R.R. Co. v. Baugh,
149 U.S. 368, 401 (1893) (Field, J., dissenting)). The
certification standards described above aim at
fulfilling a federal court’s twin duties of resolving
diversity cases and respecting each state’s sovereign
authority over its own law.
Neither would providing more clear standards
undermine the discretionary nature of certification. It
is the role of a supervising court to define for lower
courts what is the proper range of discretion properly
committed to them. A federal appellate court may
abuse the discretion committed to it regarding
certification just as a trial court may abuse the
discretion committed to it.

35
Under appropriate certification standards, the
Sixth Circuit should have certified here. The
Tennessee Supreme Court’s order declining to accept
certification from the district court indicated that both
the statutory and constitutional questions were
uncertain. App., infra, 134a-135a; see also Gilbert v.
Seton Hall Univ., 332 F.3d 105, 114 (2d Cir. 2003)
(Sotomayor, J., dissenting) (“Certification of a
determinative question of state law is appropriate
where, as here, existing state precedents do not enable
us to predict how that state’s highest court would
decide the question.”). It also indicated that it was
declining to accept certification only because the
district court had failed to certify the statutory badfaith question, which, in its view, might have allowed
it to avoid deciding any issue of Tennessee
constitutional law. App., infra, 135a. And it invited
the Sixth Circuit to consider properly certifying all
three questions on any appeal. Id. at 135a n.1.
Tennessee itself, acting through its Attorney General,
urged the Sixth Circuit to certify the constitutional
questions, if it did not avoid them by interpreting the
bad-faith statutory remedy to preclude punitive
damages on the contract claim.
Finally, there are no obstacles to this Court’s
review of the certification question. The issue of
certification was plainly considered by the appellate
panel and the full Sixth Circuit. While the panel
opinion does not discuss its reasons for refusing to
certify, Judge Clay’s separate opinion on rehearing
discusses those reasons at length. App., infra, 173a177a (Clay, J., concurring in denial of rehearing en

36
banc). The issue was the subject of a reasoned partial
dissent from one judge on the panel, App., infra, 43a78a (Larsen, J., concurring in part and dissenting in
part), and in two separate opinions regarding
rehearing, App., infra, 178a-194a (Bush, J.,
dissenting); App., infra, 195a-198a (Nalbandian, J.,
statement regarding denial of rehearing en banc).
There is no doubt that the issue received full
consideration by the Sixth Circuit. It is true that
Jackson National did not itself request certification in
its brief before the Sixth Circuit panel, but that is no
barrier here. The issue was briefed before both the
district court and the Sixth Circuit (at the urging of
the State of Tennessee), see pp. 7-8, 10, supra,
discussed during the oral argument before Sixth
Circuit, see p.10, supra, and briefed again in Jackson
National and Tennessee’s petitions for rehearing en
banc, see pp. 13-14, supra.
III. As An Alternative To Full Briefing And
Argument On The Merits, This Court Should
Hold This Petition With A View To Granting,
Vacating, And Remanding The Decision
Back To The Sixth Circuit In Light Of The
Tennessee Supreme Court’s Decision In
McClay
The Tennessee Supreme Court, in fact, has
accepted certification of the state constitutional
questions this dispute presents in a closely related
context: whether Tennessee’s statutory cap on noneconomic damages, Tenn. Code Ann. § 29-39-102,
violates the same two Tennessee constitutional
provisions involved in this case. See McClay v. Airport

37
Mgmt. Services, LLC, No. M2019-0051-SC-R23-CV,
order at 1 (Tenn. S.C. June 19, 2020),
https://www2.tncourts.gov/PublicCaseHistory/CaseDe
tails.aspx?id=76003&Party=True. The parties have
fully briefed the issues and the court has requested
oral argument. Ibid. When it resolves the certified
questions, its answers will provide guidance likely to
control the same questions as applied to punitive
damage caps.
This Court has in the past used the GVR process to
account for recent state court decisions, see, e.g.,
Arizona v. Gant, 540 U.S. 963 (2003) (per curiam),
including in diversity cases, like this one, where the
development in state law informed the rule of decision
regarding the underlying claim, e.g., Lords Landing
Village Condo. Council of Unit Owners v. Continental
Ins. Co., 520 U.S. 893, 897 (1997) (per curiam) (“Where
intervening developments, or recent developments
that we have reason to believe the court below did not
fully consider, reveal a reasonable probability that the
decision below rests upon a premise that the lower
court would reject if given the opportunity for further
consideration, and where it appears that such a
redetermination may determine the ultimate outcome
of the litigation, a GVR order is . . . potentially
appropriate.”) (quoting Lawrence v. Chater, 516 U.S.
163, 167 (1996) (per curiam)); Thomas v. Am. Home
Products, Inc., 519 U.S. 913 (1996) (per curiam)
(similar). In Thomas, Justice Scalia wrote separately,
in words that could well have been written for this
case, to explain why a GVR is appropriate in such
circumstances. First identifying himself as a critic of

38
what he perceived to be an “excessive use of the GVR
mechanism,” id. at 913 (Scalia, J., concurring), Justice
Scalia explained that this situation is at the core of the
proper use of the GVR mechanism. When GVRing a
case, “we are vacating the decisions below to allow the
Court of Appeals to consider an intervening decision of
the Court that is the final expositor of a particular
body of law—with federal questions, the Supreme
Court of the United States, and with questions of
[state] law, the Supreme Court of [the relevant state],”
id. at 915. Put simply, whether federal or state law
provides the rule of decision, the GVR process exists to
ensure that cases pending before the U.S. Supreme
Court get the benefit of the best available
understanding of the law from the appropriate
authoritative source.
Jackson National cannot know or reliably predict
when the Tennessee Supreme Court will rule in
McClay. But this Court may find it prudent to hold
this petition until the Tennessee Supreme Court
issues its decision. Jackson National will, of course,
keep this Court apprised of any further developments
in McClay.
CONCLUSION
The petition for a writ of certiorari should be
granted or this Court should hold and consider
granting, vacating, and remanding in light of McClay.

39
Respectfully submitted.
DANIEL W. VAN HORN
AMY M. PEPKE
ELIZABETH E. CHANCE
GADSON W. PERRY
BUTLER SNOW LLP
6075 Poplar Avenue,
Suite 500
Memphis, TN 38119
(901) 680-7200

ROBERT N. HOCHMAN
SIDLEY AUSTIN LLP
One South Dearborn St.
Chicago, IL 60603
(312) 853-7000
JUNE 2019

DANIEL R. ORTIZ
Counsel of Record
UNIVERSITY OF VIRGINIA
SCHOOL OF LAW
SUPREME COURT
LITIGATION CLINIC
580 Massie Road
Charlottesville, VA
22903
(434) 924-3127
dortiz@law.virginia.edu

APPENDIX

1a
RECOMMENDED FOR FULL-TEXT PUBLICATION

Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 18a0280p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

TAMARIN LINDENBERG, individually
and as natural guardian of her minor
children ZTL and SML,

┐
│
│
│
Plaintiff-Appellee/Cross-Appellant, │
│
> Nos. 17v.
│ 6034/6079
JACKSON NATIONAL LIFE INSURANCE
│
│
COMPANY,
│
Defendant-Appellant/Cross-Appellee, │
│
STATE OF TENNESSEE,
│
│
Intervenor-Appellee. │
┘

Appeal from the United States District Court for the
Western District of Tennessee at Memphis.
No. 2:13-cv-02657—Jon Phipps McCalla, District
Judge.

2a
Argued: May 3, 2018
Decided and Filed: December 21, 2018
Before: CLAY, STRANCH, and LARSEN, Circuit
Judges.

COUNSEL
ARGUED: Gadson W. Perry, BUTLER SNOW LLP,
Memphis, Tennessee, for Appellant/Cross-Appellee.
Molly A. Glover, BURCH, PORTER & JOHNSON,
PLLC, Memphis, Tennessee, for Appellee/CrossAppellant. Joseph Ahillen, OFFICE OF THE
ATTORNEY GENERAL OF TENNESSEE, Nashville,
Tennessee, for Intervenor Appellee. ON BRIEF:
Gadson W. Perry, Daniel W. Van Horn, Michael C.
McLaren,
BUTLER
SNOW
LLP,
Memphis,
Tennessee, for Appellant/Cross-Appellee. Molly A.
Glover, Charles S. Higgins, BURCH, PORTER &
JOHNSON, PLLC, Memphis, Tennessee, for
Appellee/Cross-Appellant. Joseph Ahillen, OFFICE
OF THE ATTORNEY GENERAL OF TENNESSEE,
Nashville, Tennessee, for Intervenor Appellee.
CLAY, J., delivered the opinion of the court in
which STRANCH, J., joined, and LARSEN, J., joined
in part. LARSEN, J. (pp. 26–47), delivered a separate
opinion concurring in part and dissenting in part.

3a

OPINION

CLAY, Circuit Judge. Defendant Jackson National
Life Insurance Company (“Defendant”) appeals from
the district court’s judgment enforcing a jury trial
verdict of $350,000 in actual damages, $87,500 in bad
faith damages, and $3,000,000 in punitive damages in
favor of Plaintiff Tamarin Lindenberg (“Plaintiff ” ),
individually and in her capacity as natural guardian
of her minor children, ZTL and SML.1 Plaintiff crossappeals, challenging a statutory cap that the district
court applied to reduce the award of punitive damages
to $700,000. The State of Tennessee (“the State”)
intervened to defend the statute. For the reasons that
follow, we AFFIRM the district court’s judgment on
all issues raised in Defendant’s appeal, REVERSE on
the issue raised in Plaintiff ’s cross-appeal, VACATE
the judgment as to punitive damages, and REMAND
with instructions for the district court to recalculate
the award of punitive damages in accordance with the
jury verdict and with this Court’s holding that the
statutory cap on punitive damages, T.C.A. § 29-39104, is unconstitutional.
1 During the pendency of this lawsuit, Plaintiff ’s minor child
ZTL joined the suit as co-plaintiff after reaching the age of
majority. Because this change was otherwise immaterial to the
proceedings, we refer in this opinion to the parties as they were
represented in the original complaint.

4a
BACKGROUND
This case arises in diversity and concerns a dispute
over a $350,000 life insurance policy issued by
Defendant to Thomas A. Lindenberg (“Decedent”).
Plaintiff Tamarin Lindenberg, the former wife of
Decedent, brought suit individually and in her
capacity as the natural guardian of her minor
children, ZTL and SML, the two children of Plaintiff
and Decedent. Plaintiff ’s claims included breach of
contract and both statutory and common law bad
faith.
Plaintiff is the primary beneficiary designated in
the life insurance policy at issue (the “Policy”) and was
to receive 100% of the proceeds of the Policy upon
Decedent’s death. The contingent beneficiaries of the
Policy are Decedent’s “surviving children equally.” (R.
125 at PageID #1854.) During their marriage, Plaintiff
and decedent adopted ZTL and SML. Third- Party
Defendant Mary Angela Williams (“Williams”) is
Decedent’s daughter from a prior marriage.
Plaintiff and Decedent executed a Marital
Dissolution Agreement (“MDA”) in 2005, and a divorce
decree was issued in 2006. The MDA required that
“Wife shall pay for the Life Insurance premium for the
Columbus and [Defendant] policies for so long as she
is able to do so and still support the parties[’]
children.” (Trial Ex. 10 at 7.) Additionally, the MDA
required “Husband at his expense [to] maintain in full
force insurance on his life having death benefits
payable to the parties’ children as irrevocable primary
beneficiaries[.]” (Id. at 9.)

5a
Decedent died on January 22, 2013. On February
6, 2013, Plaintiff filed a claim under the Policy for the
death benefit. On March 11, 2013, Plaintiff ’s attorney
sent Defendant a letter seeking expedited review of
the claim and payment of the death benefit. On March
22, 2013, Defendant responded with a letter requiring
further action by Plaintiff, including obtaining
“waivers to be signed by the other potential parties”
and “court-appointed Guardian(s) for the Estates of
the two minor children.” (Trial Ex. 23.) Defendant
stated that another option would be for Plaintiff to
waive her rights to the claim so that Defendant could
disburse the proceeds to the minor children.
Throughout the month of May 2013, Plaintiff and
Defendant were in communication about how to
proceed and whether Defendant would interplead the
funds with the court. This discussion culminated in
Plaintiff filing the instant lawsuit.
With its answer, Defendant included an
interpleader complaint that implicated Plaintiff and
Williams. Defendant later maintained that its
interpleader complaint also implicated the minor
children, ZTL and SML.2 Defendant asserted that it
When Plaintiff filed her original claim on the Policy,
Defendant insisted that Plaintiff must obtain waivers from
Decedent’s children before the Death Benefit could be
distributed. (See, e.g., R. 1-1 at PageID #9–10 (describing March
22, 2013, letter from Defendant to Plaintiff demanding “waivers
for the minor children” and “other children”).) However,
Defendant’s interpleader complaint did not clearly implicate the
minor children, alleging only that Williams had an “actual or
potential claim[ ] .” (R. 4 at PageID #87 ¶ 20.) Defendant later
characterized its complaint as implicating the minor children
2

6a
was “not in a position to determine, factually or
legally, who is entitled to the Death Benefit,” and
requested that the district court “determine to whom
said benefits should be paid.” (R. 4 at 7.)
Plaintiff and Williams jointly moved to dismiss the
interpleader complaint. While the motion was
pending, and after several months of litigation, the
parties filed a joint motion to appoint guardians ad
litem for the minor children, which the district court
granted. The court then granted the motion to dismiss
Defendant’s interpleader complaint. The court
further ordered Defendant “to disburse life insurance
policy benefits to Plaintiff in the amount of $350,000
with interest from January 23, 2013, until the
date of payment.” (R. 32 at 17.) Plaintiff ’s claims
against Defendant remained.
Defendant filed a motion to dismiss, attacking
Plaintiff ’s claims for punitive damages and bad faith.
Through a series of orders, the court granted in part
and denied in part Defendant’s motion. The court
dismissed Plaintiff ’s claims for common law bad faith.
The court allowed Plaintiff to proceed with her claims
for common law breach of contract, statutory bad
faith, and common law punitive damages predicated
on breach of contract.
when it opposed Plaintiff’s motion to dismiss the interpleader
complaint. (See R. 27 at PageID #195 (“[Defendant] has at all
times during the course of this litigation contended that
interpleader is appropriate because [Defendant] is or may be
exposed to multiple liabilities given the actual or potential claims
of [Plaintiff], her minor children, and/or Ms. Williams.”)
(emphasis in original).)

7a
Following discovery, Defendant filed for summary
judgment. The district court denied the motion on all
claims Plaintiff asserted in her personal capacity but
granted the motion on all claims Plaintiff asserted on
behalf of the minor children, ZTL and SML. The court
held a weeklong trial. Defendant moved for judgment
as a matter of law, which the district court denied. The
jury returned a verdict finding that (1) Defendant
breached its contract with Plaintiff, resulting in
actual damages in the amount of $350,000; (2)
Defendant’s refusal to pay was in bad faith, resulting
in additional damages in the amount of $87,500; and
(3) Defendant’s refusal to pay was either intentional,
reckless, malicious, or fraudulent. The jury then
returned a special verdict awarding Plaintiff punitive
damages in the amount of $3,000,000. Defendant
renewed its motion for judgment as a matter of law.
Defendant also argued that the district court must
apply T.C.A. § 29-39-104, a Tennessee statute that
caps punitive damages at two times the amount of
compensatory damages awarded or $500,000,
whichever is greater. In response, Plaintiff argued
that the statutory punitive damages cap violates the
Tennessee Constitution. On this basis, Plaintiff filed
a motion to certify the issue of the punitive damages
cap’s constitutionality to the Tennessee Supreme
Court. The State of Tennessee then moved to
intervene, which the district court permitted. The
district court agreed to certify the following two
questions to the Tennessee Supreme Court:
1. Do the punitive damages caps in civil cases
imposed by Tennessee Code Annotated Section

8a
29-39-104 violate a plaintiff ’s right to a trial by
jury, as guaranteed in Article I, section 6 of the
Tennessee Constitution?
2. Do the punitive damages caps in civil cases
imposed by Tennessee Code Annotated Section
29-39-104
represent
an
impermissible
encroachment by the legislature on the powers
vested exclusively in the judiciary, thereby
violating the separation of powers provisions of
the Tennessee Constitution?
(R. 188 at PageID # 4270.) The Tennessee Supreme
Court recognized that the “certified questions raise
issues of first impression not previously addressed by
the appellate courts of Tennessee” but declined to
provide an opinion on either of the certified questions.
(R. 209-1 at PageID #4916.)
The district court then rejected Defendant’s
renewed motion for judgment as a matter of law,
rejected Plaintiff ’s constitutional challenge to the
punitive damages cap, and entered judgment. In doing
so, the court applied the statutory punitive damages
cap to reduce Defendant’s liability for punitive
damages from $3,000,000 to $700,000. The parties
filed timely cross-appeals.
DISCUSSION
The parties challenge multiple aspects of the
proceedings below. Defendant argues that the district
court erred by dismissing its interpleader complaint,
failing to dismiss Plaintiff ’s punitive damages claim,
and failing to grant its motion for judgment as a
matter of law. Meanwhile, Plaintiff argues that the

9a
statutory punitive damages cap, T.C.A. § 29-39-104,
violates the Tennessee Constitution. We address
Defendant’s three arguments before turning to
Plaintiff ’s argument.
A. Dismissal
Complaint

of

Defendant’s

Interpleader

Defendant first argues that the district court erred
when it dismissed Defendant’s interpleader
complaint. “Interpleader is an equitable proceeding
that ‘affords a party who fears being exposed to the
vexation of defending multiple claims to a limited fund
or property that is under his control a procedure to
settle the controversy and satisfy his obligation in a
single proceeding.’” United States v. High Tech.
Prods., Inc., 497 F.3d 637, 641 (6th Cir. 2007) (quoting
7 Charles Alan Wright, et al., Federal Practice and
Procedure § 1704 (3d ed. 2001)). Interpleader may be
invoked either via Rule 22 of the Federal Rules of Civil
Procedure (“rule interpleader”) or via 28 U.S.C. § 1335
(“statutory interpleader”). In this case, Defendant
attempted to invoke statutory interpleader.
“An interpleader action typically proceeds in two
stages.” High Tech. Prods., 497 F.3d at 641. “During
the first stage, the court determines whether the
stakeholder has properly invoked interpleader . . . .”
Id. In order to properly invoke statutory interpleader,
a stakeholder must satisfy the statutory jurisdictional
requirements by properly pleading: (1) the existence of
actual or potential conflicting claims to a limited fund
or property held by the stakeholder, 28 U.S.C.§
1335(a); see High Tech. Prods., 497 F.3d at 642; (2) an
amount in controversy of at least $500, 28 U.S.C. §

10a
1335(a); and (3) minimal diversity among the
competing claimants. Id.; see State Farm Fire & Cas.
Co. v. Tashire, 386 U.S. 523, 530–31 (1967). “During
the second stage, the court determines the respective
rights of the claimants to the fund or property at stake
via normal litigation processes, including pleading,
discovery, motions, and trial.” High Tech Prods.,
497 F.3d at 641.
In this case, Defendant does not challenge the
district court’s dismissal of its interpleader complaint
on the merits. Instead, Defendant asserts that the
dismissal must be reversed because the district court
improperly relied on extrinsic evidence that “the
guardians ad litem of the minor children ha[d] waived
any claim the remaining contingent beneficiaries—
ZTAL and SML—may have to the benefits.” (First Br.
at 27.) We need not reach this issue, however, because
Defendant did not raise it below. See United States v.
Huntington Nat’l Bank, 574 F.3d 329, 332 (6th Cir.
2009) (holding that an argument is preserved if a
litigant (1) states “the issue with sufficient clarity to
give the court and opposing parties notice that it is
asserting the issue” and (2) provides “some minimal
level of argumentation in support of it”).
In fact, rather than challenging the waivers as
extrinsic evidence, Defendant invited the district court
to consider the waivers. Defendant discussed the
waivers at length in its opposition to Plaintiff ’s motion
to dismiss, arguing that the waivers were inadequate
for substantive reasons:
The Court should likewise reject [Plaintiff ]’s
contention that [Defendant]’s refusal to

11a
distribute the benefits is improper in light of the
affidavits and waivers that have been
submitted on behalf of the minor children.
Though the appointed guardians have
submitted their own affidavits and waivers on
behalf of the minor children, these “reports”
have not been approved by the Court as
required by statute. Thus, because [Defendant]
is not aware of any authority that would confer
the guardians with the inherent and
independent ability to lawfully waive the minor
children’s rights to the benefits, [Defendant]
cannot disburse the benefits directly to
[Plaintiff ] without further approval from this
Court. Accordingly, [Defendant] respectfully
requests permission to interplead the life
insurance benefits and that it be relieved from
further liability with respect to this matter
because [Defendant] has pled sufficient facts
evidencing “two or more” potential adverse
claims to the benefits.
(R. 27 at PageID #195–96; see also id. at PageID #204–
06.) Furthermore, Defendant specifically asked the
district court to dismiss its interpleader complaint if
the court found the waivers to be valid:
Alternatively, if the Court finds that the best
interests of the minor children have been served
and that . . . the minor children have lawfully
waived any potential claim to the life insurance
benefits, [Defendant] requests that the Court
exercise its discretion under Tennessee Code
Ann. § 34-1-121 to approve [Defendant]’s

12a
disbursement of the life insurance proceeds to
[Plaintiff ] and dismiss its action for
interpleader because all of the potentially
adverse interests have been waived.
(R. 27 at PageID #196.) We decline to consider
Defendant’s complaints about an analysis and an
outcome that Defendant itself requested. See United
States v. Hanna, 661 F.3d 271, 293 (6th Cir. 2011)
(holding that an invited error does not warrant
reversal).
B. Plaintiff ’s Punitive Damages Claim
Defendant next argues that the district court
should have dismissed Plaintiff ’ s claim for punitive
damages in its entirety rather than allowing the claim
to proceed to the extent that it was based on breach of
contract. This Court reviews de novo the district
court’s dismissal of a complaint for failure to state a
claim. Ass’n of Cleveland Fire Fighters v. City of
Cleveland, 502 F.3d 545, 548 (6th Cir. 2007). We must
accept the factual allegations in the complaint as true
and construe the complaint in the light most favorable
to the plaintiff. Hill v. Blue Cross & Blue Shield of
Mich., 409 F.3d 710, 716 (6th Cir. 2005).
Defendant argues that the district court’s denial of
its motion to dismiss runs afoul of this Court’s decision
in Heil Co. v. Evanston Insurance Co., 690 F.3d 722
(6th Cir. 2012). In Heil, an insurer refused to defend
Heil for the first two years of a wrongful death suit
before eventually taking over the defense. Id. at 726.
Heil then sued for breach of contract due to the failure
to pay attorney fees, violation of the bad faith statute,

13a
and bad faith failure to settle. Id. A jury found in
Heil’s favor on the first two of the three claims and
awarded punitive damages. Id. This court found clear
error, holding that the statutory remedy for bad faith
is the “exclusive extracontractual remedy for an
insurer’s bad faith refusal to pay on a policy.” Id. at
728. Therefore, under Heil, punitive damages—
whether predicated on bad faith, breach of contract, or
any other type of claim—may not be awarded in a case
involving an insurer’s bad faith refusal to pay. Id.
If Heil remains good law—which Plaintiff
disputes—then the district court should have
dismissed Plaintiff ’ s claim for punitive damages in its
entirety. Defendant invokes the general rule that, “[a]
panel of this Court cannot overrule the decision of
another panel.” Salmi v. Sec’y of Health & Human
Servs., 774 F.2d 685, 689 (6th Cir. 1985). But this rule
“is not absolute.” Hampton v. United States, 191 F.3d
695, 701 (6th Cir. 1999). An inconsistent decision from
the Supreme Court or from this Court sitting en banc
“overrules the prior decision.” Salmi, 774 F.2d at 689
(quoting Gist, 736 F.2d at 357–58). Similarly, an
interpretation of Tennessee law applied by one panel
of this Court is not binding on future panels where
there has been “an indication from the Tennessee
courts that they would have decided [the prior
decision] differently.” Hampton, 191 F.3d at 701
(alteration in original) (quoting Blaine Constr. Corp.
v. Ins. Co. of N. Am., 171 F.3d 343, 350–51 (6th Cir.
1999)). In Hampton, we found that a single decision of
a state court of appeals may abrogate this Court’s
interpretation of state law, at least in circumstances

14a
where (1) state law treats an appellate court decision
as controlling in the absence of a ruling from the state
supreme court; (2) there is no indication from the state
supreme court that it would reach a different outcome;
and (3) the state appellate court’s decision is
irreconcilable with our own ruling. See id. at 702
(quoting Wieczorek v. Volkswagenwerk, A.G., 731 F.2d
309, 310 (6th Cir. 1984) and citing Hicks v. Feiock, 485
U.S. 624, 630 n. 3 (1988)).
Our review of Tennessee caselaw reveals that the
Tennessee Court of Appeals has abrogated Heil’s
pronouncement that the statutory remedy for bad
faith is the “exclusive extracontractual remedy for an
insurer’s bad faith refusal to pay on a policy.” 690 F.3d
at 728. In Riad v. Erie Insurance Exchange, the
defendant relied on Heil to argue that the plaintiff
“was not entitled to damages beyond those
contemplated in” the bad faith statute and so could not
recover punitive damages. 436 S.W.3d 256, 275 (Tenn.
Ct. App. 2013), perm. app. denied (Tenn. 2014). The
appellate court rejected this contention, stating:
we reaffirm our conclusion that Plaintiff was
entitled to recover any damages applicable in
breach of contract actions and was not
statutorily limited to the recovery of the insured
loss and the bad faith penalty. Punitive
damages, while generally not available in a
breach of contract case, may be awarded in a
breach of contract action under certain
circumstances. To recover punitive damages,
the trier of fact must find that a defendant acted
either intentionally, fraudulently, maliciously,

15a
or recklessly. Erie does not argue that the jury
was improperly instructed or that the jury failed
to consider the applicable factors. Accordingly,
we further conclude that the issue of punitive
damages was properly submitted to the jury.
Id. at 276 (citations and internal quotation marks
omitted). Most relevant for our purposes, Riad
specifically quoted and disclaimed Heil’s statement
that the bad faith statute is an exclusive remedy,
explaining that it “ignores the Myint progeny of cases
. . . .” Id. Indeed, Myint—which Heil never mentioned,
even though Myint was decided before Heil and after
the unpublished cases that Heil relied upon—is
irreconcilable with Heil’s holding that the bad faith
statute provides an exclusive remedy. In Myint, the
Tennessee Supreme Court held exactly the opposite,
concluding that “nothing in . . . the bad faith statute .
. . limits an insured’s remedies to those provided
therein.” Myint v. Allstate Ins. Co., 970 S.W.2d 920,
925 (Tenn. 1998).
A published opinion of the Tennessee Court of
Appeals is “controlling authority for all purposes
unless and until such opinion is reversed or modified
by a court of competent jurisdiction.” Tenn. Sup. Ct. R.
4(G)(2); see Court of Appeals Precedent, Tenn. Op.
Att’y Gen. No. 07-98, 2007 WL 2221359 (July 3, 2007)
(explaining rule’s application to published opinions of
Tennessee Court of Appeals). We find no indication
that the Tennessee Supreme Court disagrees with

16a
Riad, which is a published case.3 See Tenn. Sup. Ct. R.
4(A)(1) (explaining that a “published” case is one that
is published in the Southwestern Reporter). As in
Hampton, then, a state appellate court in this case has
abrogated this Court’s interpretation of state law. See
Hampton, 191 F.3d at 702 (“[T]he Michigan Court of
Appeals decision in Froede controls and, until or
unless the Michigan Supreme Court decides
otherwise, or in some other way casts sufficient doubt
on that decision, we must abandon our interpretation
of Michigan law . . . .”). We find that Heil is no longer
good law to the extent that it held that the statutory
remedy for bad faith is the “exclusive extracontractual
remedy for an insurer’s bad faith refusal to pay on a
policy.” 690 F.3d at 728. The law in Tennessee now
provides that the statutory remedy for bad faith is the
exclusive statutory remedy for an insurer’s bad faith
refusal to pay on a policy, but a plaintiff may freely
pursue common law claims and remedies alongside a
statutory bad faith claim.4 See Riad, 436 S.W.3d at
276; T.C.A. § 56-8-113. Accordingly, we reject
Defendant’s argument that Heil requires us to reverse
the district court’s ruling.
The dissent draws a contrary conclusion, relying on language in the
Tennessee Supreme Court’s order refusing certification in this case. An
unpublished order, however, is not binding or precedential and cannot
“reverse[] or modif[y]” a decision in the manner contemplated by Rule
4(G)(2). When the high court disagrees with a decision, the normal
procedure is to allow the case to be appealed and then reverse it. In Riad,
the Tennessee Supreme Court denied permission to appeal. See Riad v. Erie
Ins. Exch., No. E2013-00288-SC-R11-CV, 2014 Tenn. LEXIS 196 (Mar.
4, 2014).
4 This statement of law incorporates the Court’s discussion of
T.C.A. § 56-8-113, infra.
3

17a
Defendant challenges this conclusion for two
reasons, neither of which is persuasive. First,
Defendant argues that Riad and Myint are limited to
cases involving tortious or quasi-tortious acts because
both cases involved claims under the Tennessee
Consumer Protection Act (“TCPA”), T.C.A. §§ 47-18101, et seq. But although both cases indeed involved
TCPA and breach-of-contract claims, neither court’s
underlying analysis of the bad faith statute was
concerned with the nature of the plaintiff’s related
claims. The Myint court looked to the text of the bad
faith statute to conclude that “nothing in . . . the bad
faith statute . . . limits an insured’s remedies to those
provided therein.” 970 S.W.2d at 925. Applying this
rule to the case before it, the court concluded that the
plaintiff could assert a TCPA claim alongside a bad
faith claim; only then did the court find that the TCPA
claim failed on the merits. Id. at 926. Meanwhile,
when the Riad court discussed punitive damages, it
did not link the availability of such damages to the
existence of any particular type of claim, such as a
TCPA claim; instead, the court merely required that
the “defendant acted either intentionally, fraudulently, maliciously, or recklessly.” 436 S.W.3d at 276.
Accordingly, Defendant is incorrect that Myint and
Riad are limited to cases involving tortious or quasitortious acts.
Second, Defendant argues that we should apply
Heil because the Tennessee General Assembly
overruled the Myint line of cases with a 2011 statutory
amendment, codified as T.C.A. § 56-8-113. The statute
provides:

18a
Notwithstanding any other law, title 50
[employment] and this title shall provide the
sole and exclusive statutory remedies and
sanctions applicable to an insurer . . . for alleged
breach of, or for alleged unfair or deceptive acts
or practices in connection with, a contract of
insurance . . . . Nothing in this section shall be
construed to eliminate or otherwise affect any
. . . [r]emedy, cause of action, right to relief or
sanction available under common law.
T.C.A. § 56-8-113. We disagree with Defendant’s
argument, finding that § 56-8-113 overrules Myint
only in part, and only in a manner not relevant here.
Under § 56-8-113, a plaintiff who asserts a bad faith
claim may not recover statutory damages beyond those
set forth in the bad faith statute and the title relating
to employment. But § 56-8-113 leaves intact Myint’s
underlying conclusion that nothing in the bad faith
statute itself “limits an insured’s remedies to those
provided therein[,]” 970 S.W.2d at 925, and the new
statute expressly disclaims any effect on the
availability of common law remedies like punitive
damages: “Nothing in this section shall be construed
to eliminate or otherwise affect any . . . [r]emedy,
cause of action, right to relief or sanction available
under common law[.]” T.C.A. § 56-8-113. Accordingly,
the new statute has no effect on Riad’s conclusion that
“[p]unitive damages, while generally not available in
a breach of contract case, may be awarded in a breach
of contract action under certain circumstances.” 436
S.W.3d at 276 (citations and internal quotation marks
omitted). Defendant’s argument is incorrect, and we

19a
affirm the district court’s denial of Defendant’s motion
to dismiss Plaintiff’s punitive damages claim for
breach of contract.
C. Defendant’s Motion for Judgment as a
Matter of Law
Defendant next challenges the district court’s
denial of its motion for judgment as a matter of law.
“We review de novo a district court’s denial of a motion
for judgment as a matter of law under Federal Rule of
Civil Procedure 50(b).” Rhinehimer v. U.S. Bancorp
Invs., Inc., 787 F.3d 797, 804 (6th Cir. 2015) (citing
Barnes v. City of Cincinnati, 401 F.3d 729, 736 (6th
Cir. 2005)). “In this Circuit, a federal court sitting in
diversity must apply the standard for judgments as a
matter of law of the state whose substantive law
governs.” DXS, Inc. v. Siemens Med. Sys., Inc., 100
F.3d 462, 468 (6th Cir. 1996).
Under Tennessee law, the reviewing court must
“take the strongest legitimate view of the
evidence in favor of the opponent of the motion,
allow all reasonable inferences in his or her favor,
discard all countervailing evidence, and deny the
motion where there is any doubt as to the
conclusions to be draw[n] from the whole
evidence.”
Stinson v. Crye-Leike, Inc., 198 F. App’x 512, 515 (6th
Cir. 2006) (alteration in original) (quoting Arms v.
State Farm Fire & Cas. Co., 731 F.2d 1245, 1248 (6th
Cir. 1984)). Judgment as a matter of law should be
granted “only if reasonable minds could draw but one

20a
conclusion.” Sauls v. Evans, 635 S.W.2d 377, 379
(Tenn. 1982).
Defendant asserts that the district court should
have granted its motion for judgment as a matter of
law regarding Plaintiff ’ s claims for (1) statutory bad
faith and (2) punitive damages predicated on breach of
contract. We address the two issues in turn.
1. Statutory Bad Faith Claim
Tennessee’s bad faith statute for insurers states
the following:
The insurance companies of this state, and
foreign insurance companies and other persons
or corporations doing an insurance or fidelity
bonding business in this state, in all cases when
a loss occurs and they refuse to pay the loss
within sixty (60) days after a demand has been
made by the holder of the policy or fidelity bond
on which the loss occurred, shall be liable to pay
the holder of the policy or fidelity bond, in
addition to the loss and interest on the bond, a
sum not exceeding twenty-five percent (25%) on
the liability for the loss; provided, that it is
made to appear to the court or jury trying the
case that the refusal to pay the loss was not in
good faith, and that the failure to pay inflicted
additional expense, loss, or injury including
attorney fees upon the holder of the policy or
fidelity bond[.]
T.C.A. § 56-7-105(a). In order to prevail on a § 56-7105 bad faith claim, a plaintiff must prove four
elements:

21a
(1) the policy of insurance must, by its terms,
have become due and payable, (2) a formal
demand for payment must have been made, (3)
the insured must have waited 60 days after
making his demand before filing suit (unless
there was a refusal to pay prior to the
expiration of the 60 days), and (4) the refusal to
pay must not have been in good faith.
Palmer v. Nationwide Mut. Fire Ins. Co., 723 S.W.2d
124, 126 (Tenn. Ct. App. 1986).
Defendant baldly asserts that it was entitled to
judgment as a matter of law on Plaintiff ’ s bad faith
claim because of “the lack of evidence in support of
[Plaintiff ] ’s bad-faith . . . claim[].” (First Br. 34.)
However, Defendant provides no support for this
assertion in its principal brief, which suggests that
Defendant waived this issue. See United States v.
Elder, 90 F.3d 1110, 1118 (6th Cir. 1996) (“[I]ssues
adverted to in a perfunctory manner, unaccompanied
by some effort at developed argumentation, are
deemed waived.” (citation omitted)).
In any event, Defendant’s argument fails on the
merits. In its reply brief, Defendant is more specific,
invoking the uncertainty defense to claims of bad
faith. An insurer “is entitled to rely upon available
defenses and refuse payment if there [are] substantial
legal grounds that the policy does not afford coverage
for the alleged loss.” Ginn v. Am. Heritage Life Ins.
Co., 173 S.W.3d 433, 443 (Tenn. Ct. App. 2004)
(citation omitted). Thus, the statute bars the
imposition of a bad faith penalty where (1) an insurer’s
refusal to pay is based on the insurer’s uncertainty

22a
about the true beneficiary or beneficiaries of a policy,
and (2) the insurer’s uncertainty is supported by a
substantial legal ground. See Nelms v. Tenn. Farmers
Mut. Ins. Co., 613 S.W.2d 481, 484 (Tenn. Ct. App.
1978). This holds true even if a court ultimately finds
that the claimant is entitled to the proceeds of the
policy. See id. A plaintiff who wishes to overcome the
uncertainty defense generally “must demonstrate
‘there were no legitimate grounds for disagreement
about the coverage of the insurance policy.’” Fulton
Bellows, LLC v. Fed. Ins. Co., 662 F. Supp. 2d 976, 996
(E.D. Tenn. 2009) (quoting Zientek v. State Farm Int’l
Servs., No. 1:05-cv-326, 2006 WL 925063, *4 (E.D.
Tenn. Apr. 10, 2006)). As always, a plaintiff may also
challenge the factual support for a defendant’s
proffered affirmative defense. See Ass’n of Owners of
Regency Park Condos. v. Thomasson, 878 S.W.2d 560,
566 (Tenn. Ct. App. 1994) (“For an affirmative
defense, which is affirmatively pleaded, the burden is
on the pleader to prove same.”) (quoting 11 Tenn. Jur.
Evidence § 50 (1984)).
Defendant argues that it was entitled to judgment
as a matter of law because it was “concerned about the
prospect of multiple liabilities” when it refused to pay
Plaintiff ’ s claim. (Third Br. 31.) This concern,
Defendant argues, arose from the fact that the MDA
between Plaintiff and Decedent rendered the Policy’s
primary beneficiary “ambiguous and uncertain.” (Id.)
In support of this uncertainty, Defendant cites Holt v.
Holt, 995 S.W.2d 68, 72 (Tenn. 1999), a case that
Defendant characterizes as standing for the proposition that “the MDA . . . vested the children with ‘an

23a
equitable interest’ in the policy at issue here, . . . and
that equitable interest created potential adversity
between the children and [Plaintiff].” (Third Br. 31.)
Applying Tennessee’s standard of review, however,
we find that reasonable minds could reject
Defendant’s argument because it is not clear that Holt
was the actual reason that Defendant refused to pay
Plaintiff ’ s claim.5 Indeed, reasonable minds could
instead conclude that Defendant raised the
uncertainty defense during litigation as a mere post
hoc explanation for its conduct. When Defendant
initially filed its interpleader complaint, the only
potential adverse claim it described was that of
Williams—not of the minor children. Defendant also
did not mention in its complaint its supposed
uncertainty about whether the minor children had an
equitable interest in the policy. And furthermore,
Defendant did not even mention Holt—the supposed
basis for its uncertainty—in its motion to dismiss
Plaintiff ’ s complaint.
Prior to its motion to dismiss, Defendant’s refusal
to pay had no apparent basis under the law. Indeed,
Defendant did not seem to understand—and certainly
did not convey—what Plaintiff could do to fulfill
Defendant’s demand for waivers from other potential
claimants. Trial witnesses testified that the
guardianship process Defendant suggested for obtaining waivers was complicated, uncommon, and
Because there is reason to believe that Defendant did not
rely on Holt in good faith, we need not decide whether good-faith
reliance on Holt could support a refusal to pay in the future under
analogous circumstances.
5

24a
unnecessary. Defendant’s staff admitted that it did
not “meticulously review” the letter it sent to Plaintiff
in which it demanded the waivers. (R. 184 at PageID
#3308.) And immediately after sending the letter, the
employee who wrote it closed the file on Plaintiff ’ s
complaint. Defendant’s purported uncertainty is not
consistent with its actions to stymie Plaintiff ’ s claim
under the Policy: Defendant initially refused to
consider as proposed guardians the very same individuals whom it would later jointly move the district
court to appoint to that role, Defendant repeatedly
stated that it would send waiver forms but never did,
and Defendant refused to consider Plaintiff ’ s
proposed alternative solution in the form of a hold
harmless and indemnification agreement. In light of
this evidence, a reasonable juror could conclude that
Defendant did not actually refuse to pay the claim
because of the legal uncertainty created by Holt.
2. Punitive Damages Claim Predicated on
Breach of Contract
Defendant next argues that it was entitled to
judgment as a matter of law on Plaintiff ’ s claim for
punitive damages arising from breach of contract.
“Punitive damages are intended to punish the
defendant for wrongful conduct and to deter others
from similar conduct in the future.” Clanton v. CainSloan Co., 677 S.W.2d 441, 445 (Tenn. 1984) (citing
Liberty Mut. Ins. Co. v. Stevenson, 368 S.W.2d 760
(Tenn. 1963)); see Browning-Ferris Indus. of Vt., Inc.
v. Kelco Disposal, Inc., 492 U.S. 257, 292 (1989)
(“Damages are designed not only as a satisfaction to
the injured person, but likewise as punishment to the

25a
guilty, to deter from any such proceeding for the future
and as a proof of the detestation of the jury to the
action itself.”) (quoting Wilkes v. Wood, Lofft. 1, 18–19,
98 Eng. Rep. 489, 498–499 (K.B. 1763)).
Punitive damages may be awarded in “egregious”
cases involving breach of contract where, in addition
to showing that the defendant breached a contract, the
plaintiff provides “clear and convincing proof that the
defendant
has
acted
either
‘intentionally,
fraudulently, maliciously, or recklessly.’” Rogers v.
Louisville Land Co., 367 S.W.3d 196, 211 n.14 (Tenn.
2012) (quoting Goff v. Elmo Greer & Sons Constr. Co.,
297 S.W.3d 175, 187 (Tenn. 2009)). For proof to be
clear and convincing, there must be “no serious or
substantial doubt about the correctness of the
conclusions drawn from the evidence.” Hodges v. S.C.
Toof & Co., 833 S.W.2d 896, 901 n.3. (Tenn. 1992). The
Supreme Court of Tennessee summarizes the four
levels of intent that are capable of giving rise to
punitive damages for a breach of contract as follows:
A person acts intentionally when it is the
person’s conscious objective or desire to engage
in the conduct or cause the result. A person acts
fraudulently when (1) the person intentionally
misrepresents an existing, material fact or
produces a false impression, in order to mislead
another or to obtain an undue advantage, and
another is injured because of reasonable
reliance upon that representation. A person acts
maliciously when the person is motivated by ill
will, hatred, or personal spite. A person acts
recklessly when the person is aware of, but

26a
consciously disregards, a substantial and
unjustifiable risk of such a nature that its
disregard constitutes a gross deviation from the
standard of care that an ordinary person would
exercise under all the circumstances.
Id. at 901 (citations omitted).
In this case, the jury faced the question of whether
Defendant’s breach of contract involved egregious
conduct. As previously discussed, reasonable minds
could find that Defendant’s uncertainty defense was
merely a post hoc explanation for its refusal to pay on
the Policy. Based on the following evidence,
reasonable minds could go further, finding that clear
and convincing evidence demonstrated that
Defendant’s refusal to pay was at least reckless.
Defendant was aware that its refusal to pay could
lead to litigation between multiple parties; indeed,
Defendant threatened to pursue such litigation itself
through an interpleader action, and ultimately did so.
Litigation inflicts substantial costs, both on the public
and on the parties involved, and reasonable minds
could
conclude
that
Defendant
consciously
disregarded a risk that its threats—and eventual
imposition—of litigation was unjustifiable. The jury
learned that Defendant misled Plaintiff about her
legal rights, incorrectly asserting that she had
“obviously waived her beneficiary status” under the
Policy. (R. 185 at PageID #3865.) The jury also learned
that Defendant provided no basis for this bald
assertion and that Defendant’s systems to prevent its
personnel from making false and unsupported
assertions of law were inadequate. The jury further

27a
learned that when Plaintiff complained about the cost
and confusion of Defendant’s seemingly unjustified
threat of an interpleader action, Defendant told her,
“that is not our problem.” (R. 182 at PageID #2799.)
Indeed, Defendant told the jury that it had no policy
or standard operating procedure in place to guide
Plaintiff’s claim to resolution without litigation, and
its staff was merely dedicated to “closing” Plaintiff’s
complaints. (R. 184 at PageID # 3268; R. 185 at
PageID #3873.)
In light of this evidence, reasonable minds could
have concluded that clear and convincing evidence
showed that Defendant’s pursuit of litigation with
Plaintiff was at least reckless. See Hodges, 833 S.W.2d
at 901. We therefore affirm the district court’s denial
of Defendant’s motion for judgment as a matter of law.
D. The Statutory Cap on Punitive Damages
On cross-appeal, Plaintiff argues that the statutory
punitive damages cap, T.C.A. § 29-39-104,6 which the
district court applied below, violates two provisions of
the Tennessee Constitution: the individual right to a
In relevant part, T.C.A. § 29-39-104(a)(5) provides that
punitive damages are limited to the greater of either double “the
total amount of compensatory damages awarded” or $500,000.
The limitation “shall not be disclosed to the jury, but shall be
applied by the court to any punitive damages verdict[.]” Id. § 2939-104(a)(6). The limitation does not apply in any suit involving
intent to inflict serious physical injury, intentional falsification
or concealment of records, injuries or death caused by an
intoxicated defendant, or felonious conduct. Id. § 29-39-104(a)(7).
The parties do not argue that any of the statutory exceptions
apply in this case or that the district court erred in its
calculations when applying the cap.
6

28a
jury trial and the doctrine of separation of powers.
This Court reviews de novo a district court’s
interpretation of state law. Salve Regina Coll. v.
Russell, 499 U.S. 225, 231 (1991). Faithful application
of a state’s law requires us to “anticipate how the
relevant state’s highest court would rule in the case,”
and in doing so we are “bound by controlling decisions
of that court.” In re Dow Corning Corp., 419 F.3d 543,
549 (6th Cir. 2005). Where, as here, the state’s
appellate courts have not addressed the issue
presented, “we must predict how the [state’s highest]
court would rule by looking to all the available data.”
Allstate Ins. Co. v. Thrifty Rent–A–Car Sys. Inc., 249
F.3d 450, 454 (6th Cir. 2001). Federal courts should be
“extremely cautious about adopting ‘substantive
innovation’ in state law.” Combs v. Int’l Ins. Co., 354
F.3d 568, 578 (6th Cir. 2004) (citation omitted). When
facing state constitutional challenges, Tennessee
statutes receive “a strong presumption” of
constitutionality. Lynch v. City of Jellico, 205 S.W.3d
384, 390 (Tenn. 2006) (citing Osborn v. Marr, 127
S.W.3d 737, 740–41 (Tenn. 2004)); see also Waters v.
Farr, 291 S.W.3d 873, 882 (Tenn. 2009) (“Our charge
is to uphold the constitutionality of a statute wherever
possible.”).
Upon our assessment of Tennessee law, we find
that the punitive damages bar set forth in § 29-39-104
violates the individual right to a trial by jury set forth
in the Tennessee Constitution. The Declaration of
Rights in the Tennessee Constitution provides that
“the right of trial by jury shall remain inviolate ….”
Tenn. Const. art. I, § 6. This broad language does not

29a
guarantee the right to a jury trial in every case.
“Rather, it guarantees the right to trial by jury as it
existed at common law under the laws and
constitution of North Carolina7 at the time of the
adoption of the Tennessee Constitution of 1796.”
Young v. City of LaFollette, 479 S.W.3d 785, 793
(Tenn. 2015) (internal quotation marks, alteration,
and citation omitted). “Among the essentials of the
right to trial by jury is the right guaranteed to every
litigant in jury cases to have the facts involved tried
and determined by twelve jurors.” State v. Bobo, 814
S.W.2d 353, 356 (Tenn. 1991).
Our review of historical evidence from Tennessee
and North Carolina demonstrates that punitive
damages awards were part of the right to trial by jury
at the time the Tennessee Constitution was adopted.
The North Carolina Supreme Court discussed the
issue of punitive damages in a case it decided the year
after the Tennessee Constitution was drafted,
Carruthers v. Tillman, 2 N.C. (1 Hayw.) 501 (1797).
Carruthers was a nuisance suit in which the defendant
was accused of “overflowing of the Plaintiff’s land.” Id.
at 501. The Court seized the opportunity to explain
the types of suits in which punitive damages (therein
referred to as exemplary damages) were appropriate:
[I]t is not proper, in the first instance, to give
exemplary damages, but such only as will
compensate for actual loss, as killing the timber
North Carolina has special relevance because the land that
became Tennessee was originally part of North Carolina, and
Tennessee’s Constitution draws heavily from North Carolina’s.
See In re Estate of Trigg, 368 S.W.3d 483, 491 (Tenn. 2012).
7

30a
or overflowing a field, so as to prevent a crop
being made upon it, and the like…. [B]ut if after
this the nuisance should be continued, and a new
action brought, then the damages should be so
exemplary as to compel an abatement of the
nuisance.
Id. In Rhyne v. K-Mart Corp., the North Carolina
Supreme Court cited Carruthers as its first case
discussing exemplary damages and as support for the
established place of punitive damages in North
Carolina common law. 594 S.E.2d 1, 6 (N.C. 2004).
Carruthers fits neatly with Wilkins v. Gilmore, an
1840 case in which the Tennessee Supreme Court held
that it was “clear” that “the jury are not restrained in
their assessment of damages, to the amount of the
mere pecuniary loss sustained by the plaintiff, but
may award damages, in respect of the malicious
conduct of the defendant, and the degree of insult with
which the trespass has been attended.” 21 Tenn. (2
Hum.) 140, 141 (1840). Together, Carruthers and
Wilkins demonstrate that North Carolina juries were
awarding punitive damages at the time the Tennessee
Constitution was drafted and that the practice
continued uninterrupted in Tennessee thereafter.
Accordingly, “the right to trial by jury as it existed at
common law” in 1796 would have included the right to
have the jury award punitive damages in appropriate
cases.8 Young, 479 S.W.3d at 793 (citations and
internal quotation marks omitted).
Tennessee’s cap on punitive damages applies by its plain
terms to all “civil action[s] in which punitive damages are
sought[.]” T.C.A. § 29-39-104(a). In attempting to narrow the
8

31a
Further review shows that the proper measure of
punitive damages is historically a “finding of fact”
within the exclusive province of the jury. In the 1839
case Boyers v. Pratt, a jury awarded the plaintiff the
sizable sum of $1,460 in damages for an assault claim.
20 Tenn. (1 Hum.) 90, 90 (1839). The Tennessee
Supreme Court summarized the problem of properly
assessing damages as follows:
Here there was a harmless, inoffensive
young man of religious habits and a noncombatant, a stranger in a strange land,
degraded by the infliction of the most
ignominious punishment from the hands of a
wealthy, influential and respectable citizen,
and without any thing approaching to adequate
cause. Who can begin to estimate, in dollars and
cents,
what
would
be
an
adequate
compensation for such an injury?
Id. at 93. The Court explained that “the peace of
society ought in cases of this kind always to be looked
to, and damages given to such an extent as will deter
persons from the commission of such offences.” Id. It
therefore concluded that it could not find the damages
excessive because “[t]he question is one purely of fact,
and we do not think that the jury have abused their
trust.” Id.
One hundred years later, the Tennessee Supreme
Court described another punitive damages award in
scope of the historical inquiry about the availability of punitive
damages, the dissent fails to acknowledge that the challenge in
this case is to a blanket statutory cap.

32a
similar terms. In Southeastern Greyhound Lines, Inc.
v. Freels, a passenger was refused the opportunity to
board a bus; the jury awarded $500 in punitive
damages even though the actual damages amounted
to less than two dollars. 144 S.W.2d 743, 744 (Tenn.
1940). Based on its review of the applicable authority,
the Court concluded that “the question is always for
the jury, as to whether or not there was anything in
the conduct of the defendant to aggravate the damages
and justify the recovery therefor in addition to the
actual damages suffered.” Id. at 746. It quoted with
approval an older case explaining that “punitory
damages can not be claimed as a matter of right; but
it is always a question for the jury, within its
discretion, no matter what the facts are.” Id. (quoting
Louisville & N.R. Co. v. Satterwhite, 79 S.W. 106, 112
(Tenn. 1904)). Ultimately, the court concluded that it
could not second-guess the jury’s verdict merely
because it was “unable to find strong support in this
case for the allowance of additional damages.” Id.
Following this line of cases from the Tennessee
Supreme Court, we find that the General Assembly’s
attempt to cap punitive damages pursuant to T.C.A.
§ 29-39-104 constitutes an unconstitutional invasion
of the right to trial by jury under the Tennessee
Constitution. See Tenn. Const. art. I, § 6. We therefore
hold that T.C.A. § 29-39-104 is unenforceable to the
extent that it purports to cap punitive damage awards.
Defendant and the State ask this Court to hold
otherwise for six reasons. We are not persuaded. First,
these parties challenge the notion that the amount of
punitive damages constitutes a “finding of fact.” The

33a
Court recognizes that some jurisdictions do not
consider punitive damage awards to be factual in
nature. For example, the Indiana Supreme Court
upheld a punitive damages cap in large part because
“the jury’s determination of the amount of punitive
damages is not the sort of ‘finding of fact’ that
implicates the right to jury trial under our state
constitution.” State v. Doe, 987 N.E.2d 1066, 1071
(Ind. 2013) (quoting Stroud v. Lints, 790 N.E.2d
440, 445 (Ind. 2003)). And the United States Supreme
Court has explained that, “[u]nlike the measure of
actual damages suffered, which presents a question of
historical or predictive fact, the level of punitive
damages is not really a ‘fact’ ‘tried’ by the jury.” Cooper
Indus., Inc. v. Leatherman Tool Grp., Inc., 532 U.S.
424, 437 (2001) (citation omitted) (quoting Gasperini
v. Ctr. for Humanities, Inc., 518 U.S. 415, 459 (1996)
(Scalia, J., dissenting)).
But as cases such as Wilkins, Boyers, and
Southeastern Greyhound demonstrate, Tennessee law
treats punitive damages differently, and it is not alone
in doing so. Indeed, the United States Supreme Court
acknowledged in Cooper Industries that there is a lack
of uniformity on this issue, stating:
Respondent argues that our decision in Honda
Motor Co. v. Oberg, 512 U.S. 415 (1994), rests
upon the assumption that punitive damages
awards are findings of fact. In that case, we held
that the Oregon Constitution, which prohibits
the reexamination of any “fact tried by a jury,”
violated due process because it did not allow for
any review of the constitutionality of punitive

34a
damages awards. Respondent claims that,
because we considered this provision of the
Oregon Constitution to cover punitive damages,
we implicitly held that punitive damages are a
“fact tried by a jury.” It was the Oregon Supreme
Court’s interpretation of that provision,
however, and not our own, that compelled the
treatment of punitive damages as covered. See
Oberg, 512 U.S. at 427; see also Van Lom v.
Schneiderman, 210 P.2d 461, 462 (Or. 1949)
(construing the Oregon Constitution).
Id. at 437 n.10 (citations omitted). The Missouri
Supreme Court further demonstrated this lack of
uniformity when, in a recent case, it struck down a
punitive damages cap on the basis that the cap
invaded the province of the jury. See Lewellen v.
Franklin, 441 S.W.3d 136, 145 (Mo. 2014) (en banc).
In that case, the Missouri Supreme Court explained
that, “[u]nder the common law as it existed at the time
the Missouri Constitution was adopted, imposing
punitive damages was a peculiar function of the jury.”
Id. at 143. Accordingly, the Court found that the
punitive damages cap violated a provision of the
Missouri Constitution that is materially identical to
the constitutional provision at issue in this case: “the
right of trial by jury as heretofore enjoyed shall
remain inviolate.” Mo. Const. art. 1, § 22(a). Faced
with this lack of uniformity, we find that the
Tennessee Supreme Court would likely apply its own
rule—which is shared by states like Missouri—and
would find that § 29-39-104 violates the constitutional
right to a trial by jury.

35a
Second, Defendant and the State point out that the
North Carolina Supreme Court affirmed a statutory
punitive damages cap in Rhyne. Given the two states’
shared history, Tennessee courts have sometimes
followed the lead of the North Carolina Supreme
Court. For example, in Jernigan v. Jackson, the
Tennessee Supreme Court considered whether
individuals have a right to a trial by jury in tax cases.
704 S.W.2d 308 (Tenn. 1986). The court based its
decision on a 1941 case from the North Carolina
Supreme Court, explaining:
North Carolina’s constitutional provision
granting trial by jury in civil cases . . . was in
1941 and is today in the same language as the
original, and at no time in its history has the
North Carolina Legislature authorized jury
trials in tax cases. It follows that under the law
in force and use in North Carolina in 1789 and
in 1796 when Tennessee’s first Constitution
was adopted, jury trials in tax cases were not
authorized.
Id. at 309 (citing Unemployment Comp. Comm’n v.
J.M. Willis Barber & Beauty Shop, 15 S.E.2d 4 (N.C.
1941)). The court therefore adopted the North
Carolina Supreme Court’s holding that juries were not
constitutionally required in tax cases. Id.
In this case, however, we are not persuaded that
the Tennessee Supreme Court would follow North
Carolina’s lead. The basis for the North Carolina
Supreme Court’s decision in Rhyne was a provision of
the North Carolina Constitution that protects the
right to a trial by jury in “all controversies at law

36a
respecting property.” See 594 S.E.2d at 10 (discussing
N.C. Const. art I, § 25). Based on this language, the
Rhyne court held that because there was
“no
independent right to, or ‘property’ interest in, an
award of punitive damages,” the legislature could
dictate the jury’s role in making such an award. See
id. at 13. But the same analysis does not apply in this
case because, unlike the North Carolina Constitution,
the Tennessee Constitution does not contain any
language limiting the right to a trial by jury to “all
controversies at law respecting property.” Instead, the
Tennessee Constitution broadly provides that “the
right of trial by jury shall remain inviolate . . . .” Tenn.
Const. art. I, § 6.
Third, Defendant and the State argue that the
punitive damages cap is constitutional because the
Tennessee General Assembly has the power to
abrogate or eliminate common law remedies. But this
argument merely begs the question because the
General Assembly’s power to change the common law
is subject to “constitutional limits.” Lavin v. Jordon,
16 S.W.3d 362, 368 (Tenn. 2000) (citing S. Ry. Co. v.
Sanders, 246 S.W.2d 65, 67 (Tenn. 1952)). To argue
that the General Assembly may cap punitive damages
based on its power to modify the common law is akin
to arguing that parents may drive as fast as they wish
because parents make the rules. Each argument
ignores a key constraint on the rulemaker’s authority.
In this case, of course, the preexisting constraint is the
constitutional right to submit factual questions for
determination by a jury.

37a
The State’s related discussion of Lavin does not
persuade us otherwise. The State cites Lavin as
support for the proposition that “capping punitive
damages was wholly within the legislature’s power.”
(Gov. Br. 24.) In Lavin, the Tennessee Supreme Court
analyzed a statute that capped a plaintiff ’ s recovery
in cases involving “injury or damage by juvenile” to
“the actual damages in an amount not to exceed ten
thousand dollars ($10,000) in addition to taxable court
costs.” See id. at 365 (quoting T.C.A. §§ 37-10-101,
102). The plaintiffs’ only argument was that the
$10,000 cap did not apply to their case because it did
not qualify as an “injury or damage by juvenile case”
within the meaning of the statute and as dictated by
binding precedent. See id. at 365, 368. In other words,
the plaintiffs did not raise any constitutional
challenges to the General Assembly’s power to cap
their recovery at $10,000. Id. The Tennessee Supreme
Court described the statute as “distasteful” because
$10,000 was “plainly inadequate and wholly
insufficient to compensate the plaintiffs” for the loss of
their son “to a senseless act of malicious violence . . . .”
Id. at 369. Nevertheless, the Court could only resolve
the question before it, which was a matter of statutory
interpretation. In the case presently before us,
however, there is no statutory interpretation issue;
rather, the question is whether a punitive damages
cap exceeds constitutional bounds. Lavin is therefore
unilluminating.
Fourth, citing BMW of North America, Inc. v. Gore,
517 U.S. 559, 568 (1996), the State argues that
“Tennessee’s statutory cap on punitive damages is a

38a
way of ensuring that the level of punitive damages will
meet the Gore due-process standard of normalization
and stabilization of awards.” (Gov. Br. 17.) But
Tennessee’s categorical punitive damages cap of “an
amount equal to the greater of: (A) Two (2) times the
total amount of compensatory damages awarded; or
(B) Five hundred thousand dollars ($500,000),” T.C.A.
§ 29-39-104(a)(5), bears no relationship to Gore’s
discussion of the federal constitutional limits on
punitive damages:
[W]e have consistently rejected the notion that
the constitutional line is marked by a simple
mathematical formula, even one that compares
actual and potential damages to the punitive
award. Indeed, low awards of compensatory
damages may properly support a higher ratio
than high compensatory awards, if, for
example, a particularly egregious act has
resulted in only a small amount of economic
damages. A higher ratio may also be justified in
cases in which the injury is hard to detect or the
monetary value of noneconomic harm might
have been difficult to determine. It is
appropriate, therefore, to reiterate our rejection
of a categorical approach. Once again, we
return to what we said in Haslip: “We need not,
and indeed we cannot, draw a mathematical
bright line between the constitutionally
acceptable
and
the
constitutionally
unacceptable that would fit every case. We can
say, however, that a general concern of
reasonableness properly enters into the

39a
constitutional calculus.” In most cases, the ratio
will be within a constitutionally acceptable
range, and remittitur will not be justified on
this basis. When the ratio is a breathtaking 500
to 1, however, the award must surely raise a
suspicious judicial eyebrow.
Gore, 517 U.S. at 582–83 (internal quotation marks,
emphasis, citations, and alterations omitted). We
therefore reject this argument.
Fifth, the State argues that Plaintiff may not
challenge the punitive damages cap because plaintiffs
are never entitled to punitive damages. Indeed,
Tennessee law recognizes that punitive damages are
not compensatory in nature. See Concrete Spaces, Inc.
v. Sender, 2 S.W.3d 901, 907–08 (Tenn. 1999). But for
centuries, the right to a trial by jury in Tennessee has
encompassed the right to ask a jury to determine the
quantity of damages that “will deter persons from the
commission of such offences.” Boyers, 20 Tenn. at 93.
A plaintiff ’ s right to submit that “question . . . purely
of fact,” id., to a jury is not vitiated merely because the
resulting award is non-compensatory. The district
court’s application of § 29-39-104 to reduce the jury’s
award of punitive damages undeniably reduced
Plaintiff ’ s recovery. Therefore, Plaintiff may
challenge the validity of the punitive damages cap.
Sixth, the State argues that the punitive damages
cap merely creates “legal consequences of the jury’s
finding on damages.” (Gov. Br. 25.) In other words,
§ 29-39-104 does not invade the province of the jury,
the State argues, because it allows the jury to make
the factual finding and only then is the “trial court . . .

40a
required[] to reduce the jury’s assessment of punitive
damages to comport with the law.” (Id.) Defendant
similarly argues that “there is no encroachment upon
the jury’s fact-finding role because the jury is never
aware of the cap.” (Third Br. 14.) Defendant and the
State imply that § 29-39-104 is merely a regulation on
the process of remittitur, but these parties do not use
the word “remittitur”—perhaps because the
Tennessee Supreme Court has repeatedly rejected the
General Assembly’s attempts to regulate the exercise
of remittitur. Indeed, the Tennessee Supreme Court
has historically treated remittitur as a judicial power
that may be influenced—but not controlled—by the
General Assembly. See Borne v. Celadon Trucking
Servs., Inc., 532 S.W.3d 274, 309–10 (Tenn. 2017)
(discussing history of remittitur in Tennessee); Foster
v. Amcon Int’l, Inc., 621 S.W.2d 142, 145 (Tenn. 1981)
(rejecting “hard and fast rules in reviewing additurs
and remittiturs”); Grant v. Louisville & N.R. Co., 165
S.W. 963, 966 (1914) (rejecting statute that barred
courts from suggesting remittitur absent a finding
that award was “so excessive as to indicate passion,
prejudice, corruption, . . . or . . . caprice” on the part of
the jury). The parties’ attempt to recast the General
Assembly’s invasion of the province of the jury as akin
to a regulation of remittitur therefore fails due to an
additional constitutional barrier.
The right to a trial by jury, moreover, is held by a
litigant, not the jury members. In this case, the jury
informed Plaintiff that Defendant’s conduct so
violated normal expectations of proper behavior as to
entitle her to $3,000,000 in damages. The jury’s

41a
ignorance of a subsequent reduction in the award does
not change that infringement on Plaintiff ’ s right.
Such an infringing reduction is not analogous to
permissible legal consequences that impact a jury’s
verdict. Statutory multipliers, for example, do not
undercut a jury’s assessment of damages, nor do
statutes that recognize the post-verdict authority of
the trial court to act as both judge and thirteenth
juror. For example, Tennessee’s remittitur statute
allows a trial court in certain circumstances to propose
“remittitur instead of granting a new trial.” Borne, 532
S.W.3d at 310. But allowing a trial judge, after
considering the attendant circumstances and proof in
a case, to offer a plaintiff the choice to avoid a new trial
is a far cry from legislatively reversing a jury’s
assessment of the amount of damages necessary to
deter a defendant from future wrongful conduct.
We therefore conclude that the statutory cap on
punitive damages set forth in T.C.A. § 29-39-104
violates the Tennessee Constitution.9
CONCLUSION
We therefore AFFIRM the district court’s
judgment in part, REVERSE in part, VACATE the
judgment as to punitive damages, and REMAND with
instructions for the district court to recalculate the
award of punitive damages in accordance with the jury
verdict and with this Court’s holding that the
9 Because we conclude that the punitive damages cap violates the
constitutional right to a trial by jury, we need not address Plaintiff’s
alternate argument that the cap is unconstitutional as a violation of
principles of separation of powers.

42a
statutory cap on punitive damages, T.C.A. § 29-39104, is unconstitutional.

43a

CONCURRING IN PART AND DISSENTING IN
PART

LARSEN, Circuit Judge, concurring in part and
dissenting in part.1 State courts are the authority on
questions of state law. Federal courts must sometimes
decide state law questions, but we are the back-ups.
We are to follow, not lead.
This case presents two uncertain and important
questions of state law: one concerning the proper
construction of a Tennessee statute; the other
concerning the conformity of a different Tennessee
statute with the Tennessee Constitution. The
Tennessee Supreme Court has signaled its willingness
to decide both of these state law questions, and we
have a mechanism— certification—that allows the
Tennessee Supreme Court to decide them. I would
take advantage of that mechanism to learn from
Tennessee’s highest court how it would interpret its
statutes and its Constitution.
The majority, however, elects to decide the state
law questions on its own. It first decides that
Tennessee’s bad faith statute, Tenn. Code Ann. § 567-105(a), does not bar a plaintiff from recovering
punitive damages in addition to the penalties provided
I concur in Section A of the majority’s opinion, which
properly resolves the interpleader issue.
1

44a
in the statute. That a prior decision of this court has
held to the contrary is no obstacle—the majority
overrules this court’s published decision in Heil Co. v.
Evanston Insurance Co., 690 F.3d 722 (6th Cir. 2012),
on the strength of a single, and questionable, decision
of Tennessee’s intermediate appellate court, Riad v.
Erie Insurance Exchange, 436 S.W.3d 256 (Tenn. Ct.
App. 2013). Riad rested entirely on the assumption
that a prior decision of the Tennessee Supreme Court
had already decided the question that Heil answered.
But we know that is wrong: The Tennessee Supreme
Court has told us so. See Lindenberg v. Jackson Nat’l
Life Ins. Co., No. M2015-02349-SC-R23-CV, 2016
Tenn. LEXIS 390, at *2 (Tenn. June 23, 2016) (per
curiam). Yet the majority overrules Heil anyway. And
with Heil gone, the majority proceeds to invalidate
Tennessee’s recently-enacted punitive damages cap,
Tenn. Code Ann. § 29-39-104, because the work of the
Tennessee General Assembly is at odds with the
majority’s view of the jury trial right guaranteed by
the Tennessee Constitution.
These two holdings are unnecessary. As to the
constitutional holding, it is not even clear that
Tennessee’s jury trial guarantee provides the rule of
decision in this federal diversity action under Erie
Railroad Co. v. Tompkins, 304 U.S. 64 (1938). If it does
not, then we have no occasion to construe the
Tennessee Constitution. Putting aside the Erie
question, the preclusive effect of Tennessee’s bad faith
statute and the constitutionality of the punitive
damages cap are both unsettled questions on which
there is no Tennessee Supreme Court authority and

45a
little (and conflicting) state law guidance. As such,
both questions are ideally suited for certification.
Tennessee’s highest court has expressed its
receptiveness to certification; the State urges
certification; and neither Lindenberg nor Jackson
National objects to certification.
But since the majority has declined this prudent
path, I will also express my views of the merits. On
both questions, I believe the majority errs. I
respectfully dissent.
I.
Tennessee Supreme Court Rule 23 provides the
court with discretion to accept questions certified to it
by the federal courts “when the certifying court
determines that . . . there are questions of [Tennessee
law] which will be determinative of the cause and as
to which it appears . . . there is no controlling
precedent in the decisions of the Supreme Court of
Tennessee.” Here, we have two questions of state law
on which “there is no controlling precedent in the
decisions of the Supreme Court of Tennessee”: (1)
whether Tennessee’s bad faith statute, § 56-7-105(a),
provides the exclusive extracontractual remedy in a
breach-of-contract case arising from an insurer’s
breach of an insurance contract; and (2) whether
Tennessee’s punitive damages cap, § 29-39-104,
violates the Tennessee Constitution. Certification of
both questions would, therefore, meet the “no
controlling precedent” requirement of Tennessee
Supreme Court Rule 23.

46a
U.S. Supreme Court decisions also support
certification when there are “[n]ovel, unsettled
questions of state law.” Arizonans for Official English
v. Arizona, 520 U.S. 43, 79 (1997). The Court has
stressed that certification “save[s] ‘time, energy, and
resources.’” Id. at 77 (quoting Lehman Bros. v. Schein,
416 U.S. 386, 391 (1974)). Most important of all,
certification “helps build a cooperative judicial
federalism.” Lehman Bros., 416 U.S. at 391.
Federalism concerns are especially weighty—and
certification is especially warranted—“when a federal
court is asked to invalidate a State’s law, for the
federal tribunal risks friction-generating error when it
endeavors to construe a novel state Act not yet
reviewed by the State’s highest court.” Arizonans for
Official English, 520 U.S. at 79. And, in a passage that
feels highly relevant today, the Court called a federal
court’s “[s]peculation . . . about the meaning of a state
statute . . . particularly gratuitous when . . . the state
courts stand willing to address questions of state law
on certification from a federal court.” Id. at 79
(quotations omitted). Here, while the majority’s
speculation about the meaning of a state statute
results in the invalidation of state law on an equally
speculative construction of the state constitution,
there is no question the Tennessee Supreme Court
“stand[s] willing to address” these novel issues.
One might perhaps question this willingness
because the district court did certify two questions
regarding the constitutionality of the punitive
damages cap, and the Tennessee Supreme Court
declined to review the questions. But this ignores why

47a
that court did so. The Tennessee Supreme Court
refused the certified constitutional questions because
the district court had failed also to certify the
antecedent question concerning the preclusive effect of
the bad faith statute. Accordingly, it seems the
questions
certified
might
not
have
been
“determinative of the cause” under Tennessee
Supreme Court Rule 23. The Tennessee Supreme
Court explained:
The jury determined that the plaintiff was
entitled to both the statutory bad faith penalty
pursuant to Tennessee Code Annotated section
56-7-105, and punitive damages pursuant to
the common law. The issue of the availability of
the common law remedy of punitive damages in
addition to the statutory remedy of the bad faith
penalty is one which has not before been
addressed by this Court, was not certified to
this Court by the federal trial court in this case,
and is not presently before this Court in this
case. It appears to this Court that it would be
imprudent for it to answer the certified
questions concerning the constitutionality of
the statutory caps on punitive damages in this
case in which the question of the availability of
those damages in the first instance has not been
and cannot be answered by this Court.
Lindenberg v. Jackson Nat’l Life Ins. Co., No. M201502349-SC-R23-CV, 2016 Tenn. LEXIS 390, at *1–2
(Tenn. June 23, 2016) (per curiam). The Tennessee
Supreme Court, however, welcomed this court to send

48a
it both the statutory and the constitutional questions,
noting:
Nothing in the Court’s Order is intended to
suggest any predisposition by the Court with
respect to the United States Court of Appeals
for the Sixth Circuit’s possible certification to
this Court of both the question of the
availability of the remedy of common law
punitive damages in addition to the remedy of
the statutory bad faith penalty and the question
of the constitutionality of the statutory caps on
punitive damages, in the event of an appeal
from the final judgment in this case.
Lindenberg, 2016 Tenn. LEXIS 390, at *2 n.1.
I would accept this invitation; but the majority has
declined. And so I proceed to the merits.
II.
This case asks what remedies are available to an
insured who believes that her insurer has, in bad
faith, breached its obligation to pay on an insurance
policy. In 1901, the Tennessee General Assembly
enacted the bad faith statute, Tenn. Code Ann. § 56-7105, which provides a 25% penalty in those
circumstances—i.e., “in all cases” where an insurance
company refuses, in bad faith, to pay an insurance
claim. See Leverette v. Tenn. Farmers Mut. Ins. Co.,
No. M2011-00264-COA-R3-CV, 2013 WL 817230, at
*17 (Tenn. Ct. App. Mar. 4, 2013) (quoting Tenn. Code
Ann. § 56-7-105(a)). Tennessee courts have held, and
repeatedly affirmed, that the bad faith statute
precludes recognition of the common law tort of bad

49a
faith failure to pay an insurance claim. See Chandler
v. Prudential Ins. Co., 715 S.W.2d 615, 618–21, 625
(Tenn. Ct. App. 1986); Leverette, 2013 WL 817230, at
*17–18. The fundamental question in this litigation is
whether the bad faith statute likewise precludes a
claim for punitive damages arising from a common law
breach of an insurance contract—put another way,
whether the statute provides the exclusive “punitive”
or “extracontractual” remedy for an insurer’s bad faith
failure to pay.
This court has already answered, “Yes.” See Heil
Co. v. Evanston Ins. Co., 690 F.3d 722, 728 (6th Cir.
2012). Lindenberg, the district court, and the majority
all say, “No.” They say that Lindenberg may also
recover punitive damages based on Jackson National’s
bad faith breach of contract. But of course, the breach
of contract in this case is the failure to pay on the
insurance claim. And to get punitive damages, if they
are allowed at all, Lindenberg would have to prove
something more than just a breach of contract—she
would have to show conduct amounting at least to “bad
faith.” See Rogers v. Louisville Land Co., 367 S.W.3d
196, 211 n.14 (Tenn. 2012) (explaining that punitive
damages are “limited to ‘the most egregious cases’ and
[are] proper only where there is clear and convincing
proof that the defendant has acted either
‘intentionally,
fraudulently,
maliciously,
or
recklessly’” (citation omitted)). Jackson National
argues that punitive damages should not be layered
on top of the statutory bad faith penalty.
In Heil, this court determined that the bad faith
statute precludes punitive damages for common law

50a
breach of an insurance contract. Heil, 690 F.3d at 728.
If Heil remains good law, it controls this case. The
majority jettisons Heil based on one Tennessee
intermediate appellate court decision, Riad v. Erie
Insurance Exchange, 436 S.W.3d 256 (Tenn. Ct. App.
2013). Although an intermediate state appellate
decision may displace this court’s prior interpretation
of state law, this rule does not obtain when there are
persuasive reasons to believe the state’s highest court
would disagree. See Hampton v. United States, 191
F.3d 695, 701–02 (6th Cir. 1999). Here there are many.
Riad’s analysis repudiating Heil rested entirely on
that court’s shaky assumption that an earlier
Tennessee Supreme Court decision, Myint v. Allstate
Insurance Co., 970 S.W.2d 920 (Tenn. 1998), had
already decided that the bad faith statute does not
preclude punitive damages. See Riad, 436 S.W.3d at
276 (criticizing Heil for “ignor[ing] the Myint progeny
of cases”).2 But we now know that Riad’s assumption
was wrong. The Tennessee Supreme Court has told
us so: “The issue of the availability of the common law
remedy of punitive damages in addition to the
statutory remedy of the bad faith penalty is one which
has not before been addressed by this Court . . . .”
Lindenberg, 2016 Tenn. LEXIS 390, at *2. That
eviscerates Riad’s analysis. But even apart from its
order regarding certification, there are reasons to
doubt that the Tennessee Supreme Court would adopt
Riad’s reasoning.
I remain uncertain just which cases Riad was referencing
as Myint’s supposed “progeny.” Riad cites none; I have found
none.
2

51a
To begin with, Myint did not directly address the
question at issue in Heil. In Myint, the plaintiffs
brought claims under both the bad faith statute and
the Tennessee Consumer Protection Act (TCPA),
Tenn. Code Ann. §§ 47–18–101 et seq., as well as a
claim for breach of contract. 970 S.W.2d at 923. But
Myint did not address the breach of contract claim, nor
did it mention punitive damages at all. Rather, Myint
focused on whether the TCPA applied to the insurance
industry, given that the industry was already subject
to Tennessee’s comprehensive insurance code. See id.
at 922 (“[T]he insur[e]r insists that the acts and
practices of an insurance company are never subject to
the [TCPA].”). Myint held that insurers were not
exempt from the TCPA for two reasons. First, the
court concluded, the state’s insurance statutes,
including the bad faith statute, “do not foreclose
application of the [TCPA] to insurance companies.” Id.
at 925. Second, the court noted that the TCPA
contained “crystal clear” language demonstrating that
its remedies are cumulative to all others available
under state law. Id. at 926.
Although Myint focused on the cumulative nature
of the TCPA, Riad latched onto the high court’s
statement that it could “find nothing in either the
Insurance Trade Practices Act or the bad faith statute
which limits an insured’s remedies to those
provided therein.” See 436 S.W.3d at 274 (emphasis
added) (quoting Myint, 970 S.W.2d at 925). From this
comment, Riad inferred that plaintiffs could recover
both the statutory bad faith penalty and punitive
damages for breach of contract. Although this is a

52a
facially plausible inference, other evidence casts
serious doubt on whether the Tennessee Supreme
Court would agree.
Pre-Myint cases held that the bad faith statute
precludes common law claims for damages arising
from an insurer’s bad faith failure to pay. So Heil’s
conclusion was not new. Heil based its holding on two
decisions—one federal, one state—that had construed
the bad faith statute as an exclusive remedy. See
Mathis v. Allstate Ins. Co., No. 91-5754, 1992 WL
70192, at *4 (6th Cir. Apr. 8, 1992) (“[T]he trial judge
correctly noted that the 25 percent penalty provided
for in [the bad faith statute] has been deemed the
exclusive remedy for losses stemming from an
insurer’s bad faith refusal to pay a claim.”); Berry v.
Home Beneficial Life Ins. Co., No. 1150, 1988 WL
86489, at *1 (Tenn. Ct. App. Aug. 19, 1988)
(“Moreover, as to the claim for punitive damages, [the
bad faith statute] is the exclusive remedy for bad faith
refusal to pay claims arising from insurance
policies.”).
And, although we did not discuss it in Heil, the
Tennessee Court of Appeals held, over a decade before
Myint, that the bad faith statute precludes recognition
of the common law tort of bad faith failure to pay on
an insurance policy. See Chandler, 715 S.W.2d at 618–
21. Chandler is not the work of the Tennessee
Supreme Court, but there is no question that its
holding regarding the bad faith penalty’s preclusion of
the common law tort of bad faith survived Myint. See
Leverette, 2013 WL 817230, at *18 (“Neither this court
nor the Tennessee Supreme Court has overruled or

53a
even questioned the continuing validity of
Chandler.”); see also Fred Simmons Trucking, Inc. v.
U.S. Fid. & Guar. Co., No. E2003-02892-COA-R3-CV,
2004 WL 2709262, at *3 (Tenn. Ct. App. Nov. 29, 2004)
(citing Chandler for Tennessee rule that “there is no
tort of bad faith, but an insured can seek the statutory
bad faith penalty when an insurance company refuses
to pay”); Watry v. Allstate Prop. & Cas. Ins. Co., No.
M2011–00243–COA–R3–CV, 2011 WL 6916802, at *4
(Tenn. Ct. App. Dec. 28, 2011) (“Tennessee does not
recognize a general common law tort for bad faith by
an insurer against an insured; the exclusive remedy
for such conduct is statutory, provided by [the bad
faith statute].” (quotations omitted)); 6111 Ridgeway
Grp. LLC v. Phila. Indem. Ins. Co., No. 15-2561-STAcgc, 2016 WL 1045570, at *4 (W.D. Tenn. Mar. 15,
2016) (noting that “Tennessee courts have followed
Chandler for thirty years”). Indeed, Riad itself
acknowledged Chandler’s holding “that Tennessee did
not recognize the tort of bad faith.” Riad, 436 S.W.3d
at 273. But, said Riad, “the court did not address the
type of recovery [a] plaintiff could seek if she had
brought a breach of contract action.” Id.
I suppose this could be Tennessee’s regime:
Tennessee’s bad faith statute precludes the common
law tort of bad faith failure to pay on an insurance
policy, per Chandler, and punitive damages flowing
therefrom, per Chandler and Leverette, but permits
punitive damages for the same failure to pay when
that failure is cast, not as tort, but as breach of
contract, per Riad. But Riad’s own reasoning would
foreclose it. If Riad is right about the force of Myint’s

54a
statement—“nothing in . . . the bad faith statute . . .
limits an insured’s remedies to those provided
therein,” Myint, 970 S.W.2d at 925—then that should
apply to the tort of bad faith as well as to a claim for
punitive damages in contract. But Chandler expressly
said otherwise, and nothing suggests that Myint
repudiated Chandler in toto, or that all the post-Myint
cases reaffirming Chandler are wrong. It seems far
more plausible to me that Myint applied only to the
TCPA.
No Tennessee state court decision has relied on
Riad’s sui generis reading of Myint. One reason for
this may be that the General Assembly legislatively
reversed Myint’s holding in 2011 by enacting Tenn.
Code Ann. § 56-8-113. That provision states that “title
50 and [title 56],” which include the bad faith statute,
“shall provide the sole and exclusive statutory
remedies and sanctions applicable to an insurer.” Id.
§ 56-8-113. Riad acknowledged Myint’s abrogation in
a footnote, see 436 S.W.3d at 274 n.3, but Riad did not
need to address § 56-8-113 because it involved a cause
of action that accrued well before 2011.3 Here,
however, the cause of action accrued after § 56-8-113’s
enactment, so Myint has limited, if any, bearing on
this case.

In light of this, some federal district courts have construed
Riad as applying only to pre-§ 56-8-113 actions. See Spring Place
Church of God of Prophecy v. Bhd. Mut. Ins. Co., No. 1:13-CV405, 2015 WL 12531988, at *4 n.4 (E.D. Tenn. Mar. 16, 2015);
Akers v. Allstate Prop. & Cas. Ins. Co., No. 2:14-CV-72, 2015 WL
11005023, at *5 (E.D. Tenn. Sept. 28, 2015).
3

55a
The majority dismisses the significance of Myint’s
abrogation because § 56-8-113 provides that “[n]othing
in this section shall be construed to eliminate or
otherwise affect any . . . [r]emedy, cause of action,
right to relief or sanction available under common
law.” According to the majority, this statement “leaves
intact Myint’s underlying conclusion” regarding the
bad faith statute and so does not alter Riad’s holding
regarding the availability of punitive damages for
breach of contract. The problem with the majority’s
reasoning is that neither Myint nor any Tennessee
case before Riad had affirmed that punitive damages
were “available under common law” for breach of an
insurance contract. As discussed above, when the
General Assembly passed § 56-8-113 in 2011, all the
caselaw on the subject held the opposite. And Riad
was decided after § 56-8-113 was passed, so the
General Assembly could not have contemplated, and
ratified, Riad’s broad reading of Myint. Therefore,
although § 56-8-113 preserved the common-law status
quo, there is no indication that it preserved the
availability of punitive damages in a case like this.
In sum, there are good reasons to question Riad’s
interpretation of Myint: Myint’s focus on the TCPA,
the absence of caselaw supporting Riad’s
interpretation, the discordant Chandler line of cases,
and Myint’s legislative abrogation. And all of this is
reason to doubt that the Tennessee Supreme Court
would agree with Riad and disapprove of this court’s
reasoning in Heil. But most importantly, we need not
wonder whether Myint controls this case. The
Tennessee Supreme Court has told us that Riad was

56a
wrong to think that it had settled matters in Myint:
“The issue of the availability of the common law
remedy of punitive damages in addition to the
statutory remedy of the bad faith penalty is one which
has not before been addressed by [the Tennessee
Supreme] Court . . . .” Lindenberg, 2016 Tenn. LEXIS
390, at *2. Because we thus have serious reason to
doubt whether the Tennessee Supreme Court would
agree with Riad, I would stick with our own precedent,
Heil. I would therefore reverse the district court and
vacate the punitive damages award.
III.
Deciding whether Tennessee’s recently-enacted
punitive damages cap comports with the Tennessee
Constitution is doubly unnecessary. Certification
would place the construction of the Tennessee
Constitution in the hands of those entrusted with the
document’s safekeeping. Adhering to Heil would
accomplish the same result. But after rejecting the
Tennessee Supreme Court’s assistance and our own
precedent, the majority strikes down § 29-39-104 as
infringing the Tennessee Constitution’s jury trial
guarantee. This doubly unnecessary holding is also
doubly dubious: first, because it is not clear that the
Tennessee Constitution’s jury trial guarantee
provides the rule of decision in this federal case;
second, because any reasonable doubts about whether
§ 29-39-104 infringes the jury right—and there are
many—require us to uphold the statute.

57a
A. The Unanswered Erie Question
As a threshold matter, I question whether the
contours of Tennessee’s constitutional jury trial right
are even relevant in this diversity case under Erie
Railroad Co. v. Tompkins, 304 U.S. 64 (1938). It was
not, after all, a Tennessee jury that assessed
Lindenberg’s claim for punitive damages. Because we
are in federal court, a federal jury did that, and then a
federal judge applied Tennessee’s punitive damages
cap to that jury verdict. “Under the Erie doctrine,
federal courts sitting in diversity apply state
substantive law and federal procedural law.”
Gasperini v. Ctr. for Humanities, Inc., 518 U.S. 415,
427 (1996). Tennessee’s punitive damages cap is
undoubtedly substantive. See id. at 428–29. The
damages cap would thus provide the rule of decision
in federal court unless it were preempted by federal
statutory or constitutional law or conflicted with a
substantive provision of the state constitution. The
question raised here is whether an apparently
procedural guarantee of the state constitution—the
right to jury trial—can provide the rule of decision in
federal court.
Lindenberg unquestionably has a Seventh
Amendment right to have a federal jury “determine
the question of liability and the extent of the injury by
an assessment of damages” in her breach of contract
suit. Dimick v. Schiedt, 293 U.S. 474, 486 (1935). But
she abandoned her Seventh Amendment challenge to
the Tennessee punitive damages cap in the district
court. Had Lindenberg brought such a challenge, it
would have failed. Binding caselaw from this circuit

58a
rejected a Seventh Amendment challenge to
Michigan’s cap on medical malpractice damages on
the ground that, in federal court, “the jury’s role ‘as
factfinder [is] to determine the extent of a plaintiff ’ s
injuries,’ not ‘to determine the legal consequences of
its factual findings.’” Smith v. Botsford Gen. Hosp.,
419 F.3d 513, 519 (6th Cir. 2005) (alteration in
original) (quoting Boyd v. Bulala, 877 F.2d 1191, 1196
(4th Cir. 1989)). Other circuits addressing state
damages caps under the Seventh Amendment have
reached the same conclusion. See Schmidt v. Ramsey,
860 F.3d 1038, 1045 (8th Cir. 2017) (rejecting Seventh
Amendment challenge to Nebraska’s cap on medical
malpractice damages), cert. denied sub nom. S.S. ex
rel. Schmidt v. Bellevue Med. Ctr. L.L.C., 138 S. Ct.
506 (2017); Davis v. Omitowoju, 883 F.2d 1155, 1165
(3d Cir. 1989) (“Where it is the legislature which has
made a rational policy decision in the public interest,
as contrasted with a judicial decision which affects
only the parties before it, it cannot be said that [a
damages cap statute] offends either the terms, the
policy or the purpose of the Seventh Amendment.”);
Boyd, 877 F.2d at 1196 (rejecting Seventh Amendment
challenge to Virginia’s cap on medical malpractice
damages). Moreover, as the majority acknowledges,
the Supreme Court has held that “[u]nlike the
measure of actual damages suffered . . . the level of
punitive damages is not really a ‘fact’ ‘tried’ by the
jury.” Cooper Indus., Inc. v. Leatherman Tool Grp.,
Inc., 532 U.S. 424, 437 (2001) (quoting Gasperini, 518
U.S. at 459 (Scalia, J., dissenting)). These cases
indicate that a federal court does not violate the
Seventh Amendment by applying a cap imposed by

59a
state law to limit a federal jury’s award of punitive
damages.4
Would a federal court violate Tennessee’s jury trial
right by applying the state’s punitive damages cap to
limit a federal jury’s award of punitive damages? That
Tennessee’s jury trial right could be violated by
capping the award of a non-Tennessee jury trial right
is certainly counterintuitive. But whether that is
indeed the rule would seem to depend, at least in part,
on whether the Tennessee jury trial right is
substantive or procedural.
On its face, the right to trial by jury seems
manifestly procedural. See Shady Grove Orthopedic
Assocs., P.A. v. Allstate Ins. Co., 559 U.S. 393, 407
(2010) (plurality) (characterizing a procedural rule as
one that “governs only ‘the manner and the means’ by
which the litigants’ rights are ‘enforced’” (quoting
Miss. Pub. Corp. v. Murphree, 326 U.S. 438, 446
In Jones v. United Parcel Service, Inc., 674 F.3d 1187, 1203
(10th Cir. 2012), the Tenth Circuit refused to apply a Kansas
statute requiring the court—and not the jury—to determine the
amount of punitive damages to be awarded. Jones affirmed “that
the Seventh Amendment protects a federal plaintiff’s right to
have a jury determine the amount of a punitive damages award.”
Id. at 1204. But Jones also acknowledged that, under Cooper,
punitive damages are not a finding of fact for the purposes of the
Seventh Amendment’s Reexamination Clause. Id. at 1205. Thus,
Jones does not conflict with cases like Smith, Boyd, or Schmidt—
or with the application of the damages cap in this case where the
jury was allowed the opportunity to determine, in the first
instance, the amount of the punitive damages award. Even if
Jones did conflict with these cases, we would be bound by our own
precedent, which has squarely decided the question. See Smith,
419 F.3d at 519.
4

60a
(1946))). The Supreme Court has expressly held that
“the right to a jury trial in the federal courts is to be
determined as a matter of federal law in diversity as
well as other actions.” Simler v. Conner, 372 U.S. 221,
222 (1963) (emphasis added); see also Byrd v. Blue
Ridge Rural Elec. Co-op., Inc., 356 U.S. 525, 535–40
(1958) (holding that plaintiff in diversity suit was
entitled to jury trial even though negligence claim
would have been tried by judge in state court); Fed. R.
Civ. P. 38(a) (“The right of trial by jury as declared by
the Seventh Amendment to the Constitution—or as
provided by a federal statute—is preserved to the
parties inviolate.”).
Just as state law cannot shrink federal jury trial
rights in federal court, see Simler, 372 U.S. at 222,
I doubt whether state law could expand those rights.
Could a litigant like Lindenberg insist on a jury trial,
otherwise unavailable in federal court, on the ground
that state statutory or state constitutional law
required it? Although there are few cases on point,
leading authorities suggest that she could not. See
James Wm. Moore et al., 8 Moore’s Federal Practice –
Civil § 38.14[2] (2018) (“When . . . the state would
grant a jury trial but the federal law would not, federal
courts have held that federal law would also apply,
and jury trial would be denied.”); 9 Charles Alan
Wright et al., Federal Practice and Procedure § 2303
(3d ed. 2018) (“It now also is clear that federal law
determines whether there is a right to a jury trial in a
case involving state law that has been brought in
federal court, and that in such a circumstance, state
law is wholly irrelevant.”); Gasperini, 518 U.S. at 465

61a
(Scalia, J., dissenting) (“[N]o one would argue that
Erie confers a right to a jury in federal court wherever
state courts would provide it; or that, were it not for
the Seventh Amendment, Erie would require federal
courts to dispense with the jury whenever state courts
do so.”). Before Erie, the Supreme Court upheld a
federal court’s directed verdict on contributory
negligence even though the Arizona Constitution
required that issue to be left to the jury. See Herron v.
S. Pac. Co., 283 U.S. 91, 92–94 (1931). And Herron
seems to have survived Erie. See Byrd, 356 U.S. at
538–40 (citing Herron); Hanna v. Plumer, 380 U.S.
460, 473 (1965) (same); see also Goar v. Compania
Peruana de Vapores, 688 F.2d 417, 423 (5th Cir. 1982)
(noting that federal law “operates not only to require
a jury trial when state law would deny one . . . but it
also requires trial of certain issues by a judge when
state law might allow a jury trial”). I thus have
reservations about whether the scope of Tennessee’s
jury trial guarantee—a facially procedural right—
provides the rule of decision in the dispute before us.
The majority, however, finds a substantive right—
a right to unlimited punitive damages—in the state’s
procedural guarantee. Because this court has upheld
damages caps in the face of a Seventh Amendment
challenge, see Smith, 419 F.3d at 519, the majority’s
substantive right must derive from an attribute
Tennessee juries do not share with their federal
counterparts. The majority claims that Tennessee
juries have traditionally possessed the authority to
award punitive damages. But that does not seem to
distinguish them from federal juries. See, e.g., Day v.

62a
Woodworth, 54 U.S. 363, 371 (1851). The only
difference the majority identifies is that, in its view,
Tennessee treats punitive damages as a “‘finding of
fact’ within the exclusive province of the jury,”
impervious to judicial or legislative tinkering. In the
federal system, by contrast, “the level of punitive
damages is not really a ‘fact’ ‘tried’ by the jury,” Cooper
Indus., Inc., 532 U.S. at 437 (quotation omitted), and
we have upheld caps on even non-punitive damages on
the ground that “the jury’s role ‘as factfinder is to
determine the extent of a plaintiff ’ s injuries,’ not ‘to
determine the legal consequences of its factual
findings,’” Smith, 419 F.3d at 519 (quotation marks
and alteration omitted). Tennessee law, as
characterized by the majority, thus differs from
federal law in its assignment of decisionmaking
authority over punitive damages. But this difference
would seem to be procedural, not substantive. See
Schriro v. Summerlin, 542 U.S. 348, 353 (2004)
(“Rules that allocate decisionmaking authority in this
fashion are prototypical procedural rules . . . .”) And in
federal court, federal procedural rules control. See,
e.g., 9 Charles Alan Wright et al., supra, § 2303.
Still, I acknowledge that whether a state law is
facially procedural may not, under the Supreme
Court’s Erie cases, be the end of the story. The Court
has also applied an “‘outcome-determination’ test” in
light of the “twin aims of the Erie rule: discouragement
of forum-shopping and avoidance of inequitable
administration of the laws.” Hanna, 380 U.S. at 468.
If the majority is right that Tennessee’s procedural
jury trial guarantee comprises a substantive right to

63a
unlimited punitive damages, refusing to apply that
rule in federal diversity cases would be outcomedeterminative as to damages and could certainly
encourage forum shopping. Would that require us to
apply Tennessee’s procedural rule? The authorities
cited above suggest that federal procedural rules
would apply regardless, though there is some
uncertainty over how the Supreme Court would
answer the question. See Shady Grove, 559 U.S. at
416–17 (Stevens, J., concurring) (“[T]here are some
state procedural rules that federal courts must apply
in diversity cases because they function as a part of
the State’s definition of substantive rights and
remedies.”); but see id. at 416 (plurality) (“The short of
the matter is that a Federal Rule governing procedure
is valid whether or not it alters the outcome of the case
in a way that induces forum shopping. To hold
otherwise would be to ‘disembowel either the
Constitution’s grant of power over federal procedure’
or Congress’s exercise of it.” (quoting Hanna, 380 U.S.
at 473–74)).
In sum, though I do not claim to have solved this
Erie puzzle, I fear there may be no basis in this federal
diversity action for adjudicating the constitutionality
of Tennessee’s punitive damages cap under
Tennessee’s jury trial guarantee.5 In fairness to the
Some federal courts have adjudicated challenges to state damage cap
statutes based on the state constitutions’ jury trial guarantees. See Boyd,
877 F.2d at 1195 (rejecting challenge based on Virginia Constitution’s right
to trial by jury); Learmonth v. Sears, Roebuck & Co., 710 F.3d 249, 258–
59 (5th Cir. 2013) (rejecting challenge to Mississippi damage cap
predicated on Mississippi Constitution’s jury guarantee after the
Mississippi Supreme Court declined to resolve the question via
5

64a
majority, the parties have not briefed this issue—
instead, they assumed that the scope of the Tennessee
jury trial right decides this case. But before I would
invalidate a state statute on the ground that it violates
the state constitution, I would pause to ask whether
the state constitutional question is even properly
before us.
B. The Tennessee Constitution
Addressing Lindenberg’s challenge under the state
constitution, the majority concedes that federal courts
must be “extremely cautious about adopting
‘substantive innovation’ in state law,” Combs v. Int’l
Ins. Co., 354 F.3d 568, 578 (6th Cir. 2004) (citation
omitted), and that Tennessee statutes receive “a
strong presumption” of constitutionality when facing
state constitutional challenges, Lynch v. City of
Jellico, 205 S.W.3d 384, 390 (Tenn. 2006) (citation
omitted). The Tennessee Supreme Court has even
instructed
that,
“[w]hen
addressing
the
constitutionality of a [state] statute,” challenged on
the ground that it violates the state jury trial right, a
court must “resolve any reasonable doubt in favor of
the legislative action.” Helms v. Tenn. Dep’t of Safety,
987 S.W.2d 545, 549 (Tenn. 1999). In other words, for
the majority to strike down the punitive damages cap,
it must prove beyond “any reasonable doubt” that the
statute violates the Tennessee Constitution. The
majority has not carried its burden.

certification). But those decisions do not explain why a state’s jury trial
guarantee should apply at all, and both upheld the challenged statutes.

65a
There are ample reasons to doubt the majority’s
holding. First, § 29-39-104 never prevents the jury
from doing what modern civil juries do: finding facts
when facts are disputed. Under § 29-39-104, the jury—
which is not told about the cap—still performs its
factfinding function. It is only after the jury has done
its job that the trial court applies state law to limit the
punitive damages award. This was essentially our
reason for upholding Michigan’s cap on medical
malpractice damages against a Seventh Amendment
challenge, see Smith, 419 F.3d at 519, and two state
supreme courts have relied on similar reasoning to
uphold statutes that limit damage awards. As the
Alaska Supreme Court explained, “[t]he decision to
place a cap on damages awarded is a policy choice and
not a re-examination of the factual question of
damages determined by the jury.” Evans ex rel. Kutch
v. State, 56 P.3d 1046, 1051 (Alaska 2002). “[T]he jury
has the power to determine the plaintiff ’ s damages,
but the legislature may alter the permissible recovery
available under the law by placing a cap on the award
available to the plaintiff.” Id. (citation omitted). The
Virginia Supreme Court made the same point in
upholding a statute limiting recovery in medical
malpractice actions. See Etheridge v. Med. Ctr. Hosps.,
376 S.E.2d 525, 529 (Va. 1989) (“Once the jury has
ascertained the facts and assessed the damages . . .
the constitutional mandate is satisfied . . . [and] it is
the duty of the court to apply the law to the facts.”
(citations omitted)).
In this case, the State’s brief makes a similar
argument by drawing an analogy to statutes that

66a
provide treble damages. See, e.g., Tenn. Code Ann. §
47-50-109 (providing treble damages for inducing
breach of contract). Under § 47-50-109, the jury first
determines the plaintiff ’ s actual damages, and then
the trial court trebles the jury’s finding so that the
plaintiff receives the remedy required by law. See
Buddy Lee Attractions, Inc. v. William Morris
Agency, Inc., 13 S.W.3d 343, 359–60 (Tenn. Ct. App.
1999). But if a statute enlarging damages set by a jury
does not violate the jury right, it is hard to see why one
reducing damages would do so—in a civil case, the jury
right may protect defendants as much as plaintiffs.
See Caudill v. Mrs. Grissom’s Salads, Inc., 541 S.W.2d
101, 106 (Tenn. 1976) (holding that trial judge abused
its discretion by denying a jury trial where, “at the
first opportunity, . . . defendants sought to exercise
their constitutional right to a jury trial”). Several state
supreme courts have cited the existence of damage
multipliers as a reason for upholding damages caps.
See Arbino v. Johnson & Johnson, 880 N.E.2d 420, 432
(Ohio 2007) (“We have never held that the legislative
choice to increase a jury award as a matter of law
infringes upon the right to a trial by jury; the
corresponding decrease as a matter of law cannot
logically violate that right.” (emphasis in original));
Kirkland v. Blaine Cty. Med. Ctr., 4 P.3d 1115, 1119–
20 (Idaho 2000) (concluding that the historical
existence of damage multipliers establishes that “the
Framers could not have intended to prohibit in the
Constitution all laws modifying jury awards” because
“at the time the [Idaho] Constitution was adopted, the
legislature had exercised its power to modify the

67a
common law of damages and increase the liability
traditionally imposed on certain defendants”).
The majority responds that damage multipliers,
unlike damages caps, “do not undercut a jury’s
assessment of damages.” This observation is true by
definition. But whether a statute undercuts or
augments a jury’s award, such a statute interferes
with the award the jury considered sufficient
compensation for the plaintiff in the case of
compensatory damages, or sufficient punishment for
the defendant in the case of punitive damages. Here,
the jury issued an award that it considered enough to
punish the defendant’s conduct. The majority
apparently believes that the General Assembly would
not violate the jury trial right by insisting that this
figure be doubled, but could not order it halved. I
cannot discern the principle underlying the majority’s
distinction because we know that both civil defendants
and civil plaintiffs in Tennessee enjoy the protections
of trial by jury. See Caudill, 541 S.W.2d at 106.
The majority also, somewhat confusingly,
characterizes this line of reasoning as “imply[ing] that
§ 29-39-104 is merely a regulation on the process of
remittitur.” The majority asserts that “the Tennessee
Supreme Court has repeatedly rejected the General
Assembly’s attempts to regulate the exercise of
remittitur[,] . . . a judicial power that may be
influenced—but not controlled—by the General
Assembly.” But casting a punitive damages cap as
remittitur misunderstands the State’s and Jackson

68a
National’s arguments—arguments that this court and
others have found convincing.6
6

Moreover, the majority misconstrues the Tennessee cases
involving remittitur. None of the three cases cited by the majority
supports its assertions about the General Assembly’s power over
remittitur. Borne v. Celadon Trucking Services, Inc., 532 S.W.3d
274, 309–10 (Tenn. 2017), explains that the General Assembly
first enacted a remittitur statute in 1911, thereby expressly
authorizing remittitur “whenever the Trial Judge is of the
opinion that the verdict in favor of a party is so excessive as to
indicate passion, prejudice, corruption, partiality, or
unaccountable caprice on the part of the jury.” Several years
later, in Grant v. Louisville & N.R. Co., 165 S.W. 963, 965 (Tenn.
1914), the Tennessee Supreme Court indicated that courts could
also suggest remittitur when a verdict was merely “excessive.”
The majority characterizes Grant as “rejecting” the 1911
remittitur statute. Far from it. Grant states that the remittitur
in question “was suggested because of passion and prejudice
appearing to the circuit judge, and under the very terms of the
statute plaintiff below was entitled to accept under protest and
appeal. The Court of Civil Appeals affirmed the lower court, and
this action was likewise justified by the very terms of the statute.”
Id. at 966 (emphasis added). So after suggesting that the statute
did not provide the exclusive rationale for suggesting a
remittitur, Grant did not reject the statute, it applied it.
Nor does Foster v. Amcon International, Inc., 621 S.W.2d 142,
145 (Tenn. 1981), imply some constitutional rejection of “hard
and fast rules in reviewing additurs and remittiturs” imposed by
the General Assembly, as the majority insinuates. In context,
Foster’s reference to “hard and fast rules” concerns a prior
decision, Smith v. Shelton, 569 S.W.2d 421 (Tenn. 1978), which
“was written with a view to providing the appellate courts with
guidelines, rather than hard and fast rules in reviewing additurs
and remittiturs.” 621 S.W.2d at 145. Foster nowhere purports to
reject “hard and fast rules”—i.e., statutes—imposed by the
General Assembly. In fact, Foster goes on to modify the standard
articulated in Shelton because “such an interpretation would

69a
The majority gives short shrift as well to the
argument that the General Assembly’s power to
eliminate common law rights and remedies implies
the power to limit punitive damages. This too, one
would think, could create a “reasonable doubt” as to
whether such a limitation violates the state’s jury
guarantee. But the majority claims that “this
argument merely begs the question” because the
General Assembly’s power is subject to “constitutional
limits,” so, like suggesting that “parents may drive as
fast as they wish because the parents make the rules,”
this “ignores a key constraint on the rulemaker’s
authority.” But the argument here is not that the
General Assembly can do whatever it wants. Rather,
it is that the General Assembly’s unquestioned ability
to abrogate a common law remedy7 suggests that the
legislature
could
also
limit,
under
some
circumstances, that same remedy. The greater power
generally includes the lesser.8 So if the former does not
violate Tennessee’s jury right, neither might the

contradict the clear language and intent of the statute.” Id. at 147
(emphasis added). In other words, none of these cases questions
the General Assembly’s power to modify remittitur—if anything,
they confirm that power.
See, e.g., Mills v. Wong, 155 S.W.3d 916, 922 (Tenn. 2005) (“[T]he
Tennessee General Assembly has the sovereign power prospectively to
limit and even to abrogate common law rights of action in tort as long as
the legislation bears a rational relationship to some legitimate governmental
purpose.”).
8 A better metaphor would therefore be that parents may determine
how often their children may borrow the family car because parents
determine whether their children may borrow the car at all.
7

70a
latter. The argument at least deserves more response
than the majority affords it.
Finally, I wonder whether the majority has asked
the wrong question entirely: whether juries had any
ability to award punitive damages, in any kind of case,
at the time the Tennessee Constitution was adopted.
As
the
majority
concedes,
the
Tennessee
Constitution’s promise that “the right of trial by jury
shall remain inviolate,” Tenn. Const. art. I, § 6, does
not guarantee the right to a jury trial in every case.
“Rather, it guarantees the right to trial by jury as it
existed at common law under the laws and
constitution of North Carolina at the time of the
adoption of the Tennessee Constitution of 1796.”
Young v. City of LaFollette, 479 S.W.3d 785, 793
(Tenn. 2015) (emphasis added) (quotation marks and
alteration omitted). Therefore, the relevant question
would seem to be whether, in 1796, a North Carolina
jury could have awarded punitive damages in a case
like this one—a common law breach of contract
action.9 There is serious reason to doubt that it could.
9 The Tennessee Supreme Court has repeatedly employed a narrow
inquiry when assessing whether a state statute infringes the jury right—and
it has repeatedly upheld the challenged statutes. See Marler v. Wear, 96
S.W. 447, 448 (Tenn. 1906) (finding no right to jury trial because “at
common law no jury was impaneled in mandamus cases” (emphasis
added)); Jernigan v. Jackson, 704 S.W.2d 308, 309 (Tenn. 1986) (finding
no right to jury trial because “jury trials in tax cases were not authorized”
in North Carolina in 1789 and 1796 (emphasis added)); Newport Hous.
Auth. v. Ballard, 839 S.W.2d 86, 88 (Tenn. 1992) (“Although actions to
recover possession of real property existed at common law the particular
action of unlawful detainer resulted from the evolution of the law and did
not appear in this State until passage of the first unlawful detainer statute
in 1821.” (emphasis added)); Helms, 987 S.W.2d at 548 (“Our inquiry is

71a
As explained below, punitive damages were not
available at common law for breach of contract, with
only narrow exceptions, not present here.
The majority looks at this case through a broader
lens—asking whether punitive damages were ever
determined by North Carolina juries in 1796.10 It does
that, perhaps, because that is the way it is used to
evaluating such claims. If we were trying to decide the
scope of the federal jury trial right, our inquiry would
focus not on whether the remedy Lindenberg seeks
was one “which the common law recognized among its
old and settled proceedings,” but on whether the
remedy she seeks is legal, rather than equitable, in
nature. See Curtis v. Loether, 415 U.S. 189, 193 (1974).
Punitive damages being a “traditional form of relief
whether at the time of 1796, North Carolina recognized civil forfeiture
proceedings with the right to jury trials.” (emphasis added)); Young, 479
S.W.3d at 794 (finding no right to jury trial where statutory remedy for
retaliatory discharge was “created long after the 1796 Constitution”).
10 The majority suggests that this broader lens is fitting because
Lindenberg’s “challenge in this case is to a blanket statutory cap” that
applies outside the breach-of-contract context. I take the majority to be
suggesting that Lindenberg’s challenge is facial, rather than as-applied. But
assuming the facial nature of this challenge does not help Lindenberg. A
facial challenge to a statute is “the most difficult challenge to mount
successfully, since the challenger must establish that no set of
circumstances exists under which the [statute] would be valid.” United
States v. Salerno, 481 U.S. 739, 745 (1987); Davis-Kidd Booksellers, Inc.
v. McWherter, 866 S.W.2d 520, 525 (Tenn. 1993). And the Tennessee
Supreme Court has stressed that “[t]he presumption of constitutionality
applies with even greater force when a party brings a facial challenge to the
validity of a statute.” Waters v. Farr, 291 S.W.3d 873, 882 (Tenn. 2009).
So if Tennessee’s punitive damages cap can be validly applied in a common
law breach of contract action—or in any other context—Lindenberg’s
challenge necessarily fails.

72a
offered in the courts of law,” id. at 196, Lindenberg
would have a right to have a federal jury determine
them, though, as discussed above, the Seventh
Amendment would not bar application of a statutory
damages cap, see Smith, 419 F.3d at 519. And, under
the Supreme Court’s decision in Curtis, Lindenberg’s
right to have a federal jury determine punitive
damages would apply even “to new causes of action
created by” statute. 415 U.S. at 193. This is basically
how the majority opinion proceeds. Because punitive
damages were available in some kinds of cases in
North Carolina in 1796, and because juries awarded
those damages, the majority reasons that Lindenberg
has a right to have the jury determine punitive
damages (and Tennessee may not cap them).11
But Tennessee courts seem to apply the rule that
Curtis rejected. Under Helms, when the General
Assembly creates new rights or remedies—regardless
of whether they are legal or equitable in nature—
Tennessee’s jury trial guarantee does not apply.
Helms, 987 S.W.2d at 547. Would the Tennessee
Supreme Court apply the rule in Helms to new
common law remedies? See Young, 479 S.W.3d at 793–
94 (rejecting jury trial guarantee for statutory
retaliatory discharge claim and finding it significant
11 It is worth noting that only one of the North Carolina or
Tennessee cases the majority relies on addresses the question at
issue here: whether the legislature can limit punitive damages
awards. The one case? Rhyne v. K-Mart Corp., 594 S.E.2d 1, 10–
14 (N.C. 2004), which affirmed North Carolina’s statutory cap on
punitive damages.

73a
that “even the common law tort of retaliatory
discharge was only recognized by Tennessee courts in
the 1980’s”). The court does not seem to have decided
this issue—another reason to certify the constitutional
question rather than deciding it. But it is worth
pausing to ask this question here because, although
we have a common law cause of action (breach of
contract) and a common law remedy (punitive
damages), we have strong reason to believe that a
North Carolina jury in 1796 could not have awarded
punitive damages for breach of contract.
North Carolina currently adheres to the
established common law rule that “punitive damages
should not be awarded in a claim for breach of
contract” absent an “identifiable tort” that
accompanies the breach. Shore v. Farmer, 522 S.E.2d
73, 76–77 (N.C. 1999); Restatement (Second) of
Contracts § 355 (“Punitive damages are not
recoverable for a breach of contract unless the conduct
constituting the breach is also a tort for which punitive
damages are recoverable.”); 24 Williston on Contracts
§ 65:2 (4th ed.) (explaining that “exemplary or
punitive damages are not generally recoverable in
breach of contract actions, even where the contract is
maliciously or intentionally breached”); 5 Corbin on
Contracts § 1077 (1964) (“It can be laid down as a
general rule punitive damages are not recoverable
for breach of contract . . . .”); William S. Dodge, The
Case for Punitive Damages in Contracts, 48 Duke L. J.
629, 630 (1999) (“Traditionally, punitive damages

74a
have not been available for breach of contract.”).12
North Carolina recognizes two traditional exceptions
to this rule, allowing punitive damages for a “breach
of contract to marry,” see Newton v. Standard Fire Ins.
Co., 229 S.E.2d 297, 301 (N.C. 1976), and “a breach of
duty to serve the public by a common carrier or other
public utility,” see King v. Ins. Co. of N. Am., 159
S.E.2d 891, 893 (N.C. 1968). Beyond these narrow
exceptions, juries in North Carolina lack discretion to
award punitive damages for breach of contract.
I have uncovered no evidence suggesting that
North Carolina juries ever possessed this discretion.
Beginning in California in the 1970s, some courts have allowed
punitive damages where, as here, an insurer has refused to pay a claim in
bad faith. See Dodge, The Case for Punitive Damages in Contracts, 48
Duke L. J. at 637–39; Timothy J. Sullivan, Punitive Damages in the Law
of Contract: The Reality and the Illusion of Legal Change, 61 Minn. L.
Rev. 207, 241 (1977) (discussing “line of cases, originating in California,
[that] has sustained the award of punitive damages in actions originating in
the alleged breach of an insurance contract”). Since then, other state high
courts have followed California in expanding the availability of punitive
damages—some by characterizing the breach of an insurance contract as
sounding in tort. Dodge, 48 Duke L. J. at 638–42. The North Carolina
Supreme Court addressed this issue in Newton v. Standard Fire Insurance
Co., 229 S.E.2d 297, 303 (N.C. 1976). But the court declined to decide
whether it would follow the new rule because the claim was not properly
alleged. See id. at 303–04. Nevertheless, several decisions of the North
Carolina Court of Appeals allowed punitive damages for the breach of an
insurance contract where “plaintiffs had sufficiently alleged a tortious act
accompanied by the requisite ‘element of aggravation.’” See, e.g., Von
Hagel v. Blue Cross & Blue Shield of N.C., 370 S.E.2d 695, 698–99 (N.C.
Ct. App. 1988). But these decisions constitute an application of the rule that
punitive damages are permissible when a breach of contract is accompanied
by an identifiable tort. They do not imply that North Carolina has
abandoned its traditional approach to breach of contract claims. And of
course, legal developments occurring in the 1970s and 1980s do not help
us understand the purview of a North Carolina jury in 1796.
12

75a
Early decisions of the North Carolina Supreme Court
show that the state’s courts have long denied juries
such discretion in breach of contract actions. In an
1843 decision, the Supreme Court of North Carolina
explained that a jury’s ability to impose damages was
strictly constrained “in matters of contract”:
It will never do in matters of contract to leave
the question of damages to the arbitrary
discretion of a jury.—There must be a rule
whereby to assess them, although the
application of that rule is with great propriety
confided to the jury. And we know of no other
that can legally be laid down, where there is no
statutory provision on the subject, and the
parties have not described any by the terms or
nature of their contract, than that the person
injured should be re-imbursed what he has lost,
and if no loss be shewn by parol, should be reimbursed to the extent of the loss which the law
presumes.
Wood v. Skinner, 25 N.C. 564, 568 (1843) (per curiam)
(emphasis in original). A breach of contract action
authorized a jury to render compensatory or nominal
damages—nothing more.13 See, e.g., Richardson v.
In Wood, the North Carolina Supreme Court acknowledged
that compensatory or nominal damages might seem inadequate
for particularly egregious breaches of contract. 25 N.C. at 568–
69. But the court held that “these considerations are not for the
court which tried the cause, nor are they for us. The constitution
has provided another department of the government, to whom
they may properly be addressed, and with whom they will no
doubt have the weight to which they are entitled.” Id. at 569. In
other words, the North Carolina legislature could have
13

76a
Wilmington & W.R. Co., 35 S.E. 235, 235–36 (N.C.
1900) (“There are many cases where an action for tort
may grow out of a breach of contract, but punitive
damages are never given for breach of contract (except
in cases of promises to marry).”). This has long been
the common law rule in England and America.14
Carruthers v. Tillman, 2 N.C. (1 Hayw.) 501 (1797),
on which the majority principally rests, does not
suggest otherwise. Carruthers was a nuisance suit—
not a breach of contract action. 2 N.C. at 501. The
evidence thus suggests that “the right to trial by jury
as it existed at common law under the laws and
constitution of North Carolina at the time of the
authorized punitive damages in breach of contract actions, but
juries had no inherent, or constitutional, power to award them.
14 This country’s first treatise on the law of damages supports
this proposition. See Theodore Sedgwick, A Treatise on the
Measure of Damages 27–28 (New York 1847); id. at 36 (“We shall
find that in cases of contract, the law takes no notice whatever of
the motives of the defaulting party; that whether the engagement
be broken through inability or design, the amount of
remuneration is the same . . . .”). Likewise, the earliest English
treatise on damages mentions no examples of juries awarding
exemplary or vindictive damages in contract cases. See Joseph
Sayer, The Law of Damages (London 1770). And although the
amount of damages to be given was originally in the discretion of
the jury, rules limiting damages for different types of contracts
were becoming well-established by the end of the eighteenth
century. See George T. Washington, Damages in Contract at
Common Law (pt. 2), 48 L.Q. Rev. 90, 91–93 (1932) (discussing
how new trial procedures and writs of inquiry led to development
of concrete rules for damages in contract). To the extent there is
uncertainty about the authority of colonial juries, the Tennessee
Supreme Court has instructed us to resolve the uncertainty in
favor of the challenged state law. Helms, 987 S.W.2d at 549.

77a
adoption of the Tennessee Constitution of 1796” did
not permit juries to award punitive damages in breach
of contract actions.15 Would the Tennessee Supreme
Court hold that legislatively capping a punitive
damages award for breach of contract violates the
right to trial by jury if a North Carolina jury in 1796
could not have awarded punitive damages for breach
of contract at all? I do not know. But in my view, this
question raises one more “reasonable doubt” that
should prevent us from striking down this statute.
It is telling that the majority cites no decision of
the Tennessee Supreme Court—not one—that strikes
down a law for violating the state constitution’s
guarantee of trial by jury, though there have been
many such challenges.16 The Tennessee Supreme
The parties seem to agree that modern Tennessee caselaw
has diverged from the traditional rule when it comes to awarding
punitive damages. See Rogers, 367 S.W.3d at 211 n.14. But
Tennessee looks to North Carolina law to interpret its
constitutional right to a jury trial, see Helms, 987 S.W.2d at 549,
and there is no evidence that any Tennessee divergence from
North Carolina on this issue occurred in 1796. Indeed, one
hundred and eighty years later, Tennessee cases squarely
proclaimed adherence to the “traditional” rule. See Hutchison v.
Pyburn, 567 S.W.2d 762, 766 (Tenn. Ct. App. 1977) (“[P]unitive
damages may not be recovered in an action for breach of
contract.”); Johnson v. Woman’s Hosp., 527 S.W.2d 133, 141
(Tenn. Ct. App. 1975) (“Under the contract theory of the case
punitive damages are not allowable . . . .”).
16 See Marler, 96 S.W. at 448 (finding no constitutional right
to jury trial in mandamus cases); Jernigan, 704 S.W.2d at 310
(finding no constitutional right to jury trial in tax cases); Ballard,
839 S.W.2d at 89 (finding no constitutional right to jury trial in
unlawful detainer actions); Helms, 987 S.W.2d at 549 (finding no
constitutional right to jury trial in civil forfeiture proceedings);
15

78a
Court has made it very clear that, even with respect to
statutes that are alleged to infringe the right to trial
by jury, it “afford[s] considerable discretion to the
General Assembly and resolve[s] any reasonable
doubt in favor of the legislative action.” Helms, 987
S.W.2d at 549. Because there are ample grounds for
doubt, I would uphold the statute.
***
To close,17 I think there are sound reasons to
dispute the majority’s conclusion that Heil no longer
binds us. And the majority’s hasty invalidation of
Tennessee’s punitive damages cap overlooks critical
issues. Does Tennessee’s constitutional jury trial right
even supply the rule of decision in this case concerning
a federal jury’s ability to award uncapped punitive
damages? And, if so, what of the credible
counterarguments the majority opinion elides? Any
reason to question the majority’s opinion on this score
is also a reason to certify these questions to a willing
Tennessee Supreme Court. If any federal court
decision “risks friction-generating error,” Arizonans
for Official English v. Arizona, 520 U.S. 43, 79 (1997),
surely striking down a new state law on novel stateconstitutional law grounds would do so. Because the
majority does so today at the expense of comity and
our cooperative federalism, I respectfully dissent.

Young, 479 S.W.3d at 793–94 (finding no constitutional right to
jury trial in retaliatory discharge action).
17 The majority does not address Lindenberg’s claim that
§ 29-39-104 violates principles of separation of powers under the
Tennessee Constitution, so I do not address that claim either.

79a

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TENNESSEE
WESTERN DIVISION
TAMARIN LINDENBERG,
individually and as Natural
Guardian of her minor child
SML. and Zachery Lindenberg
Plaintiffs,
v.
JACKSON NATIONAL LIFE
INSURANCE COMPANY
Defendant.

)
)
)
)
)
)
)
) No. 2:13-cv-02657)
JPM-cgc
)
)
)
)
)

ORDER DENYING DEFENDANT’S
MOTION TO DISMISS PLAINTIFFS’ CLAIM
FOR PUNITIVE DAMAGES
Before the Court is Defendant Jackson National Life
Insurance Company’s Motion to Dismiss Plaintiffs’
Claims for Punitive Damages and Common Law Bad
Faith, filed August 21, 2014. (ECF No. 46.) For the
reasons stated below, Defendant’s Motion to Dismiss as
to Plaintiffs’ claim for punitive damages is DENIED.

80a
I. BACKGROUND
A. Factual Background
Plaintiffs are residents of Shelby County,
Tennessee. (Compl. ¶ 1, ECF No. 1-1.) Plaintiff
Tamarin Lindenberg is the former wife of Decedent
Thomas A. Lindenberg. (Id. ¶ 5.) Plaintiffs Zachery
Lindenberg and Sophie Lindenberg are children of
Plaintiff Tamarin Lindenberg and Decedent. (See id. ¶
3, 6.)
Defendant Jackson National Life Insurance
Company is “a foreign corporation duly organized and
existing under the laws of Michigan, and authorized by
the Tennessee[] Commissioner of Insurance to engage
in the business of writing and selling life insurance in
this state.” (Id. ¶ 2.)
Defendant issued a life insurance policy (hereinafter
“Policy”) to Decedent effective January 23, 2002, which
was renewable to the age of 95. (Id. ¶4.) The Policy
insured Decedent’s life in the sum of $350,000 and
designated Tamarin Lindenberg as the primary
beneficiary. (Id.) The Policy stated in relevant part:
THE COMPANY WILL PAY the face amount shown
in the policy specifications, less any premium due, to
the designated beneficiary upon proof of the
Insured's death and not later than two months after
the receipt of such proof.
(Id.)
Tamarin Lindenberg and Decedent divorced in 2005
in Shelby County, Tennessee. (Id. ¶5.) Tamarin
Lindenberg remained the primary beneficiary after the

81a
divorce; however, the Marital Dissolution Agreement
required that “Wife shall pay for the life insurance
premium for Columbus and Jackson National policies
for so long as she is able to do so and still support the
parties’ children.” (Id. ¶¶5-6.) Additionally, the Marital
Dissolution Agreement (MDA) required “Husband [to]
maintain[ ] ‘at his expense’ a policy insuring his life in
the amount of $450,000 and naming the parties’
children” as “irrevocable primary beneficiaries.” (Id. ¶
6.)
Decedent died on January 22, 2013. (Id. ¶ 7.)
Leading up to his death, Decedent was disabled and
living with Plaintiffs. (Id. ¶ 8.) Decedent had difficulty
earning enough income to provide for himself and his
children. (Id.) According to Plaintiffs, “[Tamarin
Lindenberg] had long provided for him following their
divorce and continued to provide for him until his
death.” (Id.)
The parties do not dispute that premiums for the
Policy were duly paid. (Ans. ¶ 9, ECF No. 4.) Insurance
forms and the MDA were “sent to Defendant on
February 2, 2013 via express mail, next day delivery.”
(Id. ¶ 10.) On March 11, 2013, Plaintiffs sent Defendant
a demand letter explaining the immediate need for
funds. (Id. ¶ 11.) On March 22, 2013, Defendant sent
Plaintiffs a letter stating there was “insufficient basis
to pay the claim.” (Id. ¶ 13 (internal quotation marks
omitted).)
The letter required further action by
Plaintiffs:
1. “[W]aivers to be signed by other potential
parties in this matter”;
2. Plaintiff
to
“obtain
court-appointed

82a
Guardian(s) for the Estates of the two minor
children. The Guardians cannot be Tamarin
Lindenberg[.]” [“]The Guardians will need to
sign waivers for the minor children[;]” and
3. “[A] waiver to be signed by Mr. Lindenberg's
other children. We know of one other child,
Mary A. Lindenberg. Jackson may also
require an affidavit indicating that Mr.
Lindenberg has no other children.”
(Id. ¶ 13.) Defendant also required “a written waiver
from Plaintiff Tamarin Lindenberg before it would
tender any funds.” (Id. ¶ 14.)
Plaintiffs subsequently filed suit to recover the
death benefit and other damages. (ECF No. 1-1.) At the
time of filing of the complaint, Defendant had not yet
paid benefits to Plaintiffs. (Id. ¶ 10 & 12.)
Plaintiffs alleged that “[d]espite [Tamarin
Lindenberg’s] repeated requests Defendant [ ] failed to
send Plaintiff documents she has requested that
Defendant claims it must have before payment is made
on the policy.” (Id. ¶ 14.) Tamarin Lindenberg also
communicated to Defendant that “she was in New
Jersey and could not leave her children to establish
guardianships in Tennessee.” (Id.)
Defendant responded that Defendant had not paid
the death benefit to Plaintiffs at the time the Complaint
was filed, “because there [were] competing and/or
potentially competing claims to the death benefit.” (Ans.
¶ 13, ECF No. 4.) Defendant further asserted “that
because Plaintiff would not commit to a course of action,

83a
appropriate waivers could not be drafted or provided.”
(Id. ¶ 14.)
On May 19, 2014, the Court ordered payment of the
death benefit to Tamarin Lindenberg. (ECF No. 32.)
Defendant subsequently complied with the order and
disbursed payment to Tamarin Lindenberg. (ECF No.
84-1 at PageID 560.)
B. Procedural Background
On July 19, 2013, Plaintiffs filed their Complaint in
the Circuit Court of Shelby County Tennessee for the
Thirteenth Judicial District at Memphis. (ECF No. 11.) On August 23, 2013, Defendant removed the case to
the United States District Court for the Western
District of Tennessee pursuant to 28 U.S.C. §§ 1332,
1441, and 1446. (ECF No. 1 at 1.)
On August 30, 2013, Defendant filed an Answer to
the Complaint. (ECF No. 4.) Defendant included in the
filing a Third-Party Complaint for Interpleader against
Mary Angela Lindenberg and a Counterclaim against
Tamarin Lindenberg. (Id. at 5-8.) With regards to
Defendant’s Counterclaim and Third-Party Complaint,
Defendant asserted it “[was] not in a position to
determine, factually or legally, who is entitled to the
Death Benefit,” and requested the Court to “determine
to whom said benefits should be paid.” (Id. at 7.) On
September 23, 2013, Plaintiff Tamarin Lindenberg and
Third-Party Defendant Mary Angela Lindenberg
Williams filed a Motion to Dismiss Defendant Jackson
National Life Insurance Company’s Counterclaim and
Third-Party Complaint for Interpleader. (ECF No. 9.)
On December 9, 2013, the parties filed a Joint Motion

84a
to Appoint James and Kimberly Griffith as Guardian
Ad Litems (ECF No. 19), which was subsequently
granted by the Court (ECF No. 20).
On May 19, 2014, the Court granted Plaintiff
Tamarin Lindenberg’s and Third-Party Defendant
Mary Angela Lindenberg Williams’ Motion to Dismiss.
(ECF No. 32.) The Court further ordered Defendant “to
disburse life insurance policy benefits to Plaintiff in the
amount of $350,000 with interest from January 23,
2013, until the date of payment.” (Id. at 17.)
On August 21, 2014, Defendant filed a Motion to
Dismiss Plaintiffs’ Claims for Punitive Damages and
common Law Bad Faith. (ECF No. 46.) Plaintiffs timely
responded in opposition on September 17, 2014. (ECF
No. 67.) Defendant filed a Reply on September 26, 2014.
(ECF No. 13.) The Court held a telephonic hearing on
the Motion to Dismiss on November 25, 2014, at which
both parties were represented. (ECF No. 101.) On the
same date, the Court entered an Order Granting in Part
Defendant’s Motion to Dismiss Plaintiffs’ Claims for
Punitive Damages and Common Law Bad Faith. (ECF
No. 102.) In the Order, the Court dismissed Plaintiffs’
common law bad faith claim. (Id.)
II. LEGAL STANDARD
Under Rule 12(b)(6), a court can dismiss a claim for
“failure to state a claim upon which relief can be
granted.” Fed. R. Civ. P. 12(b)(6). “A pleading that
states a claim for relief must contain . . . a short and
plain statement of the claim showing that the pleader
is entitled to relief . . . .” Fed. R. Civ. P. 8(a)(2).

85a
In assessing a complaint for failure to state a claim,
[a court] must construe the complaint in the light
most favorable to the plaintiff, accept all well-pled
factual allegations as true, and determine whether
the complaint “contain[s] sufficient factual matter,
accepted as true, to state a claim to relief that is
plausible on its face.”
Ouwinga v. Benistar 419 Plan Servs., Inc., 694 F.3d
783, 790 (6th Cir. 2012) (second alteration in original)
(quoting Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)).
“Plausibility is not the same as probability, but it
requires ‘more than a sheer possibility that a defendant
has acted unlawfully.’” Mik v. Fed. Home Loan Mortg.
Corp., 743 F.3d 149, 157 (6th Cir. 2014) (quoting Iqbal,
556 U.S. at 678).
The Court, however, “need not accept as true legal
conclusions or unwarranted factual inferences, and
[c]onclusory
allegations
or
legal
conclusions
masquerading as factual allegations will not suffice.” In
re Travel Agent Comm’n Antitrust Litig., 583 F.3d 896,
903 (6th Cir. 2009) (alteration in original) (citation
omitted) (internal quotation marks omitted); see also
Mik, 743 F.3d at 157 (“[A] complaint must contain ‘more
than labels and conclusions, and a formulaic recitation
of the elements of a cause of action will not do.’” (quoting
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007))).
“Issues adverted to in a perfunctory manner,
unaccompanied by some effort at developed
argumentation, are deemed waived. It is not sufficient
for a party to mention a possible argument in [a]
skeletal way, leaving the court to put flesh on its bones.”
El-Moussa v. Holder, 569 F.3d 250, 257 (6th Cir.2009)

86a
(alteration in original) (internal quotation marks
omitted).
Regarding the application of state law by federal
courts, the United States Court of Appeals for the Sixth
Circuit has held:
In construing questions of state law, the federal
court must apply state law in accordance with the
controlling decisions of the highest court of the
state. Erie R.R. Co. v. Tompkins, 304 U.S. 64, 58
S.Ct. 817, 82 L.Ed. 1188 (1938). If the state's
highest court has not addressed the issue, the
federal court must attempt to ascertain how that
court would rule if it were faced with the issue. The
Court may use the decisional law of the state’s
lower courts, other federal courts construing state
law, restatements of law, law review commentaries,
and other jurisdictions on the “majority” rule in
making this determination. Grantham & Mann v.
American Safety Prods., 831 F.2d 596, 608 (6th
Cir.1987). A federal court should not disregard the
decisions of intermediate appellate state courts
unless it is convinced by other persuasive data that
the highest court of the state would decide
otherwise. Commissioner v. Estate of Bosch, 387
U.S. 456, 465, 87 S.Ct. 1776, 1782, 18 L.Ed.2d 886
(1967).
Meridian Mut. Ins. Co. v. Kellman, 197 F.3d 1178,
1181 (6th Cir. 1999).
III.

ANALYSIS

Defendant Jackson National Life Insurance
Company “moves to dismiss Plaintiffs’ . . . alleged

87a
entitlement to punitive damages because [this] claim[ ]
fail[s] as a matter of law.” (ECF No. 46 at 1.)
Defendant argues that punitive damages based on
breach of contract by an insurance provider are
precluded by statute. Defendant relies on Tenn. Code
Ann. § 56-7-105, commonly referred to as the Bad Faith
Statute, and Tenn. Code Ann. § 56-8-113, which state in
relevant part:
[I]n all cases when a loss occurs and [insurance
companies] refuse to pay the loss within sixty (60)
days after a demand has been made by the holder of
the policy or fidelity bond on which the loss occurred,
shall be liable to pay the holder of the policy or
fidelity bond, in addition to the loss and interest on
the bond, a sum not exceeding twenty-five percent
(25%) on the liability for the loss; provided, that it is
made to appear to the court or jury trying the case
that the refusal to pay the loss was not in good faith,
and that the failure to pay inflicted additional
expense, loss, or injury including attorney fees upon
the holder of the policy or fidelity bond; and
provided, further, that the additional liability,
within the limit prescribed, shall, in the discretion
of the court or jury trying the case, be measured by
the additional expense, loss, and injury including
attorney fees thus entailed.
Tenn. Code Ann. § 56-7-105.
Notwithstanding any other law, title 50 and this
title shall provide the sole and exclusive statutory
remedies and sanctions applicable to an insurer,
person, or entity licensed, permitted, or authorized

88a
to do business under this title for alleged breach of,
or for alleged unfair or deceptive acts or practices in
connection with, a contract of insurance as such
term is defined in § 56-7-101(a).
Nothing in this section shall be construed to
eliminate or otherwise affect any:(1) Remedy, cause
of action, right to relief or sanction available under
common law;(2) Right to declaratory, injunctive or
equitable relief, whether provided under title 29 or
the Tennessee Rules of Civil Procedure; or (3)
Statutory remedy, cause of action, right to relief or
sanction referenced in title 50 or this title.
Tenn. Code Ann. § 56-8-113.
Defendant argues that § 105 and § 113 make clear
that the Bad Faith Statute comprises the “sole and
exclusive remedy for an insurer’s bad faith refusal to
pay an insurance claim.” (ECF No. 46 at 6-7 (citing Rice
v. Van Wagoner Co., 738 F. Supp. 252, 255 (M.D. Tenn.
1990)).) It follows then, according to Defendant, that
any punitive damages sought by Plaintiffs in the
present case are subject to the limitations of the Bad
Faith Statute. (See ECF No. 46 at 6.) In support of this
conclusion, Defendant cites to several Tennessee state
and federal court decisions, where the courts “refused to
award punitive damages under a breach of contract
theory for an insurer’s alleged failure to pay under a
policy because such damages are barred by the bad faith
statute’s exclusive remedy.” (Id. at 8 (citing, inter alia,
Heil Co. v. Evanston Ins. Co., 690 F.3d 722, 728 (6th Cir.
2012)(holding that though “Tennessee does permit a
plaintiff to recover punitive damages for breach of
contract . . . [,] Tenn. Code Ann. § 56-7-105 precludes

89a
punitive damages here because it provides the exclusive
extracontractual remedy for an insurer’s bad faith
refusal to pay on a policy”); Westfield Ins. Co. v. RLP
Partners, LLC, No. 3:13-00106, 2013 U.S. Dist. LEXIS
75673, at *4-5 (M.D. Tenn. May 30, 2013); Davidoff v.
Progressive Hawaii Ins. Co., No. 3:12-00965, 2013 U.S.
Dist. LEXIS 3114, at *5-6 (M.D. Tenn. Jan. 9, 2013);
Fred Simmons Trucking v. U.S. Fidelity & Guar. Co.,
No. E2003-02892-COA-R3-CV, 2004 Tenn. App. LEXIS
798, at *5 (Tenn. Ct. App. Nov. 29, 2004)).)
Plaintiffs argue that “[a]lthough in general punitive
damages are not recoverable for breach of contract,
Tennessee law recognizes that in egregious cases, a jury
may assess punitive damages against a defendant for
breach of contract.” (ECF No. 67 at 4 (citing Rogers v.
Louisville Land Co., 367 S.W.3d 196, 211 n.14 (Tenn.
2012) (noting that punitive damages are proper where
there is clear and convincing proof a defendant has
acted either “intentionally, fraudulent, maliciously, or
recklessly” in breaching a contract)).) Plaintiffs
further assert three reasons that Plaintiffs’ claim for
punitive damages are not precluded by the Bad Faith
Statute: 1) “Punitive damages serve a different purpose
than the damages allowable under Tennessee’s bad
faith refusal to pay statute;” 2) Tennessee case law
allows for both punitive and § 105 damages; and 3) §
113 does not affect claims for punitive damages based
on common law relief. (See id. at 5-9.)
A. Case Law Analysis
Prior to the Tennessee Supreme Court’s decision in
Myint v. Allstate Ins. Co., 970 S.W.2d 920 (Tenn.
1998), several courts held that § 105 was the exclusive

90a
remedy for any claims related to bad faith on the part
of an insurance carrier. See, e.g., Rice, 738 F. Supp.
at 257 (dismissing a claim for consequential damages
because it was precluded by § 105); Berry v. Home
Beneficial Life Ins. Co., No. C/A 1150, 1988 WL 86489,
at *1 (Tenn. Ct. App. Aug. 19, 1988) (“[A]s to the claim
for punitive damages, T.C.A., § 56-7-105 is the
exclusive remedy for bad faith refusal to pay claims
arising from insurance policies.”); Chandler v.
Prudential Ins. Co., 715 S.W.2d 615, 621 (Tenn. Ct.
App. 1986) (stating that “the phrases ‘in all cases’ and
‘exclusive remedy’ denote the same degree of
exclusiveness”). In Myint, the Tennessee Supreme
Court expressly rejected the assertion that § 105 was
the exclusive remedy for bad faith claims arising from
breach of an insurance contract. In that case, plaintiffs
brought a claim for “‘unfair or deceptive act or
practice,’ in violation of the Consumer Protection Act”
against plaintiffs’ insurer for refusal to pay
compensation pursuant to an insurance policy. Myint,
970 S.W.2d at 922. The defendant insurer argued that
“Tenn. Code Ann. § 56-7-105 . . . is the exclusive
remedy for the bad faith denial of an insurance claim.”
Id. The court found “nothing in either the Insurance
Trade Practices Act or the bad faith statute which
limits an insured’s remedies to those provided
therein.” Id. at 925. Consequently, because the
express language of the statute did not limit the
remedies available to plaintiffs, the Tennessee
Supreme Court held that bad faith claims arising
under the Consumer Protection Act could be applied
to insurance companies in addition to a bad faith claim
under § 105. Id.

91a
The same logic applies to the availability of punitive
damages in breach of insurance contract cases. The
parties do not dispute and the case law supports the
conclusion that punitive damages were available in
common law breach of contract actions at the time
Myint was decided. See Rogers, 367 S.W.3d at 211
(stating that punitive damages are available in the
most egregious breach of contract cases) (citing Se.
Greyhound Lines,Inc. v. Freels, 176 Tenn. 502, 144
S.W.2d 743, 746 (1940); Louisville, Nashville & Great S.
R.R. v. Guinan, 79 Tenn. 98, 1883 WL 3669, at *2
(1883)). Therefore, because the Bad Faith Statute does
not serve as a limitation on remedies external to the
Insurance Trade Practices Act, Myint, 970 S.W.2d at
925, common law punitive damages were also available
as a remedy separate from § 105. Accordingly, the
Court finds that at the time Myint was decided, punitive
damages were available to plaintiffs in a breach of
contract action against an insurer in addition to the
remedies available under the Bad Faith Statute.
The Court recognizes that the facts in Myint are not
identical to the facts of the present case. For example,
unlike punitive damages, the Consumer Protection Act
expressly provided for a private right of action and
specifically listed entities and transactions that were
exempt from liability. Myint, 970 S.W.2d at 925. The
Court finds, however, that on balance, the Tennessee
Supreme Court would likely rule that punitive
damages were available in addition to claims of bad
faith as a result of the Myint holding.
In response to the Myint decision, “[t]he Tennessee
General Assembly legislatively reversed the Tennessee

92a
Supreme Court's holding in Myint” with the enactment
of Tenn. Code Ann. § 56-8-113 effective April 29, 2011.
Riad v. Erie Ins. Exch., 436 S.W.3d 256, 274 n.3 (Tenn.
Ct. App. 2013), appeal denied (Mar.4, 2014). The parties
strongly disagree on the scope of § 113 and its
applicability to the present case. The Court addresses in
detail the proper interpretation of § 113 infra Part III.B.
Defendant relies heavily on the Sixth Circuit Court
of Appeals’ decision in Heil, 690 F.3d 722 to support its
argument that punitive damages are not available in
breach of insurance contract cases. In Heil, the Court
of Appeals held that a claim for breach of an insurance
contract “is not a legally sufficient alternate basis for
[punitive damages].” 690 F.3d at 728. The Court of
Appeals reasoned that “Tenn. Code Ann. § 56-7-105
precludes punitive damages . . . because it provides the
exclusive extracontractual remedy for an insurer’s bad
faith refusal to pay on a policy.” Heil, 690 F.3d at 728
(citing Mathis v. Allstate Ins. Co., 959 F.2d 235, 1992
WL 70192, at *4, 1992 U.S. App. LEXIS 7130, at *12
(6th Cir. Apr. 8, 1992), and Berry v. Home Beneficial
Life Ins. Co., C/A No. 1150, 1988 WL 86489, at *1 (Tenn.
Ct. App. Aug. 19, 1988)). The Court notes that all case
law cited in the Heil opinion to support the finding that
§ 105 precluded punitive damages predated the
Tennessee Supreme Court’s Myint opinion which issued
June 1, 1998. Additionally, the Court of Appeals
declined to address the applicability of Myint or § 113 to
claims for punitive damages.
The Heil opinion also predates the Tennessee Court
of Appeals’ decision in Riad, 436 S.W.3d 256. In Riad,
the court held that a plaintiff in a breach of insurance

93a
contract claim “was entitled to recover any damages
applicable in breach of contract actions and was not
statutorily limited to the recovery of the insured loss
and the bad faith penalty,” including punitive damages.
436 S.W.3d at 276. The Riad court addressed
specifically “the Court’s statement in Heil that section
56–7–105 ‘provides the exclusive extra[-]contractual
remedy for an insured’s bad faith refusal to pay on a
policy.’” 436 S.W.3d at 276 (quoting Heil, 690 F.3d at
728) (alteration in original). The Riad court explained,
“[The Court of Appeals’] statement ignores the Myint
progeny of cases, providing for the application of the
TCPA to cases filed prior to the applicability of section
56–8–113.” After determining that “any damages
applicable in breach of contract actions” were available
to the plaintiff, the Riad court further explained that
“while generally not available in a breach of contract
case, [punitive damages] may be awarded in a breach of
contract action under certain circumstances,” where the
defendant “acted either intentionally, fraudulently,
maliciously, or recklessly.” 436 S.W.3d at 276.
Although Riad is not binding precedent under Erie and
its progeny, the Court finds the reasoning in Riad
persuasive evidence that the Tennessee Supreme Court
would hold that punitive damages were available in
breach of insurance contract cases at the time Riad was
decided.
Defendant distinguishes the Riad case from the
present case in that “the Riad case involved a cause of
action that accrued prior to the enactment of § 56-8113.” (ECF No. 79 at 3.) According to Defendant, “the
plaintiff in Riad specifically argued that § 56-8-113 did

94a
not apply to his claim because his claim had accrued
prior to the enactment of that statute.” (Id.) The Court
agrees with Defendant that § 113 was effective at the
time of accrual of Plaintiffs’ claims. The Court differs
with Defendant on the scope and applicability of § 113.
B. Statutory Interpretation of § 113
Under Tennessee law, “[t]he role of the Court in
construing statutes is to ascertain and give effect to
legislative intent.” Myint, 970 S.W.2d at 924.
“Legislative intent is to be ascertained whenever
possible from the natural and ordinary meaning of the
language used, without forced or subtle construction
that would limit or extend the meaning of the
language.”
Id. (citing Carson Creek Vacation
Resorts, Inc. v. Department of Revenue, 865 S.W.2d 1,
2 (Tenn. 1993)). “Courts are not authorized ‘to alter or
amend a statute.’” Mooney v. Sneed, 30 S.W.3d 304, 306
(Tenn. 2000) (quoting Gleaves v. Checker Cab Transit
Corp., 15 S.W.3d 799, 803 (Tenn. 2000)).
“The
reasonableness of a statute may not be questioned by a
court, and a court may not substitute its own policy
judgments for those of the legislature.” Id. “Where the
language contained within the four corners of a statute
is plain, clear, and unambiguous and the enactment is
within legislative competency, ‘the duty of the courts is
simple and obvious, namely, to say sic lex scripta, and
obey it.’” Carson Creek Vacation Resorts, 865 S.W.2d at
2 (quoting Miller v. Childress, 21 Tenn. (2 Hum.) 319,
321-22 (1841)). “Finally, the Legislature is presumed to
have knowledge of its prior enactments and to know the
state of the law at the time it passes legislation.” Wilson
v. Johnson Cnty., 879 S.W.2d 807, 810 (Tenn. 1994).

95a
In contrast, “[w]hen courts are attempting to resolve
a statutory ambiguity, the rules of statutory
construction authorize them to consider matters beyond
the text of the statute being construed.” Lee Med., Inc.
v. Beecher, 312 S.W.3d 515, 527-28 (Tenn. 2010). These
include “among other things, public policy, historical
facts preceding or contemporaneous with the enactment
of the statute being construed, and the background and
purpose of the statute.” Id. at 528.
The courts may also consider earlier versions of the
statute, the caption of the act, the legislative history
of the statute and the entire statutory scheme in
which the statute appears. However, no matter how
illuminating these non-codified external sources
may be, they cannot provide a basis for departing
from clear codified statutory provisions.
Id.
A basic grammatical analysis of § 113 reveals its
natural and ordinary meaning, which is to limit the
scope of § 113 to remedies and sanctions of a statutory
nature only. Section 113 states in relevant part, “this
title shall provide the sole and exclusive statutory
remedies and sanctions . . . under this title for alleged
breach of, or for alleged unfair or deceptive acts or
practices in connection with, a contract of
insurance. . . .” Tenn. Ann. Code § 56-8-113 (emphasis
added). Because the terms “remedies” and “sanctions”
are not separated by a comma, a plain reading of the
phrase “statutory remedies and sanctions” reveals that
both “remedies” and “sanctions” are modified by
“statutory.” The Court therefore finds that the
Tennessee General Assembly intended the scope of §

96a
113 to be limited to remedies and sanctions of a
statutory nature. Consequently, § 113 did not disturb
the availability of common law “remedies and
sanctions,” which the Myint and Riad decisions
affirmed were available prior to the enactment of § 113.
This conclusion is supported by the series-qualifier
canon of statutory construction. The series-qualifier
canon states that “a modifier at the beginning or end of
a series of terms modifies all the terms.” United States
v. Laraneta, 700 F.3d 983, 989 (7th Cir. 2012) cert.
denied, 134 S. Ct. 235 (2013). The series-qualifier canon
applies “where the modifying clause ‘undeniably applies
to at least one [term], and . . . makes sense with all ....’”
United States v. Lockhart, 749 F.3d 148, 152 (2d Cir.
2014) (quoting United States v. Bass, 404 U.S. 336,
339–40 (1971)). In the phrase “statutory remedies and
sanctions,” the modifier “statutory” appears at the
beginning of a series of nouns “remedies and sanctions.”
“Statutory” undeniably applies to the first term
“remedies.” There is no indication either logically or
from the text that application of “statutory” to
“sanctions” would be nonsensical. Furthermore, no
qualification of the term “sanctions” exists to bring the
phrase within the purview of the last-antecedent canon.
See United States v. Laraneta, 700 F.3d 983, 989 (7th
Cir. 2012) cert. denied, 134 S. Ct. 235 (2013) (“[T]he
‘last-antecedent’ canon . . . says that a qualification in
the last term of a series should be confined to that
term.”).
Moreover, the text of § 113 states explicitly that
“[n]othing in this section shall be construed to eliminate
or otherwise affect any . . . [r]emedy, cause of action,

97a
right to relief or sanction available under common law.
. . . .” Tenn. Code Ann. § 56-8-113(1) (emphasis added).
Consequently, Defendant’s argument that “[t]he cases
relied upon by Plaintiffs all deal with claims that
accrued prior to the enactment of § 56-8-113 and are
thus unpersuasive” is of no moment in the present case,
where Plaintiffs assert a common law claim that was
available at the time of the enactment of § 113.
Similarly, the parties’ arguments surrounding whether
§ 105 is penal or compensatory is of limited significance
given the broad language of § 113(1) exempting
“[r]emed[ies], cause[s] of action, right[s] to relief or
sanction[s] available under common law” from the
preclusive effects of § 113 as applied to § 105.
Finally, the legislative history provides support to
Plaintiffs’, rather than to Defendant’s position. There
is no dispute that § 113 was enacted in order to reverse
the Tennessee Supreme Court’s holding in Myint. Riad,
436 S.W.3d at 274 n.3. The issue in Myint was whether
the Consumer Protection Act provided plaintiffs with a
bad faith cause of action in addition to the Bad Faith
Statute. See 970 S.W.2d at 922. Because the bad faith
cause of action under the Consumer Protection Act was
statutory, the legislative intent to reverse Myint is
consistent with the explicit language of § 113, which
indicates that the Tennessee General Assembly
intended only to preclude remedies and sanctions that
were statutory in nature.
C. Additional Case Law
In Defendant’s memoranda, Defendant relies on
Westfield Ins. Co. v. RLP Partners, LLC, No. 3:1300106, 2013 WL 2383608, at *1 (M.D. Tenn. May 30,

98a
2013) and Jeffers v. Metro. Life Ins. Co., No. 3-13-0065,
2014 WL 347847, at *1 (M.D. Tenn. Jan. 31, 2014) - two
recent cases decided by the United States District Court
for the Middle District of Tennessee. The primary
holding in Westfield is that a common law tort claim for
bad faith does not exist and never has existed under
Tennessee law. See Westfield, 2013 WL 2383608, at *13. In the District Court’s opinion, the District Court
briefly addressed the issue of punitive damages and
concluded that “where the bad faith penalty statute
applies punitive damages are not available,” Id. at *4.
In support of this conclusion, the District Court cited to
the Heil opinion. The District Court did not, however,
address the effects of the Tennessee Supreme Court’s
decision in Myint or the enactment of § 113 on the
availability of punitive damages. Furthermore, the
District Court did not have the benefit of the Riad
decision to guide its analysis since Westfield predated
Riad.
Defendant asserts that the Riad decision is not the
latest holding regarding the availability of punitive
damages. According to Defendant, in the Jeffers
decision “the United States District Court for the
Middle District of Tennessee, applying Tennessee law,
held that a defendant insurance company’s motion to
dismiss plaintiff ’ s punitive damage claim for breach of
contract should be granted.” (ECF No. 79 at 3-4.) Unlike
Westfield, the Jeffers opinion issued after Riad. In
Jeffers, the District Court briefly addressed the
availability of punitive damages in a breach of
insurance contract case. Jeffers, 2014 WL 347847 at *4.
Similar to the holding in Westfield, the District Court

99a
relied on the Heil opinion and did not address the effects
of Myint, the enactment of § 113, or Riad on the
availability of punitive damages. See Jeffers, 2014 WL
347847 at *4. For reasons already set forth, the Court
declines to adopt the approach of the District Court for
the Middle District of Tennessee.
Accordingly, the Court finds that punitive damages
are available in addition to the remedies for bad faith
set out in § 105.
D. Sufficiency of Plaintiffs’ Pleadings
For Plaintiffs’ claim for punitive damages to survive
a motion to dismiss challenge, Plaintiffs must plead
with sufficient specificity that the defendant “acted
either intentionally, fraudulently, maliciously, or
recklessly.” See Riad, 436 S.W.3d at 276 (internal
quotation marks omitted). In the present case, Plaintiffs
have alleged sufficient facts to survive a motion to
dismiss. In particular, Plaintiffs’ have alleged that
Defendant delayed for over a year in paying Ms.
Lindenberg insurance policy benefits while knowing
that Ms. Lindenberg was entitled to said benefits.
(Compl. ECF No. 1-1 ¶ 16.) More than merely reciting
a label or conclusion, Plaintiffs alleged that the express
language of both the Marital Dissolution Agreement
and insurance policy confirmed that Ms. Lindenberg
was the proper beneficiary. (Id. ¶ 4-6.) Plaintiffs further
alleged that Defendant placed “onerous demands on Ms.
Lindenberg and her family at a time when they were
grieving the loss of Mr. Lindenberg and surviving on
limited resources.” (ECF No. 67 at 4; see Compl. ECF
No. 1-1 ¶ 10, 13-14, 16.) Plaintiffs further assert

100a
Plaintiffs have pled - and at trial will show - Jackson
National was intentional in denying Ms. Lindenberg
death benefits to which she was entitled until such
time as she alone bore the costs of legal proceedings
to protect Jackson National; that it was reckless in
its evaluation and interpretation of relevant
Tennessee law; and it was even malicious in its
treatment of Ms. Lindenberg.
(ECF No. 67 at 4-5.)
Accordingly, the Court finds Plaintiffs have met the
pleading standard required for recovery of punitive
damages based on common law breach of contract.
IV. CONCLUSION
For the reasons stated above, Defendant Jackson
National Life Insurance Company’s Motion to Dismiss
Plaintiffs’ Claims for Punitive Damages and Common
Law Bad Faith (ECF No. 46) is DENIED as to Plaintiffs’
claim for punitive damages.
IT IS SO ORDERED, this 9th day of December,
2014.
/s/ Jon P. McCalla
JON P. McCALLA
U.S. DISTRICT COURT JUDGE

101a
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TENNESSEE
WESTERN DIVISION
TAMARIN LINDENBERG,
individually and as Natural
Guardian of her minor child
S.M.L., and Zachary Lindenberg
Plaintiffs,
v.
JACKSON NATIONAL LIFE
INSURANCE COMPANY,
Defendant.

)
)
)
)
)
)
)
) No. 2:13-cv-02657)
JPM-cgc
)
)
)
)
)
)

ORDER DENYING DEFENDANT’S
MOTION FOR JUDMENT AS A MATTER OF
LAW AND GRANTING PLAINTIFF ’ S
MOTION FOR CERTIFICATION OF
QUESTIONS TO THE TENNESSEE
SUPREME COURT
Before the Court are Defendant Jackson National
Life Insurance Company’s Motion for Judgment as a
Matter of Law, made during trial on December 18, 2014

102a
(see ECF No. 139) and brief filed January 5, 2015 (ECF
No. 158), and Plaintiff Tamarin Lindenberg’s Motion for
Certification of Questions to the Tennessee Supreme
Court (ECF No. 167), filed May 19, 2015. For the
following reasons, Defendant’s Motion is DENIED, and
Plaintiff ’ s Motion is GRANTED.
I. PROCEDURAL BACKGROUND
This case concerns a dispute over a life insurance
policy issued by Defendant Jackson National Life
Insurance Company to Decedent Thomas A.
Lindenberg. (See Joint Pretrial Order at 4, ECF No.
125.) Plaintiffs Tamarin Lindenberg, minor child
S.M.L., and Zachary Thomas Lindenberg, are the
former wife of Decedent and the two children of Thomas
and Tamarin Lindenberg. (Id.)
On July 19, 2013, Plaintiffs filed their Complaint in
the Circuit Court of Shelby County, Tennessee, for the
Thirteenth Judicial District at Memphis. (ECF No. 1-1.)
On August 23, 2013, Defendant removed the case to the
United States District Court for the Western District of
Tennessee pursuant to 28 U.S.C. §§ 1332, 1441, and
1446. (ECF No. 1 at 1.)
On August 30, 2013, Defendant filed an Answer to
the Complaint. (ECF No. 4.) Defendant included in
the filing a Third-Party Complaint for Interpleader
against Mary Angela Lindenberg Williams and a
Counterclaim against Tamarin Lindenberg. (Id. at 58.) With regard to Defendant’s Counterclaim and
Third-Party Complaint, Defendant asserted that it
“[was] not in a position to determine, factually or
legally, who is entitled to the Death Benefit,” and

103a
requested the Court to “determine to whom said
benefits should be paid.” (Id. at 7.) On September 23,
2013, Plaintiff Tamarin Lindenberg and Third-Party
Defendant Mary Angela Lindenberg Williams filed a
Motion to Dismiss Defendant Jackson National Life
Insurance Company’s Counterclaim and Third-Party
Complaint for Interpleader. (ECF No. 9.) On December
9, 2013, the parties filed a Joint Motion to Appoint
James and Kimberly Griffith as Guardians Ad Litem for
the minor children. (ECF No. 19.) The Motion was
granted on December 10, 2013 (ECF No. 20).
On May 19, 2014, the Court granted Plaintiff
Tamarin Lindenberg’s and Third-Party Defendant
Mary Angela Lindenberg Williams’ Motion to Dismiss.
(ECF No. 32.) The Court further ordered Defendant “to
disburse life insurance policy benefits to Plaintiff in the
amount of $350,000 with interest from January 23,
2013, until the date of payment.” (Id. at 17.)
On August 21, 2014, Defendant filed a Motion to
Dismiss Plaintiffs’ Claims for Punitive Damages and
Common Law Bad Faith. (ECF No. 46.) Plaintiffs
timely responded in opposition on September 17, 2014.
(ECF No. 67.) Defendant filed a Reply on September
26, 2014. (ECF No. 79.) The Court held a telephonic
hearing on, inter alia, the Motion to Dismiss on
November 25, 2014, at which both parties were
represented. (ECF No. 101.) On the same date, the
Court entered an Order Granting in Part Defendant’s
Motion to Dismiss Plaintiffs’ Claims for Punitive
Damages and Common Law Bad Faith. (ECF No. 102.)
In the Order, the Court dismissed Plaintiffs’ common
law bad faith claim. (Id.) On December 9, 2014, the

104a
Court issued a second Order regarding Defendant’s
Motion to Dismiss, which denied Defendant’s motion to
dismiss claims for punitive damages. (ECF No. 124.)
On October 15, 2014, Defendant filed a Motion for
Summary Judgment. (ECF No. 87.) Plaintiffs
responded in opposition on November 17, 2014. (ECF
No. 93.) Defendant filed a reply to Plaintiffs’ response
on November 21, 2014. (ECF No. 99.) On December 11,
2014, the Court granted Defendant’s Motion for
Summary Judgment as to the claims brought by
Zachary Lindenberg and minor child S.M.L. and denied
Defendant’s Motion as to all other claims. (ECF No.
129.)
A jury trial was held from December 15, 2014, to
December 22, 2014. (ECF Nos. 133, 136, 138-39, 141,
146.) On December 18, Defendant made the instant
Motion for Judgment as a Matter of Law. (See ECF No.
139.) On December 22, 2014, the jury returned its
verdict with the following findings:
1. The preponderance of the evidence demonstrated
that Defendant breached the terms of its contract
with Plaintiff Tamarin Lindenberg. (Verdict
Form, ECF No. 151 at PageID 2015.) Plaintiffs
were awarded actual damages in the amount of
$350,000.00. (Id.)
2. The preponderance of the evidence demonstrated
that Defendant’s refusal to pay Plaintiff Tamarin
Lindenberg the death benefit was not in good
faith. (Id. at PageID 2016.) Moreover, the
preponderance of the evidence demonstrated that
the refusal to pay resulted in additional expense,
loss, or injury including attorney fees. (Id.)

105a
Plaintiffs were awarded bad faith damages of
$87,500.00. (Id. at PageID 2017.)
3. Clear and convincing evidence demonstrated
that Defendant acted either intentionally,
recklessly, maliciously, or fraudulently. (Id. at
PageID 2018.)
4. Plaintiffs were awarded punitive damages in the
amount of $3,000,000.00. (ECF No. 152.)
On January 5, 2015, Defendant filed a brief in
support of its Motion for Judgment as a Matter of Law.
(ECF No. 158.) On January 12, 2015, Plaintiffs timely
filed their Response in Opposition. (ECF No. 159.) On
May 19, 2015, Plaintiffs filed a Supplemental Brief.
(ECF No. 168.) On May 26, 2015, Defendant filed a
Reply Brief. (ECF No. 172.)
Plaintiff filed a Motion for Certification of Questions
to the Tennessee Supreme Court on May 19, 2015. (ECF
No. 167.) Defendant filed a response on June 5, 2015.
(ECF No. 174.) The State of Tennessee filed a Motion to
Intervene and Memorandum in Support of the Motion
to Intervene on June 12, 2015. (ECF Nos.175-76.) The
Court granted the Motion to Intervene on June 16,
2015. (ECF No. 177.) On July 7, 2015, the State filed a
Response in Opposition to the Motion for Certification
of Questions (ECF No. 178) and a Response to
Defendant’s Motion for Judgment as a Matter of Law
(ECF No. 179).
II. FACTUAL BACKGROUND
Defendant issued a life insurance policy to Decedent
Thomas Lindenberg, effective January 23, 2002.
(Stipulation No. 6(a), Joint Pretrial Order at 4.) The

106a
policy designated Plaintiff Tamarin Lindenberg as the
primary beneficiary who was to receive 100% of the
policy proceeds upon Decedent’s death. (Stipulation No.
6(b), id.) The policy stated in relevant part: “THE
COMPANY WILL PAY the face amount shown in the
policy specifications, less any premium due, to the
designated beneficiary upon due proof of the Insured’s
death and not later than two months after the receipt of
such proof.” (Lindenberg Policy, Trial Ex. 3, ECF No.
142.)
Plaintiff Tamarin Lindenberg and Decedent
executed a Marital Dissolution Agreement (“MDA”) in
2005, and a divorce decree was issued in 2006.
(Stipulation No. 6(d), Joint Pretrial Order at 4; see also
Trial Exs. 10, 11.) The MDA required that “Wife shall
pay the Life Insurance premium for Columbus and
Jackson National policies for so long as she is able to do
so and still support the children.” (Trial Ex. 10 at 7.)
Additionally, the MDA required “Husband at his
expense [to] maintain in full force insurance on his life
having death benefits payable to the parties’ children as
irrevocable primary beneficiaries . . . .’” (Id. at 9.)
Decedent died on January 22, 2013. (See Certificate
of Death for Thomas Arthur Lindenberg, Trial Ex. 35.)
On February 6, 2013, Defendant received from Plaintiff
Tamarin Lindenberg a claim for the death benefit. (See
Trial Ex. 22 at 1.) The instructions on the claim form
required submission of Decedent’s death certificate, as
well as the MDA and the divorce decree because
Plaintiff was an ex-spouse. (See id. at 1-2.) On March
11, 2013, Plaintiffs’ attorney sent Defendant a letter
seeking expedited review of the claim and payment of

107a
the death benefit. (Trial Ex. 21.) On March 22, 2013,
Defendant sent a letter in response requiring further
action by Plaintiffs, including “waivers to be signed by
the other potential parties”; and the obtaining of “courtappointed Guardian(s) for the Estates of the two minor
children.” (Trial Ex. 23.) Defendant stated that another
option would be for Plaintiff Tamarin Lindenberg to
waive her rights to the claim so that Defendant could
disburse the proceeds to the minor children. (Id. at 2.)
Throughout the month of May 2013, Plaintiff
Tamarin Lindenberg and Defendant were in
communication about how to proceed and whether
Defendant would interplead the funds with the Court.
(See Trial Exs. 24, 25, 32.) On July 19, 2013, Plaintiffs
filed suit for breach of contract and bad faith. (ECF No.
1-1.)
On May 29, 2014, by Order of the Court, Defendant
disbursed payment of $366,363.22, the face amount of
the policy plus interest, to Plaintiff. (Stipulation No.
6(k), Joint Pretrial Order at 4.)
III. STANDARDS OF REVIEW
A. Judgment as a Matter of Law
“In [the Sixth Circuit], a federal court sitting in
diversity must apply the standard for judgments as a
matter of law of the state whose substantive law
governs.” DXS, Inc. v. Siemens Med. Sys., Inc., 100 F.3d
462, 468 & n.4 (6th Cir. 1996) (explaining that “a motion
for directed verdict is now referred to as a motion for
judgment as a matter of law”); see also J.C. Wyckoff &
Assocs. v. Standard Fire Ins. Co., 936 F.2d 1474, 1482
(6th Cir. 1991) (holding that “[i]n federal court diversity

108a
cases, . . . state law governs the standard for granting
motions for directed verdicts and judgments
notwithstanding the verdict.”)
Under Tennessee law, the reviewing court must
“take the strongest legitimate view of the evidence
in favor of the opponent of the motion, allow all
reasonable inferences in his or her favor, discard all
countervailing evidence, and deny the motion where
there is any doubt as to the conclusions to be draw[n]
from the whole evidence.”
Stinson v. Crye-Leike, Inc., 198 F. App’x 512, 515 (6th
Cir. 2006) (alteration in original) (quoting Arms v. State
Farm Fire & Cas. Co., 731 F.2d 1245, 1248 (6th Cir.
1984)). Judgment as a matter of law should be granted
“only if reasonable minds could draw but one
conclusion.” Sauls v. Evans, 635 S.W.2d 377, 379
(Tenn. 1982).
B. Certification of Questions of Law to the
Tennessee Supreme Court
The Tennessee Supreme Court Rules permit the
Tennessee Supreme Court to, “at its discretion, answer
questions of law certified to it by . . . a District Court of
the United States in Tennessee.” Tenn. Sup. Ct. R. 23,
§ 1. The Tennessee Supreme Court may do so “when
the certifying court determines that, in a proceeding
before it, there are questions of law of this state which
will be determinative of the cause and as to which it
appears to the certifying court there is no controlling
precedent in the decisions of the Supreme Court of
Tennessee.” Id. A question of law is “determinative of
the cause” if it is claim-dispositive. Becker v. Ford Motor

109a
Co., No. 1:13-cv-276-SKL, 2013 WL 6046080, at *2 (E.D.
Tenn. Nov. 13, 2013).
The certification of questions “is most appropriate
when the question is new and state law is unsettled.”
BKB Props., LLC v. SunTrust Bank, 453 F. App’x 582,
588 (6th Cir. 2011) (quoting Transamerica Ins. Co. v.
Duro Bag Mfg. Co., 50 F.3d 370, 372 (6th Cir. 1995)).
“When [the certifying court] see[s] a reasonably clear
and principled course,” it will forgo certification and
address the issue itself. Id. (quoting Pennington v. State
Farm Mut. Auto. Ins. Co., 553 F.3d 447, 450 (6th Cir.
2009)).
IV. ANALYSIS
Defendant argues that it is entitled to judgment as
a matter of law on the basis that Plaintiff did not offer
a “legally sufficient evidentiary basis” for claims of
statutory bad faith and punitive damages at trial. (ECF
No. 158 at 1-2.) The Court addresses each of these
claims in turn.
A. Statutory Bad Faith
Defendant asserts that “Plaintiff failed to establish
that each of [Defendant]’s grounds for questioning her
entitlement to the Policy proceeds was unreasonable.”
(Id. at 1.) Plaintiff argues that “the trial was replete
with evidence of [Defendant]’s inaction and indifference
. . . in refusing to pay her the death benefit.” (ECF No.
159 at 11.) The Court agrees with Plaintiff that the
evidence of Defendant’s actions during the course of its
dealings with Plaintiff involving Decedent’s life
insurance proceeds creates doubt as to whether
Defendant acted in good faith.

110a
The Tennessee Code provides that the statutory
penalty for bad faith by an insurer refusing to pay is, “in
addition to the loss and interest on the bond, a sum not
exceeding twenty-five percent (25%) on the liability for
the loss.” Tenn. Code Ann. § 56-7-105(a). There are four
elements a plaintiff must satisfy to prevail on a claim
for statutory bad faith.1 The parties dispute only
whether Defendant’s refusal to pay was not in good
faith. (See Joint Pretrial Order at 5.) To show bad faith,
a plaintiff must prove “facts that tend to show ‘a
willingness on the part of the insurer to gamble with the
insured’s money in an attempt to save its own money or
any intentional disregard of the financial interests of
the plaintiff in the hope of escaping full liability.’”
Johnson v. Tenn. Farmers Mut. Ins. Co., 205 S.W.3d
365, 370 (Tenn. 2006) (quoting Goings v. Aetna Cas. &
Sur. Co., 491 S.W.2d 847, 849 (Tenn. Ct. App. 1972)).
An insurer’s duty to act in good faith is discharged when
it “exercise[s] ordinary care and diligence in
investigating the claim.” Id. The insurer “is entitled to
rely upon available defenses and refuse payment if
1

To prevail on a claim for statutory bad faith, the Plaintiff
must show:
(1) the policy of insurance must, by its terms, have become
due and payable, (2) a formal demand for payment must have
been made, (3) the insured must have waited 60 days after
making his demand before filing suit (unless there was a
refusal to pay prior to the expiration of the 60 days), and (4)
the refusal to pay must not have been in good faith.
Palmer v. Nationwide Mut. Fire Ins. Co., 723 S.W.2d 124, 126
(Tenn. Ct. App. 1986).

111a
there [are] substantial legal grounds that the policy
does not afford coverage for the alleged loss. Ginn v. Am.
Heritage Life Ins. Co., 173 S.W.3d 433, 443 (Tenn. Ct.
App. 2004) (quoting Sisk v. Valley Forge Ins. Co., 640
S.W.2d 844, 852 (Tenn. Ct. App. 1982)). “The jury’s
verdict awarding a bad faith penalty can be set aside
only if there is no material evidence to support it.” Id.
In this case, Defendant asserts that it considered
two bases for questioning Plaintiff ’ s entitlement to the
proceeds: “(1) the waiver provision in the martial [sic]
dissolution agreement, and (2) the insurance provision
of the marital dissolution agreement by which Mr.
Lindenberg agreed to provide insurance coverage for his
children as irrevocable beneficiaries.” (ECF No. 158 at
3.) Defendant asserts that “[i]f either of these bases is
valid or was asserted in good faith,” then its motion for
judgment as a matter of law must be granted. (Id.) The
Court evaluates each of these bases as if it had been
asserted independently. “[I]f an insurer asserts a
defense in good faith, the bad faith penalty may not be
imposed even if the defense is unsuccessful.” Fulton
Bellows, LLC v. Fed. Ins. Co., 662 F. Supp. 2d 976, 996
(E.D. Tenn. 2009) (quoting Sowards v. Grange Mut. Ins.
Cas. Co., No. 3:07-cv-0354, 2008 WL 3164523, at *8
(M.D. Tenn. Aug. 4, 2008)); see also State Auto. Mut.
Ins. Co. v. R.H.L., Inc., No. 07-1197, 2010 WL 909073,
at *16 (W.D. Tenn. Mar. 12, 2010).
1. Waiver Provision of the MDA
Defendant asserts that the waiver provision of the
marital dissolution agreement called into question
Plaintiff ’ s entitlement to the proceeds. The waiver
provision, however, states that “[e]xcept for the terms

112a
and provisions of this Marital Dissolution Agreement,
both parties waive and repudiate all right, title, and
interest . . . in and to the property and estate of the
other including . . . insurance.” (Trial Ex. 10 at 2
(emphasis added).) Defendant’s reliance on the waiver
provision as a grounds for questioning who should be
paid the proceeds is not valid because the waiver
provision itself stated that it was secondary to other
terms and provisions of the agreement. Since the
agreement also contained a life insurance provision (see
id. at 9-11), the parties’ waiver of rights did not govern
who Decedent’s beneficiaries were in light of the
divorce.
Jennifer Trumpie, Defendant’s customer relations
representative, despite being a non-lawyer, concluded
that it was unclear whether “the [Defendant’s] policy is
the policy Mr. Lindenberg was required to maintain
with the children as beneficiaries.” (Trial Ex. 23 at 1;
see also Trial Tr. 13:3-6, Dec. 17, 2014.) Trumpie also
concluded that, if Defendant’s policy was not the one
Decedent was required to maintain and Plaintiff
Tamarin Lindenberg was indeed the designated
beneficiary, then Plaintiff had waived her status as
beneficiary in the MDA. (Trial Ex. 23 at 1.) Even if this
had been accurate, Defendant did not then proceed with
ordinary care and diligence in investigating other
potential claims, particularly that of Decedent’s adult
daughter Mary Angela Lindenberg Williams, who was
an alleged potentially adverse claimant. (Trial Tr. vol.
1, 222:17-19, Dec. 16, 2014; Trial Tr., 42:16-23, Dec. 17,
2014.) Defendant’s own insurance industry opinion
witness, Robert Adams, testified that it was routine to

113a
contact potentially adverse claimants during an initial
claim investigation. (Trial Tr. afternoon, 424:4-11, Dec.
18, 2014.) Accordingly, the Court does not find that the
only conclusion to be drawn from the evidence is that
the waiver provision constituted a “substantial legal
ground” for refusing payment and that Defendant acted
in good faith when it believed that the provision did.
Defendant is not entitled to judgment as a matter of law
on this basis.
2. Life Insurance Provision of the MDA
Defendant’s other asserted basis for questioning to
whom the proceeds should be paid is the life insurance
provision of the MDA. While Defendant does not
dispute that Plaintiff was the primary beneficiary of the
policy at issue, Defendant argues that its refusal to pay
was based on the possibility of multiple liabilities on the
policy, which would have required Defendant to pay the
policy proceeds to both Plaintiff and her children. (ECF
No. 158 at 8.) The question of whether Defendant acted
in good faith in withholding payment of the death
benefit to Plaintiff was submitted to the jury, which
decided in Plaintiff ’ s favor. (See Verdict Form at
PageID 2016, ECF No. 151.) Defendant argues that the
jury verdict should be reversed because the jury failed
to separate a defense to the breach of contract claim
from the motivation for asserting that defense when it
considered the bad faith claim. (ECF No. 158 at 8.)
The Court finds that the proof offered at trial does
not support Defendant’s assertion that it acted in good
faith when it refused to pay Decedent’s death benefit.
Plaintiff ’ s opinion witness, Aubrey Brown, a Tennessee
family law attorney, testified that there was no risk to

114a
Defendant of multiple liabilities because Defendant was
obligated to pay only the designated primary
beneficiary of the policy – Plaintiff – and any cause of
action based on the children’s entitlement to the
proceeds would have been against Decedent’s estate or
Plaintiff, not Defendant. (Trial Tr., 293:21-294:6,
303:21-304:12, Dec. 17, 2014.) Defendant did not
present testimony to contradict these assertions.
Plaintiff ’ s former attorney, Tom Maschmayer, also
testified that although Defendant was offered a hold
harmless and indemnification agreement to further
shield Defendant from the liability it feared,
Defendant’s in-house counsel, Nathan Maas, rejected
the agreement. (Id. at 229:3-230:6.)
Defendant asserted at trial that it had specific
concerns about the children’s claims and thus, required
waivers of the children’s rights before paying the death
benefit. (See, e.g., id. at 174:6-175:1.) Defendant’s
insistence on receiving waivers from the children,
however, is inconsistent with its own actions. First,
Plaintiff testified that approximately two months after
Decedent’s death, she offered to have two guardians act
on behalf of her minor children, yet Trumpie rejected
the offer. (Trial Tr. afternoon, 232:20-233:6, Dec. 18,
2014.) Defendant also stipulated that it had no
standard company policy pertaining to requiring
guardianships and decides claims where guardianships
may be implicated on a case-by-case basis. (Stipulation
No. 6(i), Joint Pretrial Order at 4.) Second, in October
2013, after Plaintiff filed suit, Defendant agreed to the
appointment of the same guardians it had rejected
approximately seven months earlier and filed a joint

115a
motion with Plaintiff to appoint the guardians in
December 2013. (Trial Tr. afternoon, 233:9-17, Dec. 18,
2014; Joint Mot. to Appoint James and Kimberly
Griffith As Guardians Ad Litem, Trial Ex. 13.) Third,
Defendant was willing to pay Decedent’s adult daughter
part of the death benefit even though she had not
asserted a claim to it. (See Trial Ex. 23 at 2 (indicating
that Defendant would pay “contingent beneficiaries
[who] are ‘Surviving Children Equally’” if Plaintiff
waived her rights).)
These actions suggest that
Defendant’s concern about multiple liabilities and the
children’s interests, which it asserts justified its refusal
to pay, was pretextual.
There is further evidence that Defendant acted in
bad faith because it did not exercise ordinary care and
diligence in handling Plaintiff ’ s claim. Defendant
stipulated “that there were not a manager in its claims
department that was specifically tasked with managing
and overseeing the day-to-day activities of [Plaintiff ’ s]
claim.” (Stipulation No. 6( j ), Joint Pretrial Order at 4.)
Plaintiff ’ s file was closed on the same day Trumpie
wrote a letter to Plaintiff explaining why Defendant
was refusing to pay the death benefit. (Trial Tr. vol. 1,
298:4-6, Dec. 16, 2014.) Plaintiff ’ s claim was then
handled by Maas who never sent the waivers requested
by Plaintiff and her counsel (Trial Tr., 95:1-4, Dec. 17,
2014); and was out of the office on work days between
February and August 2013 because of his ongoing
personal bankruptcy case (id. at 112:1-5; see generally
id. at 95-100).
In addition, Plaintiff presented evidence at trial that
Defendant intentionally ignored Plaintiff ’ s interests to

116a
avoid full liability. Over the course of Plaintiff ’ s phone
calls to Defendant in February and March 2013,
Defendant was made aware of Plaintiff ’ s limited
finances (see, e.g., Trial Tr. afternoon, 206:20-22, Dec.
18, 2014; Trial Tr. 61:23-25, Dec. 22, 2014; see generally
Trial Ex. 38), yet still required her to engage in the
guardianship process detailed in the letter to Plaintiff
before it would pay proceeds to her (Trial Ex. 23; see
also Trial Tr. 54:13-21, Dec. 22, 2014; Trial Exs. 25, 26,
32). Scott Peatross, a probate attorney and the public
administrator of Shelby County, was called by
Defendant and testified that the process would have
likely entailed hiring two attorneys, one to file a petition
in court to establish guardianships for the minor
children, and another to serve as guardian. (Trial Tr.
vol. 1, 22:15-23:7, Dec. 19, 2014.) Trumpie and Maas
admitted, however, that no contract terms required
Plaintiff to take such action (Trial Tr., 54:13-18, 188:24189:3, Dec. 17, 2014; ), and Maschmeyer and Brown
testified that the process would not have been viable
anyway as a mechanism for Plaintiff to receive the
death benefit (Trial Tr., 232:7-13, 305:10-308:2, Dec. 17,
2014). Although the significant cost to a plaintiff is not
alone grounds for a finding of bad faith, Sisk, 640
S.W.2d at 852, requiring Plaintiff to participate in an
unnecessary process while having knowledge of the
financial burden on her demonstrates Defendant’s
intentional disregard of Plaintiff ’ s interests and,
therefore, its bad faith in refusing to pay.
Accordingly, the Court does not find that the only
conclusion to be drawn from the evidence is that the life
insurance provision constituted a “substantial legal

117a
ground” for refusing payment and that Defendant acted
in good faith when it believed that the provision did.
Defendant is not entitled to judgment as a matter of law
on this basis.
As there is doubt as to Defendant’s conclusion that
it acted in good faith in light of the waiver and life
insurance provisions of the MDA, the Court DENIES
Defendant’s motion for judgment as a matter of law
with regards to the statutory bad faith claim.
B. Damages
Defendant also seeks judgment as a matter of law on
the issue of punitive damages. Defendant asserts that
Plaintiff cannot recover the $3,000,000 in punitive
damages awarded by the jury because Plaintiff failed to
prove actual damages. (ECF No. 158 at 10-14; see
Special Verdict Form, ECF No. 152.) In the alternative,
Defendant argues that the Tennessee punitive damages
cap applies in this case and would entitle Plaintiff a
maximum of $500,000. (ECF No. 158 at 15-19.)
Plaintiff argues that actual damages were proven; the
punitive damages award is not subject to the statutory
cap; and even if the cap were applicable and
constitutional, Plaintiff would be entitled to $700,000.
(ECF No. 159 at 2-6, 20 & n.11.) Plaintiff also seeks to
certify questions of law to the Tennessee Supreme Court
regarding the constitutionality of the statutory
damages cap. (See ECF No. 167.)
It is undisputed that actual damages must first be
established before punitive damages can be awarded.
(See ECF No. 158 at 11; ECF No. 159 at 4.) The Court

118a
addresses the actual damages and punitive damages
questions in turn.
1. Actual Damages
Defendant argues that no actual damages arise from
Plaintiff ’ s breach of contract claim because Defendant
paid the death benefit “in full prior to trial.” (ECF No.
158 at 13.) Plaintiff argues that the damages must be
measured at time of breach, not time of trial. (ECF No.
159 at 3.) The Court finds that damages are measured
at time of breach and that the predicate of actual
damages in this case satisfies the initial requirement
for punitive damages.
“The purpose of assessing damages in breach of
contract cases is to place the plaintiff as nearly as
possible in the same position she would have been in
had the contract been performed . . . .” BVT Lebanon
Shopping Ctr., Ltd. v. Wal-Mart Stores, Inc., 48 S.W.3d
132, 136 (Tenn. 2001) (quoting Lamons
v.
Chamberlain, 909 S.W.2d 795, 801 (Tenn. Ct. App.
1993)). In Tennessee, “[t]he recovery in an action at law
for the breach of the contract in failing to deliver the
policy, would be its money value at the time of breach,
with interest, if the jury see proper to give interest.”
Nashville Life Ins. Co. v. Mathews, 76 Tenn. 499, 507
(1881) (emphasis added); see also BancorpSouth Bank,
Inc. v. Hatchel, 223 S.W.3d 223, 231 (Tenn. Ct. App.
2006) (holding that damages for breach of contract for
real estate depend on value at the time of breach); First
Tenn. Bank Nat. Ass’n v. Hurd Lock & Mfg. Co.,
816 S.W.2d 38, 42 (Tenn. Ct App. 1991) (recognizing
principle of measuring damages at time of breach of
contract for goods). Other circuits applying other states’

119a
laws have also held that “contract damages are
measured at the time of breach.” Merrill Lynch & Co.
v. Allegheny Energy, Inc., 500 F.3d 171, 185 (2d
Cir. 2007); Gen. Universal Sys., Inc. v. Lee, 379 F.3d
131, 154 (5th Cir. 2004).
The case law Defendant cites to assert that damages
are measured at the time of trial is unpersuasive. While
the Supreme Court of Tennessee held in Whittington v.
Grand Valley Lakes, Inc. that the respondent had
already compensated the petitioner for losses stemming
from the respondent’s trespass, thereby eliminating the
petitioner’s actual damages, the court still found that
there was a predicate of actual damages that supported
an award for punitive damages. 547 S.W.2d 241, 24243 (Tenn. 1977). Indeed, the court negated the jury
verdict for actual damages but upheld the jury verdict
for punitive damages. Id. The court reasoned that the
[respondent] recognized its liability and pre-paid it
. . . Surely, had [the respondent] not [done so] and
the landowner had restored [the land] at her own
expense, there would be a predicate of actual
damages and an award of punitive damages would
be soundly based. In legal effect, we see no
difference.
Id. at 243.
In this case, had Defendant not paid Plaintiff the
death benefit before trial – which it did only after the
Court ordered it to do so (see Stipulation No. 6(k), Joint
Pretrial Order at 4) – the benefit would have been the
predicate of actual damages Plaintiff sought, and
Plaintiff would be entitled to punitive damages. Should

120a
Defendant succeed on this issue, Plaintiff would be
placed in a worse position simply because Defendant
ultimately acquiesced to the Court’s order after over a
year of delaying its payment obligation.
Although Defendant uses Whittington to support its
argument that actual damages should be calculated at
the time of trial, Defendant must also distinguish the
instant matter from Whittington on the issue of
allowing punitive damages in light of complete
compensation to a plaintiff before trial. Defendant
argues that the defendant in Whittington did not have
a valid defense for its tortious acts while Defendant in
this case acted in good faith when questioning to whom
the proceeds should be paid. (ECF No. 158 at 13-14.)
Defendant also argues that Whittington is a case that
predates statutory punitive damages caps in Tennessee
and only involved a small amount of damages. (Id. at
14.) Plaintiff argues that Whittington is still binding:
“[Defendant’s] arguments . . . [render] the doctrines of
stare decisis and nominal damages . . . nullities.” (ECF
No. 159 at 5 n.3.) The Court first disagrees that
Defendant has a valid defense for its refusal to pay the
death benefit, see supra Part IV.A, and also disagrees
that Whittington is no longer good law. Defendant
cannot logically use the case to support one of its
assertions and then reject the same case as irrelevant
in light of statutory changes.
Defendant relies additionally on Custom Built
Homes v. G.S. Hinsen Co., a case in which the
defendant’s breach of contract did not cause the plaintiff
actual injury because a third-party had already
satisfied its contract with the plaintiff, making the

121a
plaintiff whole and ineligible for actual damages. (ECF
No. 158 at 12-13 (citing No. 01A01-9511-CV-00513,
1998 WL 960287 (Tenn. Ct. App. Feb. 6, 1998)).) The
Court agrees with Plaintiff that this case is merely
persuasive and not precedential, and also that it is
distinguishable from the instant matter because
Plaintiff was not made whole by a third-party before
trial in spite of Defendant’s breach. (See ECF No. 159
at 5.) Although Defendant argues that Plaintiff has
been made whole because it has paid Plaintiff the value
of the contract plus interest, the Court does not find
Plaintiff ineligible for actual damages. To hold that a
defendant may escape punitive damages liability for a
breach of contract as long as it performs wholly before
trial not only goes against the rule of measuring
damages at the time of breach but would also
contravene the deterrent and retributory effect of
punitive damages. Since the Court finds that Plaintiff ’ s
actual damages are calculated at the time of breach,
and thus, the then-unpaid proceeds of the life insurance
policy were the actual damages, Plaintiff is eligible for
punitive damages.
2. Punitive Damages
Defendant argues that punitive damages are
inappropriate because (1) Plaintiff failed to prove
statutory bad faith at trial; (2) Plaintiff failed to
establish Defendant acted intentionally, fraudulently,
maliciously or recklessly; and (3) Plaintiff did not suffer
actual damages from breach of contract. (ECF No. 158
at 15.) The Court is not persuaded by Defendant’s
arguments and finds that Plaintiff is entitled to
punitive damages.

122a
First, the Court finds that Plaintiff sufficiently
proved the elements of statutory bad faith at trial. See
supra Part IV.A. Second, the Court finds that while
Plaintiff did not establish at trial that Defendant acted
fraudulently, Plaintiff did establish at trial that
Defendant acted at least recklessly when it failed to pay
the death benefit to Plaintiff.
A person acts fraudulently when (1) the person
intentionally misrepresents an existing, material
fact or produces a false impression, in order to
mislead another or to obtain an undue advantage,
and (2) another is injured because of reasonable
reliance upon that representation. A person acts
maliciously when the person is motivated by ill will,
hatred, or personal spite. A person acts recklessly
when the person is aware of, but consciously
disregards, a substantial and unjustifiable risk of
such a nature that its disregard constitutes a gross
deviation from the [ordinary] standard of care . . . .
Hodges v. S.C. Toof & Co., 833 S.W.2d 896, 901 (Tenn.
1992) (citation omitted). To succeed on a claim for
fraud, Plaintiff must prove fraud with particularity.
Fed. R. Civ. P. 9(b).
Plaintiff did not properly plead fraud at trial, and
even if she had done so, she failed to present evidence
at trial that Defendant intentionally made
misrepresentations to Plaintiff in order to mislead her
and benefit itself.
Plaintiff, however, established
recklessness on the part of Defendant: Plaintiff
presented evidence that Defendant was aware of
Plaintiff ’ s financial situation, yet consciously
disregarded it by inadequately investigating her claim

123a
and requiring her to undertake unnecessary actions like
the appointment of guardians for her minor children
before paying out the proceeds. See supra Part IV.A.2.
Third, there exists a predicate for actual damages,
which enables Plaintiff to recover punitive damages.
See supra Part IV.B.1. For these reasons, the Court
DENIES Defendant’s motion for judgment as a matter
of law with regards to the punitive damages claim.
3. Tennessee Statutory Damages Cap
The Court defers ruling on the amount of punitive
damages to which Plaintiff is entitled because there is
an outstanding issue of whether the Tennessee
statutory damages cap is constitutional. Plaintiff
submits that the Court should certify two questions of
law to the Tennessee Supreme Court:
(1) Do the punitive damages caps in civil
cases imposed by Tennessee Code Annotated §
29-39-1042 violate a plaintiff ’ s right to a trial by
jury, as guaranteed in Article I, section 6 of the
Tennessee Constitution?
(2) Do the punitive damages caps in civil cases
imposed by Tennessee Code Annotated § 29-39104 represent an impermissible encroachment
by the legislature on the powers vested
exclusively in the judiciary, thereby violating

2

Section 29-39-104 of the Tennessee Code imposes a cap on
punitive damages: they “shall not exceed an amount equal to the
greater of: (A) Two (2) times the total amount of compensatory
damages awarded; or (B) Five hundred thousand dollars
($500,000).” Tenn. Code Ann. § 29-39-104(a)(5).

124a
the separation of powers provisions of the
Tennessee Constitution?
(ECF No. 167 at 2.)
The certification of these questions is appropriate at
this stage because they are determinative of the cause
and because there are no Tennessee Supreme Court
decisions that control. See Tenn. Sup. Ct. R. 23, § 1.
Both Defendant and the State of Tennessee opposed
Plaintiff ’ s Motion to Certify Questions because it was
not yet clear whether the punitive damages cap would
need to be applied. See ECF No. 174 at 4-6; ECF No.
178 at 4. Now that the Court has decided that punitive
damages are warranted, see supra Part IV.B.2, the
issue is ripe for certification. The State acknowledges
that “[n]either the Tennessee Supreme Court nor any
other court in Tennessee has ruled on the
constitutionality of ” the statutory damages cap.3 (ECF
No. 178 at 5.) Thus, the questions are new and state
law on the particular statute at issue is unsettled. “The
constitutional questions are significant and will
ultimately need to be decided by the Tennessee
Supreme Court.” (Id.)

3

Plaintiff cites a Tennessee trial court opinion, Clark v. Cain,
in which the Hamilton County Circuit Court held that the
statutory cap on non-economic damages is unconstitutional. (ECF
No. 168 at 3 (citing No. 12-C1147 (Cir. Ct. Hamilton Cnty. Mar.
9, 2015) (mem. op.), ECF No. 168-1).) Clark, however, addresses
the statutory cap under section 29-39-102 of the Tennessee Code,
not the section at issue in this case, section 29-39-104. (See Clark,
No. 12-C1147, at 2.)

125a
The Court is unpersuaded by Defendant’s argument
that certification is not warranted because there is a
“‘clear and principled’ course” for the Court to follow.
(ECF No. 174 at 6 (quoting Pennington, 553 F.3d at
450).) For example, Defendant analogizes to a North
Carolina Supreme Court case that supports the
constitutionality of a cap on punitive damages. (Id. at
10-12 (citing Rhyne v. K-Mart Corp., 594 S.E. 2d 1 (N.C.
2004)).) The North Carolina Supreme Court held that
the state’s statutory punitive damages cap did not
violate the state constitutional right to a jury trial
“because plaintiffs lacked a fundamental right to a
judgment that was consistent with the jury’s punitive
award.” (Id. at 12.) Plaintiff points to rulings from the
Missouri and Ohio Supreme Courts, however, which
have held that statutory punitive damages caps do
violate a plaintiff ’ s fundamental right to a jury trial.
(ECF No. 168 at 6 (citing Lewellen v. Franklin, 441
S.W.3d 136, 143 (Mo. 2014) (en banc); State ex rel. Ohio
Acad. of Trial Lawyers v. Sheward, 715 N.E.2d 1062,
1091 (Ohio 1999) (“a statute that allows the jury to
determine the amount of punitive damages to be
awarded but denies the litigant the benefit of that
determination stands on no better constitutional footing
than one that precludes the jury from making the
determination in the first instance”)).) It does not
appear, then, that there is a clear and principled course
for the Court to follow in rejecting Plaintiff ’ s
constitutional challenges that would justify a denial of
certification to the Tennessee Supreme Court.

126a
Accordingly, the Court GRANTS Plaintiff ’ s Motion
for Certification of Questions to the Tennessee Supreme
Court.
V. CONCLUSION
The Court applies the standard for granting motions
for judgment as a matter of law under Tennessee law
and finds that, taking the evidence in the strongest view
in favor of Plaintiff, the non-movant, there is doubt as
to the conclusions drawn by Defendant.
Thus,
Defendant’s Motion for Judgment as a Matter of Law is
DENIED.
The Court also finds that the
constitutionality of the Tennessee statutory damages
cap is an issue now ripe and appropriate for review and
GRANTS Plaintiff ’ s motion to certify questions
regarding the constitutionality of the cap to the
Tennessee Supreme Court. The Court will enter a
separate order of certification.
IT IS SO ORDERED, this 24th day of November,
2015.
/s/ Jon P. McCalla
JON P. McCALLA
UNITED STATES DISTRICT
COURT JUDGE

127a
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TENNESSEE
WESTERN DIVISION
TAMARIN LINDENBERG,
individually and as Natural
Guardian of her minor child
S.M.L., and ZACHARY
THOMAS LINDENBERG,
Plaintiffs,
v.
JACKSON NATIONAL LIFE
INSURANCE COMPANY,
Defendant.

)
)
)
)
)
)
)
)
) No. 2:13-cv-02657)
JPM-cgc
)
)
)
)
)
)

ORDER CERTIFYING QUESTIONS OF STATE
LAW TO THE SUPREME COURT OF
TENNESSEE
This case concerns a dispute over a life insurance
policy issued by Defendant Jackson National Life
Insurance Company to Decedent Thomas A.
Lindenberg. (See Joint Pretrial Order at 4, ECF No.
125.) Plaintiffs Tamarin Lindenberg, minor child
S.M.L., and Zachary Thomas Lindenberg, are the

128a
former wife of Decedent and the two children of Thomas
and Tamarin Lindenberg. (Id.) On July 19, 2013,
Plaintiffs filed a complaint against Defendant in the
Circuit Court of Shelby County, Tennessee, for the
Thirteen Judicial District at Memphis, alleging breach
of contract and bad faith. (ECF No. 1-1.)
Defendant sought judgment as a matter of law,
arguing that Plaintiff did not offer a “legally sufficient
evidentiary basis” for claims of statutory bad faith and
punitive damages at trial. (ECF No. 158 at 1-2.) The
Court denied the motion. (ECF No. 187). Since the
Court found that Plaintiff is entitled to punitive
damages, the issue of the Tennessee statutory cap on
punitive damages will be determinative of the cause,
and the decisions of the Tennessee Supreme Court do
not provide any precedents specific to the issue of a
punitive damages cap.
STATEMENT OF FACTS
Defendant issued a life insurance policy to Decedent
Thomas Lindenberg, effective January 23, 2002.
(Stipulation No. 6(a), Joint Pretrial Order at 4.) The
policy designated Plaintiff Tamarin Lindenberg as the
primary beneficiary who was to receive 100% of the
policy proceeds upon Decedent’s death. (Stipulation No.
6(b), id.)
Plaintiff Tamarin Lindenberg and Decedent
executed a Marital Dissolution Agreement (“MDA”) in
2005, and a divorce decree was issued in 2006.
(Stipulation No. 6(d), Joint Pretrial Order at 4; see also
Trial Exs. 10, 11.) The MDA required that “Wife shall

129a
pay the Life Insurance premium for Columbus and
Jackson National policies for so long as she is able to do
so and still support the children.” (Trial Ex. 10 at 7.)
Additionally, the MDA required “Husband at his
expense [to] maintain in full force insurance on his life
having death benefits payable to the parties’ children as
irrevocable primary beneficiaries . . . .’” (Id. at 9.)
Decedent died on January 22, 2013. (See Certificate
of Death for Thomas Arthur Lindenberg, Trial Ex. 35.)
On February 6, 2013, Defendant received from Plaintiff
Tamarin Lindenberg a claim for the death benefit. (See
Trial Ex. 22 at 1.) On March 11, 2013, Plaintiffs’
attorney sent Defendant a letter seeking expedited
review of the claim and payment of the death benefit.
(Trial Ex. 21.) On March 22, 2013, Defendant sent a
letter in response requiring further action by Plaintiffs,
including “waivers to be signed by the other potential
parties”; and the obtaining of “court-appointed
Guardian(s) for the Estates of the two minor children.”
(Trial Ex. 23.) Defendant stated that another option
would be for Plaintiff Tamarin Lindenberg to waive her
rights to the claim so that Defendant could disburse the
proceeds to the minor children. (Id. at 2.)
Throughout the month of May 2013, Plaintiff
Tamarin Lindenberg and Defendant were in
communication about how to proceed and whether
Defendant would interplead the funds with the Court.
(See Trial Exs. 24, 25, 32.) On July 19, 2013, Plaintiffs
filed suit for breach of contract and bad faith. (ECF No.
1-1.)

130a
On May 29, 2014, by Order of the Court, Defendant
disbursed payment of $366,363.22, the face amount of
the policy plus interest, to Plaintiff. (Stipulation No.
6(k), Joint Pretrial Order at 4.)
A jury trial was held from December 15, 2014, to
December 22, 2014. (ECF Nos. 133, 136, 138-39, 141,
146.) Plaintiffs were awarded punitive damages in the
amount of $3,000,000.00. (Special Jury Verdict Form,
ECF No. 152.) Defendant argues that the punitive
damages cap under section 29-39-104 of the Tennessee
Code applies in this case and would entitle Plaintiff a
maximum of $500,000. (ECF No. 158 at 15-19.) Section
29-39-104 states that punitive damages “shall not
exceed an amount equal to the greater of: (A) Two (2)
times the total amount of compensatory damages
awarded; or (B) Five hundred thousand dollars
($500,000).” Tenn. Code Ann. § 29-39-104(a)(5).
Plaintiff argues that even if the cap were applicable and
constitutional, Plaintiff would be entitled to $700,000,
twice the amount of the compensatory damages
awarded by the jury. (ECF No. 159 at 20 n.11.)
In Clark v. Cain, a Tennessee trial court held that
the statutory cap on non-economic damages is
unconstitutional. (No. 12-C1147 (Cir. Ct. Hamilton
Cnty. Mar. 9, 2015) (mem. op.), ECF No. 168-1.) Clark,
however, addresses the statutory cap under section 2939-102 of the Tennessee Code, not section 29-39-104.
(See id. at 2.)

131a
QUESTIONS OF LAW
Pursuant to Tennessee Supreme Court Rule 23, the
following questions of state law are hereby certified to
the Supreme Court of Tennessee:
1. Do the punitive damages caps in civil cases
imposed by Tennessee Code Annotated Section 2939-104 violate a plaintiff ’ s right to a trial by jury, as
guaranteed in Article I, section 6 of the Tennessee
Constitution?
2. Do the punitive damages caps in civil cases
imposed by Tennessee Code Annotated Section 2939-104 represent an impermissible encroachment by
the legislature on the powers vested exclusively in
the judiciary, thereby violating the separation of
powers provisions of the Tennessee Constitution?
Pursuant to Tennessee Supreme Court Rule 23,
section 4, the Clerk of Court is hereby directed to serve
copies of this Certification Order upon all counsel of
record in this cause and file with the Clerk of the
Supreme Court of Tennessee in Nashville this
Certification Order under the seal of this Court along
with proof of service.
The Court hereby designates Tamarin Lindenberg
as the moving party for purposes of certification. The
parties and their counsel of record appear below:
For Tamarin Lindenberg, individually and as natural
guardian of her minor child S.M.L., and Zachary
Thomas Lindenberg

132a
Molly A. Glover
Charles Silvestri Higgins
BURCH PORTER & JOHNSON
130 N. Court Avenue
Memphis, Tennessee 38103
For Jackson National Life Insurance Company
Daniel Warren Van Horn
Michael C. McLaren
Robert Campbell Hillyer
BUTLER SNOW LLP
Crescent Center
6075 Poplar Avenue 5th Floor
Memphis, Tennessee 38119
IT IS SO ORDERED, this 24th day of November,
2015.
/s/ Jon P. McCalla
JON P. McCALLA
U.S. DISTRICT JUDGE

133a
FILED
June 23, 2016
Clerk of the Courts
Rec’d By
IN THE SUPREME COURT OF TENNESSEE
AT NASHVILLE
TAMARIN LINDENBERG, ET AL. v.
JACKSON NATIONAL LIFE INSURANCE
COMPANY
Rule 23 Certified Question of Law
from the United States District Court
for the Western District of Tennessee
No.213cv02657JPMcgc

No. M2015-02349-SC-R23-CV

ORDER

134a
Pursuant to Tennessee Supreme Court Rule 23, a
certification order was filed in this Court on December
8, 2015, by the United States District Court for the
Western District of Tennessee. Briefs have now been
filed pursuant to Section 7, and, upon consideration of
the certification order and the briefs filed by the parties
and by the amici curiae, this Court declines to answer
the following certified questions:

1. Do the punitive damages caps in civil cases
imposed by Tennessee Code Annotated Section 29-39104 violate a plaintiffs right to a trial by jury, as
guaranteed in Article I, section 6 of the Tennessee
Constitution?
2. Do the punitive damages caps in civil cases
imposed by Tennessee Code Annotated Section 29-39104 represent an impermissible encroachment by the
legislature on the powers vested exclusively in the
judiciary, thereby violating the separation of powers
provisions of the Tennessee Constitution?
Upon thorough review, it appears to this Court that
although the certified questions raise issues of first
impression not previously addressed by the appellate
courts of Tennessee, the context of this case renders it an
unsuitable venue within which to provide answers. This
case involves a jury's finding of a bad faith refusal to pay
pursuant to the terms of a policy of life insurance. The
jury determined that the plaintiff was entitled to both
the statutory bad faith penalty pursuant to Tennessee
Code Annotated section 56-7-105, and punitive damages
pursuant to the common law. The issue of the
availability of the common law remedy of punitive
damages in addition to the statutory remedy of the bad

135a
faith penalty is one which has not before been addressed
by this Court, was not certified to this Court by the
federal trial court in this case, and is not presently
before this Court in this case. It appears to this Court
that it would be imprudent for it to answer the certified
questions concerning the constitutionality of the
statutory caps on punitive damages in this case in which
the question of the availability of those damages in the
first instance has not been and cannot be answered by
this Court.
For these reasons, the Court denies the
certification.1

PER CURIAM

Nothing in the Court’s Order is intended to suggest any
predisposition by the Court with respect to the United States
Court of Appeals for the Sixth Circuit’s possible certification to this
Court of both the question of the availability of the remedy of
common law punitive damages in addition to the remedy of the
statutory bad faith penalty and the question of the
constitutionality of the statutory caps on punitive damages, in the
event of an appeal from the final judgment in this case.
1

136a
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TENNESSEE
WESTERN DIVISION
TAMARIN LINDENBERG,
individually and as Natural
Guardian of her minor child
SML and ZACHARY THOMAS
LINDENBERG,
Plaintiffs,
v.
JACKSON NATIONAL LIFE
INSURANCE COMPANY,
Defendant.

)
)
)
)
)
)
)
)
) No. 2:13-cv-02657)
JPM-cgc
)
)
)
)
)
)

ORDER ON DEFENDANT’S MOTION FOR
JUDMENT AS A MATTER OF LAW AS TO
PUNITIVE DAMAGES
The Tennessee Supreme Court having denied
certification of two questions regarding the
constitutionality of the Tennessee punitive damages
caps by Order docketed in this cause on June 27, 2016
(ECF No. 200), the case was remanded to this Court for
determination of whether punitive damages are

137a
appropriate in the instant case and, if so, the proper
amount of said damages.
For the following reasons, the Court finds that
punitive damages are appropriate, that the Tennessee
punitive damages cap is constitutional, and that the
punitive damages to be awarded in the instant case are
$700,000.
I. BACKGROUND1
On December 22, 2014, the jury in the instant case
rendered its verdict, awarding $350,000 in actual
damages and $87,500 in bad faith damages to Plaintiff
Tamarin Lindenberg (“Plaintiff ” ) and her children.
(ECF No. 151.) The jury also awarded $3,000,000 in
punitive damages. (ECF No. 152.)
On December 18, 2014, during the jury trial in the
instant case, Defendant Jackson National Life
Insurance Company (“Defendant”) moved for judgment
as a matter of law. (Min. Entry, ECF No. 139.)
Defendant filed a brief in support of its motion on
January 5, 2015. (ECF No. 156.) Plaintiff responded in
opposition on January 12, 2015. (ECF No. 159.) The
Court denied the motion on November 24, 2015. (ECF
No. 187.) In the order denying Defendant’s motion for
judgment as a matter of law, the Court deferred ruling
on the amount of punitive damages to which Plaintiff is
1

A more comprehensive procedural history and factual
background up to and including November 24, 2015, is provided in
the Court’s order denying Defendant’s motion for judgment as a
matter of law and granting Plaintiff’s motion for certification of
questions to the Tennessee Supreme Court. (See ECF No. 187 at 18.)

138a
entitled because the constitutionality of the Tennessee
statutory damages cap was an unresolved issue. (Id. at
26-29.) Also on November 24, 2015, the Court certified
two questions to the Tennessee Supreme Court:
1. Do the punitive damages caps in civil cases imposed
by Tennessee Code Annotated Section 29-39-104
violate a plaintiff ’ s right to a trial by jury, as
guaranteed in Article I, section 6 of the Tennessee
Constitution?
2. Do the punitive damages caps in civil cases imposed
by Tennessee Code Annotated Section 29-39-104
represent an impermissible encroachment by the
legislature on the powers vested exclusively in the
judiciary, thereby violating the separation of powers
provisions of the Tennessee Constitution?
(ECF No. 188 at 5.)
On June 23, 2016, the Tennessee Supreme Court
denied certification. (ECF No. 200-1.) The Court held
a telephonic status conference on July 1, 2016. (Min.
Entry, ECF No. 202.) In the conference it was
determined that Plaintiff, Defendant, and Intervenor
State of Tennessee (“the State”) would submit and rely
on in the instant case their briefing before the
Tennessee Supreme Court and the supporting amicus
briefs. The Court would then resolve the remaining
issues in this case. (See ECF Nos. 203-208.)
The mandate of the Tennessee Supreme Court
issued on June 23, 2016 and was docketed in this Court
on July 11, 2016. (ECF No. 209 (remanding “for further
proceedings and final determination ... as shall

139a
effectuate the objects of this order to remand, and
attain the ends of justice.”).)
II. LEGAL STANDARD
“It is well-settled in Tennessee that ‘courts do not
decide constitutional questions unless resolution is
absolutely necessary to determining the issues in the
case and adjudicating the rights of the parties.’” Waters
v. Farr, 291 S.W.3d 873, 881 (Tenn. 2009) (quoting State
v. Taylor, 70 S.W.3d 717, 720 (Tenn. 2002)). When
facing state constitutional challenges, Tennessee
statutes
receive
“a
strong
presumption”
of
constitutionality. Lynch v. City of Jellico, 205 S.W.3d
384, 390 (Tenn. 2006) (citing Osborn v. Marr, 127
S.W.3d 737, 740-41 (Tenn. 2004)); see also Waters, 291
S.W.3d at 881 (“Our charge is to uphold the
constitutionality of a statute wherever possible.”).
Tennessee courts must construe statutes in a way that
“sustain[s] the statute and avoid[s] constitutional
conflict if at all possible, and ... indulge every
presumption and … resolve every doubt in favor of the
statute’s constitutionality.” Howell v. State, 151 S.W.3d
450, 470 (Tenn. 2004) (citing Taylor, 70 S.W.3d at 721);
see also In re Schafer, 689 F.3d 601, 605 (6th Cir. 2012)
(“Where ... a [state] statute is challenged as
unconstitutional, [federal courts] construe the statute
to avoid constitutional infirmity when ‘fairly possible.’”
(quoting Eubanks v. Wilkinson, 937 F.2d 1118, 1122
(6th Cir. 1991))). The presumption of constitutionality
is especially burdensome in facial challenges to a
statute, where “the challenger must establish that no
set of circumstances exist under which [a challenged act

140a
of the legislature] … would be valid.” Lynch, 205 S.W.3d
at 389.
III. ANALYSIS
A. Availability of Punitive Damages
The Tennessee Supreme Court stated in its order
declining certification that “it would be imprudent for it
to answer the certified questions concerning the
constitutionality of the statutory caps on punitive
damages in this case in which the question of the
availability of those damages in the first instance has
not been and cannot be answered by [it].” (ECF No. 2001 at 2.) It is correct that “[t]he issue of the availability
of the common law remedy of punitive damages in
addition to the statutory remedy of the bad faith
penalty … was not certified [by this Court] ….”(Id.)
This Court, like another court in this district, “sees no
persuasive data that the Tennessee Supreme Court
would rule contrary to Riad [v. Erie Ins. Exchange, 436
S.W.3d 256 (Tenn. Ct. App. 2013)].” Carroll v.
Nationwide Prop. & Cas. Co., No. 2:14-cv-02902-STA,
2015 WL 3607654, at *5 (W.D. Tenn. June 8, 2015). The
court in Riad found that a plaintiff ’ s damages were “not
statutorily limited to the recovery of the insured loss
and the bad faith penalty.” Id. at *4 (quoting Riad, 436
S.W.3d at 276). Further, this Court has previously
determined that Plaintiff was both eligible for punitive
damages (ECF No. 187 at 20-25) and entitled to
punitive damages (id. at 25-26).2 Thus, the Court must
2

The Court also discussed in detail the availability of punitive
damages in addition to the statutory bad faith penalty in its
December 9, 2014 order denying Defendant’s motion to dismiss

141a
next determine the proper amount of punitive damages
Plaintiff may recover.3
B. Amount of Punitive Damages
1. The Tennessee Punitive Damages Cap
The jury awarded Plaintiff $3,000,000 in punitive
damages. (ECF No. 152.)
There exist, however,
punitive damages caps in Tennessee; section 29-39104(a)(5) of the Tennessee Code provides that:
“Punitive or exemplary damages shall not exceed an
amount equal to the greater of: (A) Two (2) times the
total amount of compensatory damages awarded; or (B)

Plaintiff’s claim for punitive damages. (See ECF No. 124 at 9-23.)
The Court does not find that intervening law has changed its
analysis. See, e.g., Carroll, 2015 WL 3607654, at *5 (finding that
the statute setting forth the bad-faith penalty does not preclude
punitive damages in breach-of-insurance-contract cases).
3 Defendant argued in its briefing before the Tennessee
Supreme Court that this Court needed to address first “whether
the punitive award [by the jury] was impermissibly excessive
under state and federal due process standards” before the
constitutional question could be answered by the Tennessee
Supreme Court. (Def.’s Br. at PageID 4338, ECF No. 203-1.)
Defendant argued that this Court needed “to apply the factors
pronounced in Hodges v. S.C. Toof & Co., 833 S.W.2d 896 (Tenn.
1992) to assess whether the jury’s punitive award contravenes
Jackson National’s state due process rights.” (Id. at PageID 4339,
ECF No. 203-1.) This Court rejected Defendant’s arguments in its
February 1, 2016, order denying Defendant’s motion to revise. (See
ECF No. 198 at 4-9 (finding that the Court is not required to follow
state procedural rules and analyzing the punitive damages award
in light of federal due process considerations).)

142a
Five hundred thousand dollars ($500,000) ….”4 The
Tennessee punitive damages statute does not prevent a
4

The Tennessee General Assembly enacted statutory caps on
punitive damages awards as part of a broader tort reform package,
the Tennessee Civil Justice Act of 2011 (“TCJA”). See Tenn. Code
Ann. § 29-39-104; 2011 Tenn. Pub. Acts 510. Governor Haslam’s
administration and Tennessee House and Senate sought to boost
the local economy and reduce unemployment by providing predictability in the state’s tort liability regime that would allow Tennessee to more rigorously compete with other southern states in attracting companies looking to relocate their operations. See, e.g.,
Regular Calendar: Hearing on H.B. 2008 Before the Tennessee
House Comm. on Judiciary, 2011 Leg., 107th Sess. at 29:55-30:10,
(Tenn. 2011), http://tnga.granicus.com/MediaPlayer.php?view_id=
196&clip_id=4078 (statements of Reps. Mike Stewart and Vance
Dennis, Members, H. Comm. on Judiciary); see also Office of the
Governor, Haslam Applauds Final Passage of Tennessee Civil
Justice Act!, State of Tennessee Website (May 20, 2011, 5:45 AM),
https://www.tn.gov/governor/news/30892 (“The legislation revises
the state’s civil justice system to make Tennessee more competitive
for new jobs with surrounding states by bringing predictability and
certainty to businesses calculating potential litigation risk and
cost.”). Some lawmakers in the Tennessee House expressed
concern during floor debates that the TCJA would encroach on
Tennesseans’ state constitutional right to a trial by jury, but it is
unclear to which specific provisions of TCJA, if any, they objected—
the caps on noneconomic damages awards, punitive damages
awards, or both—or whether they thought the entire bill was
unconstitutional. See House Session – 32nd Legislative Day:
Consideration of H.B. 2008 Before the Tennessee House, 2011 Leg.,
107th Sess. at 43:45-45:21, 1:08:06-1:15:35 (Tenn. 2011),
http://tnga.granicus.com/MediaPlayer.php?view_id=196&clip_id=
4236 (statements of Reps. Craig Fitzhugh and Mike Stewart,
Members). In the Tennessee Senate, lawmakers objected to caps on
punitive damages awards, albeit on policy grounds instead of
constitutional grounds, fearing that the then-prospective caps
would incentivize multi-billion dollar corporations from foreign
countries seeking cover from civil liability to relocate to Tennessee,

143a
jury, such as the jury in the instant case, from awarding
punitive damages greater than the statutory limit
because the punitive damages caps cannot be disclosed
to a jury. Tenn. Code Ann. § 29-39-104(a)(6). Rather, a
court is to apply the caps “to any punitive damages
verdict.” Id. The punitive damages statute also states:
Nothing in this section shall be construed as
creating a right to an award of punitive
damages or to limit the duty of the court … to
scrutinize all punitive damage awards, ensure
that all punitive damage awards comply with
applicable
procedural,
evidentiary
and
constitutional requirements, and to order
remittitur when appropriate.
Id. § 29-39-104(b) (emphasis added).5
who would in turn ostensibly harm Tennessee citizens with
relative impunity thereafter. Senate Session – 34th Legislative
Day: Consideration of S.B. 1522 Before the Tennessee Senate, 2011
Leg., 107th Sess. at 1:30:47-1:44:42 (Tenn. 2011), http://tnga.grani
cus.com/MediaPlayer.php?view_id=196&clip_id=4266 (statements
of Sens. Roy Herron, Andy Berke, and Jim Kyle, Members of the
Tennessee legislature). Nevertheless, the bills passed in both
houses. See House Session – 32nd Legislative Day: Consideration
of H.B. 2008 Before the Tennessee House, 2011 Leg., 107th Sess.
at 1:49:07-1:49:50 (Tenn. 2011), http://tnga.granicus.com/MediaPla
yer.php?view_id=196&clip_id=4236; Senate Session – 34th
Legislative Day: Consideration of S.B. 1522 Before the Tennessee
Senate, 2011 Leg., 107th Sess. at 3:55:13-3:55:47 (Tenn. 2011),
http://tnga.granicus.com/MediaPlayer.php?view_id=196&clip_id=
4266.
5 The statute also provides that: “Nothing contained in this
chapter shall be construed to limit a court’s authority to enter
judgment as a matter of law prior to or during a trial on a claim for
punitive damages.” Tenn. Code Ann. § 29-39-104(f).

144a
2. Punitive Damages and the Right to
Trial by Jury
Plaintiff argues that the Tennessee Constitution
guarantees Plaintiff ’ s right to trial by jury and that
“[b]ecause a limitation on punitive damages did not
exist at the time of the creation of the Tennessee
Constitution, the punitive damages cap … infringes on
the fundamental right to a trial by jury.” (Pl.’s Br. at
PageID 4617, ECF No. 205-1.) Defendant argues that
there has never been a constitutional right in Tennessee
to a jury’s punitive damages award such that the right
to trial by jury would be infringed by the cap. (Def.’s Br.
at PageID 4341, ECF No. 203-1.) While the Court
agrees with Plaintiff that the right to trial by jury is
guaranteed by the Tennessee Constitution, the Court
agrees with Defendant that the punitive damages caps
do not violate such a right.
a. Right to Trial by Jury Guaranteed by
Tennessee Constitution
The Tennessee Constitution’s Declaration of Rights
secures a number of individual rights, including the
right to a trial by jury. Tenn. Const. art. I, § 6. The
Tennessee Constitution has always guaranteed “[t]hat
the Right of trial by Jury shall remain inviolate.” Tenn.
Const. of 1796, art. XI, § 6 (amended 1870),
http://share.tn.gov/tsla/founding_docs/33633_Transcrip
t.pdf.6 In its guarantee of a right to trial by jury in civil
6

The Tennessee Constitution has been amended several times
since 1796, see Tre Hargett, Tenn. Sec’y of State, Tennessee Blue
Book 641 (2015-2016), and the provision guaranteeing a right to a
jury trial was amended in 1870, see Tenn. Const. of 1870, art. I, §

145a
cases, the Tennessee Constitution preserves all the
features of a jury trial “as [they] existed at common law
. . . ‘under the laws and constitution of North Carolina[7]
at the time of the adoption of the Tennessee
Constitution of 1796.’” Young v. City of LaFollette, 479
S.W.3d 785, 793 (Tenn. 2015) (quoting Helms v. Tenn.
Dep’t of Safety, 987 S.W.2d 545, 547 (Tenn. 1999)).
The Tennessee Constitution’s guarantee of a right to
trial by jury includes “the right to have the factual
6 (“That the right of trial by jury shall remain inviolate, and no
religious or political test shall ever be required as a qualification
for jurors” (emphasis added)), but such amendments have never
disturbed the right to a trial by jury.
7

Before Tennessee was admitted to the Union, the lands
largely comprising it today were subject to the laws of North
Carolina, which had adopted its Constitution in 1776, following a
brokered “private ‘treaty’” between a North Carolina land
speculator and the Cherokee tribe. See Cumberland Capital Corp.
v. Patty, 556 S.W.2d 516, 519 (Tenn. 1977) (noting that North
Carolina’s 1776 Constitution was the precursor to Tennessee’s
1796 Constitution, and that North Carolina law “basically was the
organic law of the territory of Tennessee” prior to Tennessee’s first
Constitutional Convention at Knoxville in 1796); see also In re
Estate of Trigg, 368 S.W.3d 483, 491 (Tenn. 2012) (“When
Tennessee drafted its constitution and became a state in 1796, it
inherited the ‘legal and political institutions’ created by North
Carolina.” (quoting Robert Pritchard, A Treatise on the Law of
Wills and Administration § 34, at 38-39 (2d ed. 1928))); Hargett,
supra note 6, at 503, 506-12 (describing how the territories known
as Kentucky and Middle Tennessee originally came under North
Carolinian jurisdiction, as opposed to Virginian jurisdiction, and
how Tennessee emerged as an independent state following North
Carolina’s ratification of the United States Constitution in
1789 and cessation of certain of its western territories to the
federal government).

146a
issues in the case determined by a fair and unbiased
jury.” Ricketts v. Carter, 918 S.W.2d 419, 421 (Tenn.
1996). The assessment of damages is “a question [of
fact] peculiarly within the province of the jury.”
Thompson v. French, 18 Tenn. 452, 459 (1837); see also
Bonner v. Deyo, No. W2014-00763-COA-R3-CV, 2014
WL 6873058, at *4 (Tenn. Ct. App. Dec. 5, 2014) (“The
Tennessee Constitution entrusts the responsibility of
resolving questions of disputed fact, including a
litigant’s damages, to the jury.”).
While the Tennessee Constitution guarantees the
right to trial by jury, it does not guarantee that any
plaintiff has a vested right to any particular legal
remedy. See, e.g., Dowlen v. Fitch, 264 S.W.2d 824, 825
(Tenn. 1954) (“The cases which hold that a person has
no vested right in any particular remedy are
abundant.”). As such, “there is no underlying statutory
or constitutional right to punitive damages” in
Tennessee. Univ. of Tenn. Chattanooga v. Farrow, No.
E2000-02386-COA-R9-CV, 2001 WL 935467, at *6
(Tenn. Ct. App. Aug. 16, 2001); see also Tenn. Code Ann.
§ 29-39-104(b). Since punitive damages are not meant
to be compensatory, see, e.g., Hodges v. S.C. Toof & Co,
833 S.W.2d 896, 900 (Tenn. 1992),8 they amount to a
8 Former Tennessee Supreme Court Justice Drowota’s
majority opinion in Hodges provides an instructive history of the
development of common-law punitive damages in Tennessee that
is relevant to the instant case:

As early as 1840, this Court stated: “In an action of trespass
the jury are not restrained, in their assessment of damages, to
the amount of the mere pecuniary loss sustained by the
plaintiff, but may award damages in respect of the malicious

147a

conduct of the defendant, and the degree of insult with which
the trespass had been attended.” Wilkins v. Gilmore, 21 Tenn.
140, 141 (1840). Shortly thereafter we explained that these
damages should operate to punish the defendant and deter
others from like offenses. Now termed punit[ive], vindictive, or
exemplary damages, they were legally appropriate “in cases of
fraud, malice, gross negligence, or oppression.” Exemplary
damage awards became proper in two instances: first, if the
wrongdoer acted with fraudulent, malicious, or oppressive
intent; and second, if the act, while not done with malicious
intent, was done “in a rude, insulting or reckless manner, in
disregard of social obligations, or with such gross negligence as
to amount to positive misconduct.” More recently we stated
that punitive damages are available in cases involving fraud,
malice, gross negligence, oppression, wrongful acts done with
bad motive or so recklessly as to imply a disregard of social
obligations, or where willful misconduct or an entire want of
care raises a presumption of conscious indifference to the
consequences. The contemporary purpose of punitive damages
is not to compensate the plaintiff but to punish the wrongdoer
and to deter the wrongdoer and others from committing similar
wrongs in the future.
833 S.W.2d 896, 900 (Tenn. 1992) (emphasis added) (citations
omitted). The phrase “[a]s early as 1840” is legally significant and
determinative in the instant case, in that it suggests that there are
no binding Tennessee precedents predating Wilkins that provide
for the kind of damages awards in Tennessee that we call punitive
damages today. The Wilkins court, writing in 1840, cited to an
English treatise, published in 1830, for the proposition that:
In an action of trespass the jury are not restrained, in their
assessment of damages, to the amount of the mere pecuniary
loss sustained by the plaintiff, but may award damages, in
respect of the malicious conduct of the defendant, and the
degree of insult with which the trespass has been attended.

148a
“windfall for the plaintiff ” to which a plaintiff
specifically has no vested right, because punitive
damages have “no relationship to the actual injury to
the plaintiff.” Vaughn v. Park Healthcare Co., 1994 WL
684485, at *8 (Tenn. Ct. App. Dec. 7, 1994).
To have a vested right in a punitive damages award,
a court must first enter judgment in a plaintiff ’ s favor,
see Dowlen, 264 S.W.2d at 825; prior to that point, any
jury findings as to an amount of punitive damages are
not final and are subject to review by a court. See, e.g.,
Coppinger Color Lab, Inc. v. Nixon, 698 S.W.2d 72, 74
(Tenn. 1985) (“the discretion of the jury in fixing the
amount of punitive damages is not beyond supervision
by the Court”); Keith v. Murfreesboro Livestock Mkt.,
Inc., 780 S.W.2d 751, 755 (Tenn. Ct. App. 1989) (“While
awarding punitive damages is the jury’s prerogative,
the jury’s decision is not beyond judicial review.”
(citation omitted)).
b. No Violation of Right to Trial by Jury
Plaintiff asserts that the determination of punitive
damages awards is included within the state
constitutional right to trial by jury. (Pl.’s Br. at PageID
4617-18, ECF No. 205-1 (citing four Tennessee cases).)
Defendant argues that “Plaintiff ’ s argument is
fundamentally flawed, however, because she fails to
distinguish the state constitutional right to have a jury
resolve questions of liability with the legislature’s
21 Tenn. at 141 (citing 3 Thomas Starkie, A Practical Treatise on
the Law of Evidence: And Digest of Proofs, in Civil and Criminal
Proceedings 1450-51 (1830)).

149a
authority to limit the remedy for a particular cause of
action.” (Def.’s Br. at PageID 4346, ECF No. 203-1.)
Plaintiff has the burden to establish that the challenged
statute is invalid. Lynch, 205 S.W.3d at 390. The Court
finds that the right to trial by jury does not encompass
the right to punitive damages as awarded by the jury.
Plaintiff relies on inapposite case law because the
damages at issue in three cases she cites, Tenn. Coach
& R.R. Co. v. Roddy, 5 S.W. 286, 289 (Tenn. 1887);
Thompson v. French, 18 Tenn. 452, 459 (1837); and
Grace v. Curley, 3 Tenn. App. 1 (1926), were
economic/compensatory
damages,
not
punitive
damages. A fourth case cited by Plaintiff, Wilkins v.
Gilmore, offers some support for the proposition that
juries have the authority to “award damages in respect
of the malicious conduct of the defendant, and the
degree of insult with which trespass had been
attended.” 21 Tenn. 140, 141 (1840). Wilkins, however,
relied on a British treatise that cited only to British
cases for the proposition. See supra p. 10 and note 8.
While Plaintiff notes that “Tennessee, ‘through North
Carolina, adopted the common law of England as it
existed in 1776,’” and the English cases that Plaintiff
cites offer persuasive evidence that punitive damages
existed at common law during the colonial period (Pl.’s
Reply Br. at 7, ECF No. 205-2 (citing Dunn v. Palermo,
522 S.W.2d 679, 682 (Tenn. 1975)), the Tennessee
constitutional right to trial by jury encompasses only a
right to the trial, not a right to the specific remedy of
punitive damages, as it existed at common law. (See
State’s Br. at 8, ECF No. 208-1 (citing Garner v. State,
13 Tenn. 160, 176 (1833) (Whyte, J., concurring) (“What

150a
right of trial by jury is thus sanctioned and secured by
the constitution? The answer is, ‘the trial by jury as it
then existed in force and use at the time of the adoption
of the constitution.’” (emphasis added))).) Plaintiff
appears to concede in effect that the right does not exist9
but maintains that a statute capping punitive damages
nevertheless encroaches on the judicial power. (Pl.’s
Reply Br. at 3, ECF No. 205-2; see also infra Part
III.B.3.)
In addition to failing to establish a state
constitutional right to punitive damages, Plaintiff also
fails to establish that punitive damages awards existed
in North Carolina or in what is today Tennessee
between 1776 and 1796.10 As former Tennessee Justice
Drowota noted in Hodges, there does not appear to be
controlling authority in Tennessee prior to Wilkins that
provides for an award of punitive damages in a jury
trial. See Hodges, 833 S.W.2d at 900; supra p. 10 and
note 8.

Plaintiff acknowledges that the right to trial by jury is limited
insofar “as it existed at the formation of the [Tennessee]
Constitution.” (Pl.’s Reply Br. at 2, ECF No. 205-2 (quoting Trigally
v. City of Memphis, 46 Tenn. 382, 385 (1869)).)
9

In those decades, Tennessee was “a rough frontier state
with whatno one would consider to be a robust and well developed
legal practice” because “[b]y 1800, the state still only had
approximately a population of 105,602, with a majority of its
13,893 black residents enslaved,” and civil litigation was thus
ostensibly infrequent. (Br. for Beacon Center as Amicus Curiae
Supporting Def. at PageID 4510 & n.4, ECF No. 204-1 (emphasis
added).)
10

151a
Furthermore, “the constitutional right to trial by
jury does not apply to statutory rights and remedies
created after the adoption of the 1796 Constitution.”
Young, 479 S.W.3d at 793 (emphasis added) (citing
Helms, 987 S.W.2d at 547). “For such statutory rights
and remedies, the Legislature is free to either dispense
with the right of trial by jury, or provide for it.” Id. at
793-94 (citations omitted). The Tennessee General
Assembly likewise has the power “to abrogate the
common law by statute.” Guy v. Mut. of Omaha Ins. Co.,
79 S.W.3d 528, 536 (Tenn. 2002); see also Nichols v.
Benco Plastics, Inc., 469 S.W.2d 135, 137 (Tenn. 1971)
(“The legislature may abolish remedies recognized at
common law and create new ones to attain permissible
legislative object.”); Alamo Dev. Corp. v. Thomas, 212
S.W.2d 606, 610 (Tenn. 1948) (“[The state] may change
the common law and the statutes so as to create duties
and liabilities which never existed before.” (quoting
Cavender v. Hewitt, 239 S.W. 767, 770 (Tenn. 1922)));
Nance v. O.K. Houck Piano Co., 155 S.W. 1172, 1174
(Tenn. 1913) (recognizing the General Assembly’s
power to change the common law and rejecting the
proposition that adoption of the Tennessee Constitution
froze the common law in time). The General Assembly’s
power is broad enough that it also extends to altering or
abolishing common law defenses, in addition to altering
or abolishing remedies. See, e.g., Scott v. Nashville
Bridge Co., 223 S.W. 844, 848 (Tenn. 1919). The United
States Supreme Court has recognized that “legislatures
enjoy broad discretion in authorizing and limiting
permissible punitive damages awards.” Cooper Indus.,

152a
Inc. v. Leatherman Tool Grp., Inc., 532 U.S. 424, 433
(2001).11
1. Comparison with Other States
Plaintiff offers case law from Missouri and Ohio12 to
support her assertion that statutory punitive damages
11

The Supreme Court noted that punitive damages serve
functions similar to criminal offense punishments. Cooper Indus.,
532 U.S. at 432-33. Notably, the Tennessee General Assembly
also has the power to enact laws defining criminal offenses and
punishments. See Woods v. State, 169 S.W. 558, 559 (Tenn. 1914).
The General Assembly has enacted statutes that establish
sentencing ranges for felony conduct, in direct contrast to the
traditional criminal practice of jury determinations of criminal
sentences, and courts had “virtually no authority to alter” a
sentence, but “simply [to] impose[ ] the sentence.” (Br. for Beacon
Center as Amicus Curiae Supporting Def. at PageID 4528, ECF
No. 204-1.)
12

Plaintiff quotes a 1999 decision of the Ohio Supreme
Court, which found that statutory limits on punitive damages
violated the right to trial by jury. (Pl.’s Br. at PageID 4620, ECF
No. 205-1 (quoting State ex rel. Ohio Acad. of Trial Lawyers v.
Sheward, 715 N.E.2d 1062, 1091 (1999)).) Plaintiff also
acknowledges, however, in a footnote, that “[t]he Ohio Supreme
Court later upheld punitive damages caps passed by the Ohio
legislature following Sheward.” (Id. at PageID 4620 n.5 (citing
Arbino v. Johnson & Johnson, 880 N.E.2d 420 (2007)).) The
current status of Ohio law is that the punitive damages awards
caps contained in section 2315.21 of the Ohio Revised Code are
facially constitutional. Arbino, 880 N.E.2d at 441 (“regulation of
punitive damages is discretionary and … states may regulate and
limit them as a matter of law without violating the right to a trial
by jury”); see also Bell v. Zurich Am. Ins. Co., 156 F.Supp.3d 884,
891 (N.D. Ohio 2015) (applying Ohio statutory punitive damages
cap to a default judgment resulting from a bad faith insurance
claim). But see Roginski v. Shelly Co., 31 N.E.3d 724, 762-63

153a
caps violate the fundamental right to trial by jury. (Pl.’s
Br. at PageID 4619-20, ECF No. 205-1.) In Lewellen v.
Franklin, the Supreme Court of Missouri invalidated
Missouri’s statutory punitive damages caps, Mo. Rev.
Stat. § 510.265, stating that, “[u]nder the common law
as it existed at the time the Missouri Constitution was
adopted, imposing punitive damages was a peculiar
function of the jury,” and the statute unconstitutionally
“changes the right to a jury determination of punitive
damages as it existed in 1820.” 441 S.W.3d 136, 143-44
(2014) (en banc). The Missouri Constitution, similar to
the Tennessee Constitution, provides that “the right of
trial by jury as heretofore enjoyed shall remain
inviolate,” Mo. Const. art. I, § 22(a), but unlike in
Tennessee, courts in Missouri have historically
awarded punitive damages, even prior to the adoption
of the state’s constitution. See Lewellen, 441 S.W.3d at
143-44 (collecting cases). Missouri’s statutory law is
also distinguishable from Tennessee’s in that it also
does not disavow that any statutory provisions may
create a right to punitive damages. Compare Mo. Rev.
Stat. § 510.270 (codifying the common-law practice of
leaving the determination of money damages, including
exemplary and punitive damages, to a jury) with Tenn.
Code Ann. § 29-39-104(b) (“Nothing in this section shall
be construed as creating a right to an award of punitive
damages . . . .”).

(Ohio Ct. Com. Pl. 2014) (invalidating Ohio statute as a violation
of the Ohio Constitution’s due process and equal protection
guarantees, as applied).

154a
More persuasive, however, is North Carolina law, to
which Defendant cites (see Def.’s Br. at PageIDs 435052, ECF No. 203-1), since the Tennessee Constitution
derives from the North Carolina Constitution. The
Supreme Court of the State of North Carolina has
upheld the state’s statutory punitive damages caps
against a challenge that the statute violates the right to
trial by jury. See Rhyne v. K-Mart Corp., 594 S.E.2d 1
(N.C. 2004). In Rhyne, the jury awarded the plaintiffs
$11.5 million each in punitive damages, and the trial
court reduced the award to $250,000 for each plaintiff,
per North Carolina General Statute section 1D-25,13 a
judgment the state appellate and state supreme courts
found proper. See id. at 6, 21. Like the Tennessee
Constitution, the North Carolina Constitution
13

The North Carolina statute provides that:

(a) In all actions seeking an award of punitive damages, the trier
of fact shall determine the amount of punitive damages
separately from the amount of compensation for all other
damages.
(b) Punitive damages awarded against a defendant shall not
exceed three times the amount of compensatory damages or
two hundred fifty thousand dollars ($250,000), whichever is
greater. If a trier of fact returns a verdict for punitive damages
in excess of the maximum amount specified under this
subsection, the trial court shall reduce the award and enter
judgment for punitive damages in the maximum amount.
(c) The provisions of subsection (b) of this section shall not be
made known to the trier of fact through any means, including
voir dire, the introduction into evidence, argument, or
instructions to the jury.
N.C. Gen. Stat. § 1D-25(a)-(c) (emphasis added).

155a
guarantees a right to trial by jury in civil matters. See
N.C. Const. art. I, § 25 (“In all controversies at law
respecting property, the ancient mode of trial by jury is
one of the best securities of the rights of the people, and
shall remain sacred and inviolable.”). The “respecting
property” language is significant. The Supreme Court
of the State of North Carolina has construed article I,
section 25 “to apply only to actions respecting property
in which the right to a jury trial existed either at
common law or by statute before the 1868 Constitution
became operative and for actions created since then the
right to a jury depends upon statutory authority ....”
State ex rel. Rhodes v. Simpson, 372 S.E.2d 312, 314
(N.C. App. 1988) (citing The Chowan & Southern R.R.
Co. v. Parker, 11 S.E. 328 (1890)), rev’d on other
grounds, 385 S.E.2d 329 (1989). Thus, since the Rhyne
plaintiffs’ action for punitive damages was not a
controversy “respecting property,” their argument that
juries had awarded punitive damages prior to the
adoption of the North Carolina Constitution of 1868,
was not persuasive.14 See 594 S.E.2d at 10-11.
Additionally, a federal court in North Carolina has
indicated that North Carolina’s statutory punitive
damages caps could be applied in a case against an
Alternatively, the Rhyne plaintiffs argued that “property”
should be construed broadly so as to include a right to punitive
damages. 594 S.E.2d at 11. Their argument, however, was
unsuccessful. See id. at 12 (“[A]n entitlement to an award of
punitive damages does not represent a right vested in a plaintiff.
A plaintiff’s recovery of punitive damages is fortuitous, as such
damages are assessed solely as a means to punish the willful and
wanton actions of defendants . . . .” (citing Overnite Transp. Co. v.
Int’l Bhd. of Teamsters, Chauffeurs, Warehousemen & Helpers of
Am., 125 S.E.2d 277, 286 (N.C. 1962))).
14

156a
insurance provider in which the plaintiff raised a bad
faith claim. See Guessford v. Pa. Nat. Mut. Cas. Ins. Co.,
983 F. Supp. 2d 652, 670 (M.D.N.C. 2013) (denying the
defendant’s request to limit the scope of punitive
damages at the summary judgment stage while noting
that punitive damages caps already exist in North
Carolina).
Plaintiff attempts to distinguish several states – but
not North Carolina – that have upheld statutory punitive damages caps from Tennessee (Pl.’s Br. at PageIDs
4621-25, ECF No. 205-1), but the Court does not find
these distinctions persuasive. For example, Plaintiff
argues that the Alaska Supreme Court’s holding in
Evans ex rel. Kutch v. State, 56 P.3d 1046 (2002) that
the state statutory punitive damages cap was
constitutional relied on an equal protection challenge
and not a challenge to the right to trial by jury. (Id. at
PageIDs 4622-23.) Plaintiff asserts that “[b]ecause
Tennessee’s constitutional language guaranteeing the
right to a jury trial is even stronger than Alaska’s,” the
Court should find the dissent in Evans persuasive. (Id.
at PageID 4623.) Plaintiff omits in her quoting of the
dissent, however, a noticeable distinction between the
damages to which the dissent refers and the punitive
damages at issue in the instant case; the quoted
language, in full, reads: “Construing constitutional
provisions that are textually and historically similar to
Alaska’s, courts in Kansas, Oregon, Washington, and
Alabama have held that non[ ] economic damages caps
violate a plaintiff ’ s right a jury trial.” Evans, 56 P.3d
at 1071 (Bryner, J., dissenting). The word “noneconomic,” which Plaintiff failed to include in her brief,

157a
is crucial to this analysis: non-economic damages are a
form of compensation related to actual injury, while
punitive damages are designed to punish and deter
wrongdoing.15
2. Comparison
with
Other
Damages Prohibitions

Punitive

Defendant asserts that outright federal and state
statutory prohibitions on punitive damages in civil suits
in which a municipality is a defendant are
constitutional, and thus this Court should also find
section 29-39-104 constitutional. (See Def.’s Br. at
PageIDs 4352-53 & n.10, ECF No. 203-1 (citing
Alexander v. Beale St. Blues Co., 108 F. Supp. 2d 934,
951 (W.D. Tenn. 1999)).) Such prohibitions on punitive
damages recovery from municipal or local governments
are a matter of public policy. See, e.g., Tipton Cty. Bd.
of Educ. v. Dennis, 561 S.W.2d 148, 152 (Tenn. 1978).
The Court’s role is not to inquire into the relative
wisdom of the legislature’s policy priorities or its
pronouncements but rather to interpret and apply the
law. Richardson v. Young, 125 S.W. 664, 668 (Tenn.
1909) (“[T]he legislative power is the authority to make,
order, and repeal, the executive, that to administer and
15 A Tennessee trial court has similarly held that the Tennessee
statutory non-economic damages cap under section 29-39-102 of
the Tennessee Code is unconstitutional. (See Clark v. Cain, No. 12C1147 (Cir. Ct. Hamilton Cnty. Mar. 9, 2015) (mem. op.), ECF No.
168-1.) On appeal, the Tennessee Supreme Court found that “the
issue of the constitutionality of that cap [was] not ripe for
determination . . . . Clark v. Cain, 479 S.W.3d 830, 832 (Tenn.
2015).

158a
enforce, and the judicial, that to interpret and apply,
laws.”); see also infra Part III.B.3. As such, the Court
recognizes and considers the fact that other laws
constitutionally prevent recovery of punitive damages in
Tennessee.
c. Conclusion
Tennessee authority and authority from other states
demonstrate that the Tennessee statutory punitive
damages caps are valid. They do not inhibit a jury’s
fact-finding role, as guaranteed by the state
constitution, nor do they inhibit the jury’s ability to
determine an appropriate amount of punitive damages
in light of the facts of the given case. Rather, the
statutory punitive damages caps, applied after any jury
determination has concluded, are independent of the
right to trial by jury in Tennessee. Further, there exists
no right to any specific remedy, including punitive
damages. Thus, the Court finds that the statutory
punitive damages caps do not violate Plaintiff ’ s right to
trial by jury.
3. Punitive Damages and the Separation of
Powers
Plaintiff also asserts that the punitive damages caps
“violate[ ] the separation-of-powers principles contained
in the Tennessee Constitution.” (Pl.’s Br. at PageID
4620, ECF No. 205-1.) Defendant argues that “a
legislative limitation on the amount of a punitive award
does not unconstitutionally invade the judicial domain.”
(Def.’s Br. at PageID 4341, ECF No. 203- 1.) The Court
agrees with Defendant.

159a
a. Separation
of
Powers
Tennessee Constitution

in

the

The original Tennessee Constitution of 1796 gave
the General Assembly what some thought to be outsized
power, relative to the other branches, so a subsequent
constitutional convention amended the framing
document to include, inter alia, an express provision
dividing governmental powers across three branches,
the text of which has since remained undisturbed. See
Hargett, supra note 6, at 641; see also Tenn. Const. of
1834, art. II, § 1 (amended 1870) (“The powers of the
government shall be divided into three distinct
departments; the Legislative, Executive and Judicial.”),
http://share.tn.gov/tsla/founding_docs/33662_Transcrip
t.pdf; Tenn. Const. art. II, § 1 (same). A separate section
provides that: “No person or persons belonging to one of
these departments shall exercise any of the powers
properly belonging to either of the others, except in the
cases herein directed or permitted.” Tenn. Const. art. II,
§ 2; Tenn. Const. of 1834, art. II, § 2 (amended 1870)
(same). Aside from these provisions that expressly
compartmentalize governing authority, the Tennessee
Constitution has always separately vested all
legislative authority in a bicameral General Assembly,
and all judicial power in the state’s courts. See Tenn.
Const. art. II, § 3 (“The Legislative authority of this
State shall be vested in a General Assembly, which shall
consist of a Senate and House of Representatives, both
dependent on the people.”); Tenn. Const. of 1796, art. I,
§ 1 (amended 1870) (same); cf. Tenn. Const. art. VI, § 1
(“The judicial power of this State shall be vested in one
Supreme Court and in such Circuit, Chancery and other

160a
inferior Courts as the Legislature shall from time to
time ordain and establish . . . .”); Tenn. Const. of 1796,
art. V, § 1 (amended 1870) (same).
Thus, the state constitution expressly limits the
General Assembly’s influence over the judicial branch’s
power and jurisdiction to the establishment or
dissolution of inferior courts. The General Assembly
has “no constitutional authority to enact rules, either of
evidence or otherwise, that strike at the very heart of a
court’s exercise of judicial power.” State v. Mallard, 40
S.W.3d 473, 483 (2001).
The judicial power in
Tennessee includes “the powers to hear facts, to decide
the issues of fact made by the pleadings, and to decide
the questions of law involved.” Id. “[A]ny legislative
enactment that purports to remove the discretion of a
trial judge in making determinations of logical or legal
relevancy impairs the independent operation of the
judicial branch of government, and no such measure can
be permitted to stand.” Id.
Within the system of courts, the Tennessee
Constitution has always restrained judges’ authority to
restating testimony and instructing juries on the law,
leaving the resolution of questions of fact exclusively to
juries. See Tenn. Const. art. VI, § 9; Tenn. Const. of
1796, art. V, § 5 (amended 1870). As discussed above,
however, the Tennessee Constitution does not prohibit
the legislature from codifying, altering, or abrogating
common-law causes of action and remedies. See infra
Part III.B.2.b; see also, e.g., Tenn. Code Ann. § 56-7-105
(reducing available damages in a bad-faith refusal to
pay an insurance claim case to twenty-five percent of
the plaintiff ’ s loss). “It is within the province of the

161a
General Assembly, not the judiciary, to establish and
control the remedies that are available to persons
seeking judicial relief.” Caudill v.Foley, 21 S.W.3d 203,
210 (Tenn. Ct. App. 1999) (emphasis added).
b. No Violation of Separation of Powers
Plaintiff asserts that, because juries are “the judges
of damages awards,” they have a “constitutional
[ j udicial]
function
to
independently
decide
controversies,” and the statutory punitive damages
caps thus infringe upon judicial power. (Pl.’s Br. at
PageID 4621, ECF No. 205-1 (citing Mallard, 40 S.W.3d
at 483).) Defendant argues that a legislature has the
authority “to alter a litigant’s common law legal
remedy” without violating the Tennessee Constitution.
(Def.’s Br. at PageID 4359, ECF No. 203-1.) The Court
finds that the statutory punitive damages caps
expressly preserve judicial review of punitive damages
awards and do not encroach upon judicial power.
Tennessee juries find as to facts; Tennessee courts
instruct juries as to applicable laws, and have authority
in certain contexts to withdraw certain questions from
laymen that are otherwise “[t]he province of the jury.” 2
Lawrence A. Pivnick, Tenn. Cir. Ct. Practice § 25:1
(2016).16 The text of the Tennessee Constitution vests
Pivnick’s civil practice guide distinguishes the jury
function from the function of the court, describing the jury
function as thus:
A jury is a group of laymen chosen to determine questions of
fact and so-called “mixed questions of law and fact,” which
involve the jury’s application of law to the facts. It is the court,
however, that determines and instructs the jury on the
applicable law in all cases. The province of the jury is to weigh
16

162a
judicial power in the courts, not in juries. Tenn. Const.
art. VI, § 1 (“The judicial power of this State shall be
vested in one Supreme Court and in such Circuit,
Chancery and other inferior Courts as the Legislature
shall from time to time, ordain and establish ....”
(emphasis added)). It does not follow, as Plaintiff
argues,17 that a statutory law encroaches on
constitutional judicial power merely because a court
applies the law to the “undisputed” facts as found by a
jury during a trial and formally established in its
verdict.18 The Tennessee punitive damages statute
the evidence, pass on the credibility of witnesses, and to accept
or reject testimony legally admitted in evidence by the court.
The jury functions in cases in which what has happened is not
agreed upon or admitted by the pleadings, and testimony is
disputed and contradictory so that more than one factual
conclusion can be drawn by reasonable men. Factual questions
may be withdrawn from the jury and decided by the court,
however, in cases where the facts are established by the
evidence free from conflict, and the inferences from the facts
are so certain that all reasonable men in the exercise of a free
and impartial judgment must agree upon the facts. In the
latter case, the court determines the action by applying the
law to the undisputed facts.
Pivnick, supra page 26, § 25:1 (emphasis added).
17

Plaintiff relies on the Washington State Supreme Court’s
holding in Sofie v. Fibreboard Corp., arguing “that the right to
trial by jury is not invaded if the jury is allowed to determine facts
which go unheeded when the court issues its judgment [because of
a statutory cap]. Such an argument pays lip service to the form of
the jury, but robs the institution of its function.” (Pl.’s Reply Br.
at 8, ECF No. 205-2 (citing 771 P.2d 711, 721 (Wash. 1989)).).
18

Furthermore, Plaintiff misquotes Mallard, which refers to
“a ‘court’s constitutional function,’” not a jury’s function.

163a
expressly provides that a court has authority to review
punitive damages awards and to grant “judgment as a
matter of law prior to or during a trial on a claim for
punitive damages.” Tenn. Code Ann. §§ 29-39-104(b),
(f). Where the legislature does not intend or attempt to
usurp the judicial power, a statute should survive
constitutional scrutiny. Mallard, 40 S.W.3d at 485
(“because the legislature did not intend to remove the
discretion of the trial judge to determine the logical or
legal relevance of such evidence, the statute . . . should
be permitted to operate to the fullest extent allowed
. . . .”);cf. State v. McKaughan, No. W2013-00676-CCAR3-CD, 2014 WL 2547768, at *6 (Tenn. Crim. App. June
2, 2014) (upholding a criminal evidence statute from a
separation of powers challenge “because it neither
attempts to remove the trial court’s discretion to
determine what evidence is logically or legally relevant
to an ultimate fact of consequence nor completely
usurps the court’s preliminary ‘gatekeeper’ function
and dictate ‘the ultimate judicial determination.’”).19
1. Remittitur
Plaintiff argues that section 29-39-104 of the
Tennessee Code unconstitutionally encroaches on a
court’s power of remittitur, a power that is
constitutional because it operates “on a case-by-case
basis,” as compared with statutory caps, which are
(Compare Pl.’s Br. at PageID 4621, ECF No. 205-1 with 40
S.W.3d at 483 (emphasis added).)
Other states, too, have found that statutory punitive
damages caps are constitutional and do not violate the separation
of powers doctrine. See, e.g., Arbino, 880 N.E.2d at 443; Rhyne,
594 S.E.2d at 10.
19

164a
“blanket rule[s]” and “arbitrary.” (Pl.’s Br. at PageIDs
4625-26, ECF No. 205-1 (citing, inter alia, Webb v.
Canada, No. E2006-01701-COA-R3-CV, 2007 WL
1519536, at *2 (Tenn. Ct. App. May 25, 2007)
(discussing Tenn. Code Ann. § 20-10-102)), ECF No.
205-1.) Plaintiff also argues that “a [statutory] cap does
not permit a trial court to exercise its discretion on a
case-by-case basis.” (Pl.’s Reply Br. at 4, ECF No. 2052.)
Nothing in the text of the statute prevents a court
from remitting a punitive damages award after
applying the cap, alternatively ordering a new trial if a
plaintiff does not want to accept a remitted award, or
entering judgment as a matter of law; the statute
merely prohibits the entry of judgment for a punitive
damages award in excess of the greater of two times the
compensatory damages award in a case or $500,000.
See generally Tenn. Code Ann. § 29-39-104. Remittitur
has roots in Tennessee common law, but was codified
and modified by the General Assembly in 1911.20 See
Tenn. Code Ann. § 20-10-102; Smith v. Shelton, 569
S.W.2d 421, 423-425 (Tenn. 1978) (citing Lambert Bros.
v. Larkins, 296 S.W.2d 353, 355-56 (Tenn. 1955)
(Swepston, J., dissenting)) (observing that, although
Tennessee courts had ordered remittitur “long before
the [20th century],” the legislation codifying the
common law of remittitur also modified it to grant
plaintiffs and defendants a right of appeal, which did
not previously exist, when they did not want to accept a
judicially altered damages award). Thus, even if section
29-39-104 does encroach on remittitur, notwithstanding
20

1911 Tenn. Pub. Acts 29.

165a
that its text expressly disavows any construction of it as
so doing,21 it would be encroaching on a statutory
power, and not on a constitutional investiture of judicial
power.
2. Public Policy Considerations
Plaintiff also argues that the caps “undercut[ ] one of
the central purposes of punitive damages awards,
namely, deterrence,” and asks the Court to invalidate
the statute because “[t]he punishment must fit the
crime, and Tennessee’s caps frustrate this longstanding
principle of justice.”
(Pl.’s Br. at PageIDs 4626-27,
ECF No. 205-1 (citing Amelia J. Troy, Comment,
Statutory Punitive Damages Caps and the Profit
Motive: An Economic Perspective, 40 Emory L.J. 303,
304 (1991) (arguing that punitive damages are more
effective when defendants cannot predict what the
amount will be)).) Tennessee’s statutory punitive
damages caps permit awards of the greater of twice the
amount of compensatory damages, or $500,000. See
Tenn. Code Ann. § 29-39-104(a)(5). The statute removes
any cap in instances of intentional torts, extreme
recklessness, or felonious conduct. See generally Tenn.
Code Ann. § 29-39-104(a)(7); cf. BMW of N. Am., Inc. v.
Gore, 517 U.S. 559, 568 (1996) (setting forth a standard
to ensure that punitive damages awards do not violate
a defendant’s rights under the Due Process Clause of
the Fourteenth Amendment to the United States
Constitution). With respect to the statute’s purported
arbitrariness, the reasoning employed by the Ohio
The Alaska Supreme Court has held that statutory damages
caps “cannot violate the separation of powers, because the caps do
not constitute a form of remittitur.” Evans, 56 P.3d at 1055.
21

166a
Supreme Court in Arbino is instructive here. “Setting
the limitation at double the amount of compensatory
damages received by the plaintiff ensures that the
defendant may still be punished . . . . This careful
compromise represents a level of thought and attention
to detail not seen in arbitrary or unreasonable
statutes.” 880 N.E.2d at 442-43.
Plaintiff ’ s amicus also argues that “[t]he caps
produce a situation where a jury renders a verdict, only
to have it deemed meaningless and instead,
categorically adjudicated by the legislature . . . . These
caps effectively rob affected claimants of the
reimbursement they are owed for the harms they have
suffered.” (Br. for United Policyholders Supporting Pl.
at 13, ECF No. 207-1.) The legislature does not
adjudicate claims under section 29-39-104. The jury
finds general liability in one proceeding, the propriety
and level of punitive damages in another proceeding,
and enters a separate verdict for each proceeding. In
both proceedings, the court adjudicates by entering
judgment, after making a determination regarding
remittitur or judgment as a matter of law. In the second
proceeding, the court must apply a statutory edict to the
jury verdict before entering final judgment. See
generally Tenn. Code Ann. § 29-39-104. Furthermore,
capping punitive damages does not, as Plaintiff ’ s
amicus contends, “rob affected claimants of the
reimbursement they are owed.” Punitive damages are
not compensatory in nature, and are, as discussed
above, a windfall for plaintiffs. See supra pp. 10-11.
Thus, the Court finds that invalidating the statutory

167a
punitive damages cap as a matter of public policy is
unfounded in the law.
c. Conclusion
The Tennessee statutory punitive damages caps
provide for judicial review of a punitive damages award;
the statute does not unduly usurp judicial power and,
therefore, survives constitutional scrutiny. The Court
finds that the statutory punitive damages caps do not
violate the separation of powers doctrine.
4. Application of the Punitive Damages
Cap
Having found that the Tennessee punitive damages
caps imposed by section 29-39-104(a)(5) are
constitutional, the Court must determine whether
subsection (A) or (B) applies in the instant case.
Plaintiff may receive “an amount equal to the greater
of: (A) Two (2) times the total amount of compensatory
damages awarded; or (B) Five hundred thousand
dollars ($500,000).” Tenn. Code Ann. § 29-39-104(a)(5).
Since the jury awarded Plaintiff compensatory
damages of $350,000 (see ECF No. 151 at 1),22 Plaintiff
would receive $700,000 under subsection (A), which is
greater than the $500,000 designated by subsection

Although Defendant argued that no actual damages
existed because Plaintiff had “received the full benefit of her
bargain” by the commencement of trial (see, e.g., ECF No. 172 at
4 n.4), the Court did not disturb the jury’s award of $350,000 in
actual damages (see generally ECF No. 187 at 20- 25).
22

168a
(B). Thus, the Court finds that Plaintiff is entitled to
$700,000 in punitive damages.23
C. CONCLUSION
For the foregoing reasons, the Court finds that the
Tennessee statutory punitive damages caps are
constitutional. The caps neither violate Plaintiff ’ s right
to trial by jury nor the separation of powers doctrine.24
The Court further applies the relevant cap and finds
that Plaintiff is entitled to punitive damages in the
amount of $700,000.

Defendant concedes that “if the Court accepts Plaintiff’s
argument that she sustained $350,000 in actual damages, the
Court should ... apply the cap to reduce the jury’s excessive
punitive award to $700,000.” (ECF No. 172 at 4 n.4.)
24 The Court notes that the only two issues before the Court
and briefed by the parties before the Tennessee Supreme Court
concerned the constitutionality of the statutory punitive damages
caps with respect to the right to trial by jury and the separation
of powers. Other state cases have addressed statutory punitive
damages caps as being void for vagueness, see, e.g., Rhyne, 594
S.E.2d at 19, or a textual constraint of legislative power, see, e.g.,
Bayer CropScience v. Schafer, 385 S.W.3d 822, 831 (Ark. 2011).
Other states have also addressed the caps under theories of
violations of equal protection, see, e.g., Arbino, 880 N.E.2d at 443;
due process, see, e.g., Evans, 56 P.3d 1046 at 1055; takings, see,
e.g., Rhyne, 594 S.E.2d at 14; the right of access to courts, see,
e.g., id. at 18; and “one-subject” rules, see, e.g., Evans, 56 P.3d at
1069-70. While Plaintiff argued that the Tennessee statutory
damages caps violate substantive due process (Pl.’s Br. At
PageID 4618-19, ECF No. 205-1), she failed to establish first that
there exists a fundamental right to a punitive damages award.
Thus, because the aforementioned issues were not before the
Court, the Court has not considered them in this order.
23

169a
IT IS SO ORDERED, this 28th day of September,
2016.
/s/ Jon P. McCalla
JON P. McCALLA
U.S. DISTRICT COURT JUDGE

170a
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

TAMARIN LINDENBERG, individually
and as natural guardian of her minor
children ZTL and SML,

┐
│
│
│
Plaintiff-Appellee/Cross-Appellant, │
│
v.
> Nos. 17│ 6034/6079
JACKSON NATIONAL LIFE INSURANCE
│
COMPANY,
│
│
Defendant-Appellant/Cross-Appellee, │
│
STATE OF TENNESSEE,
│
│
Intervenor-Appellee. │
┘
Appeal from the United States District Court for the
Western District of Tennessee at Memphis.
No. 2:13-cv-02657—Jon Phipps McCalla, District
Judge.
Decided and Filed: March 28, 2019
Before: CLAY, STRANCH, and LARSEN, Circuit
Judges.

171a
COUNSEL
ON PETITIONS FOR REHEARING EN BANC:
Joseph Ahillen, OFFICE OF THE ATTORNEY
GENERAL OF TENNESSEE, Nashville, Tennessee,
for Intervenor Appellee. Daniel W. Van Horn, Gadson
W. Perry, BUTLER SNOW LLP, Memphis,
Tennessee, for Appellant/Cross-Appellee.
ON
RESPONSE IN OPPOSITION:
Molly Glover,
Charles S. Higgins, BURCH, PORTER & JOHNSON,
PLLC, Memphis, Tennessee, for Appellee/CrossAppellant. ON BRIEF: Cary Silverman, SHOOK,
HARDY & BACON L.L.P., Washington, D.C., for
Amicus Curiae.
CLAY, J. (pp. 3–5), delivered a separate opinion
concurring in the denial of rehearing en banc in which
STRANCH, J., joined. BUSH, J. (pp. 6–15), delivered
a separate opinion dissenting from the denial of
rehearing en banc. NALBANDIAN, J. (pp. 16–18),
delivered a separate statement regarding the denial of
rehearing en banc in which THAPAR, BUSH, and
LARSEN, JJ., joined.

172a

ORDER

The court received petitions for rehearing en banc.
The original panel has reviewed the petitions for
rehearing and concludes that the issues raised in the
petitions were fully considered upon the original
submission and decision. The petitions then were
circulated to the full court. Less than a majority of
the judges voted in favor of rehearing en banc.
Therefore, the petitions are denied.

173a

CONCURRENCE

CLAY, Circuit Judge, concurring in the denial of
rehearing en banc. It is incredulous that some of my
colleagues would have this Court establish rigid,
mechanical, and unflinching criteria for certification
to state courts in lieu of our established practice of
trusting panels to exercise their experience,
discretion, and best judgment to determine when
certification is appropriate.
The Supreme Court has recognized that the
decision of whether to certify “rests in the sound
discretion of the federal court.” Lehman Bros. v.
Schein, 416 U.S. 386, 391 (1974). This approach
recognizes that federal courts weigh numerous
competing considerations when determining whether
to certify. Of course, certification “is most appropriate
when the question is new and state law is unsettled.”
Transamerica Ins. Co. v. Duro Bag Mfg. Co., 50 F.3d
370, 372 (6th Cir. 1995). But federal courts may also
consider factors such as comity, cooperative
federalism, and judicial economy. See Rutherford v.
Columbia Gas, 575 F.3d 616, 628 (6th Cir. 2009)
(Clay,
J.,
dissenting).
These
multifarious
considerations cannot be reduced to a checklist or
simple mathematical formula, as my colleagues
would have us believe.

174a
Certainly, the decision concerning whether to certify
is not always straightforward. Resolving requests for
certification often entails a difficult analysis of
several competing considerations. But the mere fact
that ceding our discretion would be easier, and
perhaps even more expedient, is not an adequate
reason for us to shirk from our judicial obligations.
Rather than adopt a rigid formula that answers the
question for us of when to certify, we should trust
ourselves and our own judgment, and that of our
capable colleagues on this Court, to exercise our
discretion wisely after considering the unique
circumstances and considerations that may be
present in a given case.
On the surface, my colleagues purport to take
issue with this Court’s procedure for certification.
But, on a more fundamental level, they appear to
challenge this Court’s very jurisdiction to decide
matters of state law in diversity cases, a power that
emanates from Article III and which Congress has
codified in 28 U.S.C. § 1332. It is an “undisputed
constitutional principle that Congress, and not the
Judiciary, defines the scope of federal jurisdiction
within the constitutionally permissible bounds.” New
Orleans Pub. Serv., Inc. v. Council of City of New
Orleans, 491 U.S. 350, 359 (1989). Federal courts
have a “virtually unflagging obligation . . . to exercise
the jurisdiction given them,” Colo. River Water
Conservation Dist. v. United States, 424 U.S. 800,
817 (1976), and “have no more right to decline the
exercise of jurisdiction which is given, than to usurp
that which is not given,” Cohens v. Virginia, 19 U.S.

175a
(6 Wheat.) 264, 404 (1821). Thus, when diversity
jurisdiction is properly invoked, federal courts have a
“duty . . . to decide questions of state law whenever
necessary to the rendition of a judgment.” Meredith
v. City of Winter Haven, 320 U.S. 228, 234 (1943); see
Burgess v. Seligman, 107 U.S. 20, 33 (1883)
(explaining that “[t]he federal courts have an
independent jurisdiction in the administration of
state laws, co-ordinate with, and not subordinate to,
that of the state courts”). And “it is still the duty of
the federal courts, where the state law supplies the
rule of decision, to ascertain and apply that law even
though it has not been expounded by the highest
court of the State.” Fid. Union Tr. Co. v. Field, 311
U.S. 169, 177 (1940) (call number omitted).
To the extent that my colleagues wish to
circumvent Congress’s directive that we decide state
law issues in diversity cases, they ignore their
constitutional obligation to exercise the jurisdiction
conferred by Congress. To the extent that they would
create new rules to infringe upon jurisdictional
prerequisites for referral of cases to state courts, they
engage in judicial activism in contravention of
Congress’s prerogative to define the jurisdiction of
federal courts. Even if they doubt the wisdom of the
scope of federal court jurisdiction as it currently
stands, that does not justify their oblique attempt to
circumscribe federal jurisdiction by impeding or
eliminating our discretion to decide when
certification is appropriate.
Moreover, my colleagues’ concerns are unfounded.
When this Court sits in diversity, we apply state law,

176a
see Erie R.R. Co. v. Tompkins, 304 U.S. 64, 78 (1938),
and therefore act as “only another court of the State.”
Guar. Tr. Co. v. York, 326 U.S. 99, 108 (1945). When
required to do so, we predict state law, but we do not
devise it. In many instances, federal courts are more
than capable of correctly deciding state law issues
without certifying them to the state’s highest court.
In those cases, certification would serve little purpose
other than to needlessly delay resolution of the
ultimate issues in the case. Some state courts
frequently take an extended period of time to decide
whether to address certified questions, only to
ultimately reject the certification request and refuse
to answer the questions for which we have sought
guidance. I am personally aware of multiple
instances in which state courts in our circuit have sat
on certification requests for up to a year or more, only
to deny the requests without taking any action. Of
course, certification may be warranted in some cases.
But we should not create a mechanical rule that
would require us to certify issues in circumstances
where our sound discretion and judicial experience
would not direct us to seek certification.
Finally, in arguing for certification here, my
colleagues have taken my statements from
Rutherford, 575 F.3d 616, out of context. In
Rutherford, this Court faced the question of whether
the equitable doctrines of estoppel, laches, and
waiver applied to an express easement under Ohio
law. Id. at 618. The majority declined to certify the
question, holding that the outcome was “largely
controlled,” id., by our recent decision in Andrews v.

177a
Columbia Gas Transmission Corp., 544 F.3d 618 (6th
Cir. 2008). I dissented, arguing that stare decisis did
not preclude certification because Andrews “relied
almost exclusively” on a single intermediate court
case that was likely wrongly decided, and because
Andrews failed to discuss, much less distinguish,
several cases from the Ohio Supreme Court that
indicated that body would likely reach the opposite
conclusion as the Andrews panel. Rutherford, 575
F.3d at 620–21. (Clay, J., dissenting). Rutherford is
the inverse of this case. There, the panel privileged
federal precedent over state decisions. Here, the
panel stands accused of doing the opposite.
Ultimately, this panel properly considered the
circumstances of the case. A jury found in Plaintiff ’ s
favor in December 2014. Three and a half years later,
when this appeal was briefed and argued, neither
party moved for certification. The State as intervenor
did so only in a footnote, and only with regard to “the
constitutional questions.” But of course, the district
court had already certified the constitutional
questions to the Tennessee Supreme Court. That
body, after waiting approximately seven months,
declined to answer. Under these circumstances, it
was well within our discretion to elect against a
second certification attempt.
Accordingly, I concur in the denial of rehearing en
banc.

178a

DISSENT

JOHN K. BUSH, Circuit Judge, dissenting from
the denial of rehearing en banc. This case presents an
unusually strong set of reasons for certification to the
Tennessee Supreme Court of state-law questions. It
also highlights the need for our circuit to clarify and
define
certification standards to address the
constitutional
federalism
considerations
that
underlie Erie Railroad Co. v. Tompkins, 304 U.S. 64
(1938). I therefore respectfully dissent from the
denial of rehearing.
To explain the reasons for my dissent, some
history first is in order. The “judicial Power” of
Article III extends to, among other categories,
“Controversies . . . between Citizens of different
States” and between state citizens and foreign
citizens or subjects. U.S. Const. art. III, § 2. A
common Antifederalist criticism of the United States
Constitution was that it granted too much power to
federal courts at the expense of states generally and
state judiciaries in particular.1 Responding to
See, e.g., Address by a Plebian (1788), reprinted in The
Essential Antifederalist 63, 71 (W.B. Allen & Gordon Lloyd eds.,
2d ed. 2002) (“The opposers to the constitution have said that it
is dangerous because the judicial power may extend to many
cases which ought to be reserved to the decision of the State
courts . . . .”); George Mason, Objections (1787), reprinted in The
Essential Antifederalist, supra, at 16, 17 (“The judiciary of the
1

179a
Antifederalist criticism, Federalists
defended
federal-court authority to hear such cases—what
would be called diversity jurisdiction—as a way to
give out-of-state or foreign litigants a fair shake in
court. Federal courts were thought to have less bias
than state courts in favor of in-state parties, and
diversity jurisdiction was designed to address the
perceived unfairness of state courts.2 Diversity
United States is so constructed and extended as to absorb and
destroy the judiciaries of the several states . . . .”); Centinel Letter
1 (1787), reprinted in The Essential Antifederalist, supra, at 96,
101 (expressing concern that “it is more than probable that the
state judicatories would be wholly superseded”); Brutus, Essay
XI, reprinted in The Essential Antifederalist, supra, at 185, 188
(“The judicial power will operate to effect in the most certain, but
yet silent and imperceptible manner, what is evidently the
tendency of the constitution: an entire subversion of the
legislative, executive and judicial powers of the individual
states.”); Brutus, Essay XV, reprinted in The Essential
Antifederalist, supra, at 196, 199 (“Perhaps nothing could have
been better conceived to facilitate the abolition of the state
governments than the constitution of the judicial.”).
2 See, e.g., Guar. Tr. Co. v. York, 326 U.S. 99, 111 (1945) (“The
Framers of the Constitution, according to [Chief Justice John]
Marshall, entertained ‘apprehensions’ lest distant suitors be
subjected to local bias in State courts, or, at least, viewed with
‘indulgence the possible fears and apprehensions’ of such suitors.”
(quoting Bank of the U.S. v. Deveaux, 9 U.S. 61, 87 (1809))); Erie,
304 U.S. at 74 (“Diversity of citizenship jurisdiction was conferred
in order to prevent apprehended discrimination in state courts
against those not citizens of the state.”); Anthony J. Bellia Jr. &
Bradford R. Clark, The Law of Nations and the United States
Constitution 25–26 (2017) (noting that “James Madison argued
strongly in favor of diversity jurisdiction at the Virginia ratifying
convention on the ground that ‘foreigners cannot get justice done
them in [state] courts, and this has prevented many wealthy
gentlemen from trading or residing among us’” (quoting 3 The

180a
jurisdiction did not violate federalism principles
because it did not deputize federal courts to apply a
different law than would have applied in the case had
it been decided in state court.3
This understanding underlay Section 34 of the
Judiciary Act of 1789, enacted by the First Congress,
which provided that “the laws of the several states,
except where the [C]onstitution, treaties or statutes
of the United States shall otherwise require or
provide, shall be regarded as rules of decision in trials
at common law in the courts of the United States, in
cases where they apply.” Judiciary Act of 1789, ch. 20,
§ 34, 1 Stat. 73, 92 (emphasis added).
In the Erie decision, the Supreme Court confirmed
that “laws of the several states” includes the decisions
of the state courts as well as enacted statutes and
other sources of state law. See Erie, 304 U.S. at 78.
This holding is derived from constitutional principles
of federalism. See id. at 77–78; Boyle v. United Techs.
Corp., 487 U.S. 500, 517 (1988) (“Erie was deeply
rooted in notions of federalism.”). Therefore, under
Erie, federal courts sitting in diversity must make an
Debates in the Several State Conventions on the Adoption of the
Federal Constitution 583 (Jonathan Elliot ed., 2d ed. 1901))).
3 See William A. Fletcher, The General Common Law and
Section 34 of the Judiciary Act of 1789: The Example of Marine
Insurance, 97 Harv. L. Rev. 1513, 1514 (1984); see generally Bellia
& Clark, supra note 2, at 28 (noting that in early cases involving
general commercial law, called the “law merchant,” “both federal
and state courts deciding commercial cases ‘considered
themselves to be deciding questions under a general law
merchant that was neither distinctively state nor federal’”
(quoting Fletcher, supra, at 1554)).

181a
informed assessment of what state law is by looking
to state courts’ decisions as well as to state statutes
and state constitutions.4
However, a federal judge’s assessment of state law
“cannot escape being a forecast rather than a
determination” if the state courts have not yet
definitively resolved an issue. R.R. Comm’n v.
Pullman Co., 312 U.S. 496, 499 (1941). A federal court
might make an inaccurate forecast and later be
proved wrong if the state supreme court decides the
issue the other way.
Probably in response to the problem of inaccurate
federal-court guesses, Florida in 1945 was the first
state to enact a certification procedure, whereby the
state high court could accept and decide questions of
state law necessary to the decision of lawsuits
pending in federal courts of appeal. See Clark, supra
note 4, at 1545. The Supreme Court recognized the
procedure for the first time in Clay v. Sun Insurance
Office Ltd., 363 U.S. 207, 212 (1960). Today, all of the
states except North Carolina have certification
4 See, e.g., Carnation Co. v. T.U. Parks Constr. Co., 816 F.2d 1099,
1100 (6th Cir. 1987) (“In Erie Railroad, the Court held that the federal
district court was required, under a proper interpretation of the Judiciary
Act of 1789 and, indeed, by the Constitution, to apply the law of the state
in which it sits in resolving questions of substantive law.”); Bradford R.
Clark, Ascertaining the Laws of the Several States: Positivism and Judicial
Federalism After Erie, 145 U. Pa. L. Rev. 1459, 1551 (1997) (noting that
“the principles of judicial federalism recognized in [the Erie decision]
preclude federal courts from ‘declar[ing] substantive rules of common law
applicable in a State’” and that diversity jurisdiction under Erie is not
intended “to provide an alternative source of law” (quoting Erie, 304 U.S.
at 78)).

182a
procedures.5 As certification became mainstream,
the Supreme Court repeatedly commented favorably
on the procedure and sometimes instructed lower
courts to consider certification on remand. See, e.g.,
Arizonans for Official English v. Arizona, 520 U.S. 43,
79 (1997); Lehman Bros. v. Schein, 416 U.S. 386, 391–
92 (1974); see also Minn. Voters All. v. Mansky, 138 S.
Ct. 1876, 1893 (2018) (Sotomayor, J., dissenting).
Because the Supreme Court has not announced
concrete rules to govern lower federal courts in
deciding whether to certify questions, those lower
federal courts have had to make their own guidelines.
Our circuit standards do nothing to narrow the
discretion left to each district judge and Sixth Circuit
panel. See Transamerica Ins. Co. v. Duro Bag Mfg.
Co., 50 F.3d 370, 372 (6th Cir. 1995) (stating only that
certification may be appropriate where a question of
state law is “new” and “unsettled”). This lack of
direction creates the potential for intra-circuit
conflict as to when certification is appropriate and
reduces predictability. The lack of predictability
convinces me that this circuit should have more
concrete standards to guide its decisionmaking in
these recurring situations; what is more, this was the
ideal case in which to begin delineating those
standards. Specifically, we should seriously consider
establishing a presumption in favor of certification
where, as here, the state supreme court has not
settled the issue; a prior published panel decision has
5 See Gregory L. Acquaviva, The Certification of Unsettled Questions
of State Law to State High Courts: The Third Circuit’s Experience, 115
Penn St. L. Rev. 377, 384–85 (2010).

183a
addressed the issue but the current panel is inclined
to disagree with the prior decision; and neither party
objects to certification.
Sixth Circuit case law states that certification is
appropriate if the question of state law is “new” and
“unsettled,” but that case law unfortunately fails to
provide guidance in a recurring set of cases.
Transamerica, 50 F.3d at 372. Those are the cases in
which the question may not be new in the sense that
no court has addressed it, but a decision from a
federal court has the foreseeable potential to create a
different state-law rule than what the state supreme
court would have produced.
This is such a case. A previous decision of this
circuit held that punitive damages were unavailable
on a claim for bad-faith breach of an insurance
contract. Heil Co. v. Evanston Ins. Co., 690 F.3d 722,
728 (6th Cir. 2012). A later Tennessee Court of
Appeals decision, by contrast, held that punitive
damages were available. See Riad v. Erie Ins. Exch.,
436 S.W.3d 256, 275–76 (Tenn. Ct. App. 2013).
Finding that Riad had discredited Heil, the panel
majority here departed from circuit precedent.
Lindenberg v. Jackson Nat’l Life Ins. Co., 912 F.3d
348, 357–59 (6th Cir. 2018). As a result, the panel
majority reached a decision that is not opposed by any
controlling Tennessee authority but that nonetheless
presents a significant danger of being wrong, for
reasons discussed thoroughly by the dissent. See id.
at 372–76 (Larsen, J., dissenting in part). If and when
the Tennessee Supreme Court reaches the issue, it
may well hold that punitive damages are not

184a
available on a bad-faith claim. As to the state
constitutional question, there is also substantial
reason to doubt that the Tennessee Supreme Court
will invalidate the punitive-damages cap under the
Tennessee constitution. See id. at 379–86 (Larsen, J.,
dissenting in part); see generally Br. Amici Curiae
Chamber of Commerce of the United States of
America, American Tort Reform Association,
National Association of Manufacturers, National
Federation of Independent Business, Small Business
Legal Center, and American Property Casualty
Insurance Association. In the meantime, plaintiffs
who want punitive damages but seek to avoid the cap
will be likely to file in federal district court.
This is exactly the sort of forum-shopping that the
Erie decision was meant to reduce. See Erie, 304 U.S.
at 74–75 (stating that federal courts’ application of a
general common law “made rights enjoyed under the
unwritten ‘general law’ vary according to whether
enforcement was sought in the state or in the federal
court” and “rendered impossible equal protection of
the law”); see also McCarthy v. Olin Corp., 119 F.3d
148, 157 (2d Cir. 1997) (Calabresi, J., dissenting);
Todd v. Societe BIC, S.A., 9 F.3d 1216, 1222 (7th
Cir. 1993) (en banc) (certifying two questions of state
tort law where “the panel’s analysis had substantial
propensity to attract all future cases of this kind into
federal court”).
Indeed, dissenting from a Second Circuit panel’s
decision to decide a state tort-law issue instead of
certifying, Judge Guido Calabresi wrote:

185a
[F]ederal courts . . . have tended to be far too
reluctant to certify questions to the state
courts . . . . Specifically, federal courts have all
too often refused to certify when they can rely
on state lower court opinions to define state
law. I view this reluctance as both wrong and
unjust.
Reluctance to certify is wrong because it leads
to precisely the kind of forum shopping that
Erie . . . was intended to prevent. See Hanna v.
Plumer, 380 U.S. 460, 468 . . . (1965) (noting
that one of the aims of the Erie decision was
“discouragement of forum-shopping”). This is
especially so in situations where there is some
law in the intermediate state courts, but no
definitive holding by the state’s highest
tribunal. In such cases, and in the absence of
certification, the party that is favored by the
lower court decisions will almost invariably
seek federal jurisdiction. It will do this in order
to prevent the state’s highest court from
reaching the issue, in the expectation that the
federal court—unlike the state’s highest
court—will feel virtually bound to follow the
decisions of the intermediate state courts . . . .
When federal courts, in effect, prevent state
courts from deciding unsettled issues of state
law, they violate fundamental principles of
federalism and comity . . . . Federal courts that
refuse to certify end up “mak[ing] important
state policy, in contravention of basic
federalism principles.” Hakimoglu v. Trump

186a
Taj Mahal Assocs., 70 F.3d 291, 302 (3d Cir.
1995) (Becker, J., dissenting) . . . .
Reluctance to certify is unjust because, as has
happened with some frequency, the federal
court, having refused to certify, may decide an
issue of state law one way, only to discover that
the state’s highest court, when presented with
the issue in a later case, reaches the opposite
result . . . .
McCarthy, 119 F.3d at 157–59 (Calabresi, J.,
dissenting) (emphasis added) (footnotes and some
citations omitted).
Judge Frank Easterbrook of the Seventh Circuit
sounded the same theme in his opinion for the en
banc court in a tort case that raised unsettled statelaw questions:
In a case such as [this tort case] . . . . any
substantial divergence between the federal
court’s estimate of state law and the state’s
view of its own law will funnel all similar
litigation to federal court . . . . If the federal
court treats the plaintiff more favorably than
the state tribunal would, then the plaintiff
always files in federal court; similarly[,] any
departure in the [defendant’s] favor leads the
defendant to remove any suit filed in state
court. In either case, the state loses the ability
to develop or restate the principles that it
believes should govern the category of cases.
Certification then ensures that the law we
apply is genuinely state law.

187a
Todd, 9 F.3d at 1222 (citation omitted). If Calabresi
and Easterbrook—two prominent federal judges of
sometimes differing perspectives—have voiced
identical worries about incentivizing forum-shopping
through reluctance to certify, we in the Sixth Circuit
should consider taking a definite step toward
remediating those worries.
Despite these forum-shopping concerns, one
objection to certification is that state courts, and the
Tennessee Supreme Court in particular, often decline
to answer certified questions. Although undoubtedly
a true statement, that objection did not counsel
against certification here for three reasons.
First, even if the state court declined to answer,
this court would still have done the Tennessee
Supreme Court the courtesy—requested by the
Tennessee attorney general—of giving it the
opportunity to speak authoritatively on its own law.
See En Banc Pet. of State of Tenn. as IntervenorDef./Cross-Appellee at 6. If that court declined to do
so, then responsibility for any “friction-generating
error” produced by a decision of this court would not
lie at our door alone. Arizonans, 520 U.S. at 79.
Second, the Tennessee Supreme Court has made
clear that it views certification as a valuable
mechanism for preserving the sovereignty of state
courts:
More
importantly,
the
certification
procedure protects states’ sovereignty. To the
extent that a federal court applies different
legal rules than the state court would have, the

188a
state’s sovereignty is diminished [because] the
federal court has made state law. Such an
impact on state sovereignty is no small matter,
especially since a federal court’s error may
perpetuate itself in state courts until the
state’s highest court corrects it.
Haley v. Univ. of Tenn.-Knoxville, 188 S.W.3d 518,
521 (Tenn. 2006) (citations and internal quotation
marks omitted). Thus, the Tennessee judiciary has a
favorable view of certification as a general matter,
although, of course, the Tennessee Supreme Court is
under no obligation to answer certified questions.
Third, in this case specifically, the Tennessee
Supreme Court expressly stated in its denial of the
district court’s certified constitutional questions that
it was making no comment on what it might do if the
Sixth Circuit later certified the question of
constitutionality and that question had become
determinative because the predicate question of
punitive damages’ availability was also presented
and certified. See Lindenberg, 912 F.3d at 372
(Larsen, J., dissenting in part). So the danger that the
court would decline to answer certified questions was
no greater than usual here and quite possibly less
than usual, given the importance of the state
constitutional question.
Speaking of the constitutional question, it is
unusual for the panel to have invalidated a state
statute on state constitutional grounds. This decision
is in tension, in two respects, with the approach that
the Supreme Court of the United States and our court
have counseled in similar cases.

189a
First, the Supreme Court and our court have
indicated that abstention or certification is
appropriate where a decision on state law may allow
the federal court to avoid a federal constitutional
question. See, e.g., Bellotti v. Baird, 428 U.S. 132,
146–47 (1976); Planned Parenthood Cincinnati
Region v. Strickland, 531 F.3d 406, 410–11 (6th Cir.
2008). Because federalism concerns as well as
avoidance concerns appear in a case like this one,
where a state constitutional question lurks behind a
predicate state-law question, certification seems
doubly wise. Indeed, the Eleventh Circuit has noted
that “[c]ertification . . . is especially appropriate in a
case . . . where the decisional task involves
interpreting the state constitution.” LeFrere v.
Quezada, 582 F.3d 1260, 1268 (11th Cir. 2009)
(citation omitted).6 Second, and relatedly, the
Supreme Court has indicated that the possibility of
making an Erie guess that results in invalidating a
state law should be avoided where certification

6 See also Estate of McCall ex rel. McCall v. United States,
642 F.3d 944, 946 (11th Cir. 2011) (certifying question whether
cap on noneconomic medical malpractice damages violated
provisions of Florida constitution on which there was no Florida
Supreme Court guidance); Int’l Soc’y for Krishna Consciousness
of Cal. Inc. v. City of L.A., 530 F.3d 768, 773–76 (9th Cir. 2008)
(certifying question whether airport was “public forum” under
California constitution); Parcell v. Governmental Ethics
Comm’n, 626 F.2d 160, 161 (10th Cir. 1980) (certifying question
whether method of appointing Ethics Commission members
violated “the doctrine of separation of powers as the same is
recognized as a part of the Kansas State Constitution”).

190a
makes avoidance possible. See Arizonans, 520 U.S. at
79.
Also important to note is that, although neither
Ms. Lindenberg nor Jackson National moved our
court to certify the particular questions at issue here,
our court can and does certify questions sua sponte.
See, e.g., Am. Booksellers Found. for Free Expression
v. Strickland, 560 F.3d 443, 444 (6th Cir. 2009)
(order). This would not be quite a sua sponte
certification, anyway: Ms. Lindenberg already moved
for certification of the state constitutional question in
the district court, at which point the Tennessee
attorney general intervened in the action. See
Lindenberg, 912 F.3d at 355. The district court did
certify the constitutional question (and one other
constitutional question, not at issue here), but the
Tennessee Supreme Court declined to answer it
because it would not have been determinative of the
litigation. Id.; see id. at 371–72 (Larsen, J., dissenting
in part). On appeal, the Tennessee attorney general
asked our court to certify the state constitutional
questions in the event we found punitive damages
were available. Br. of State of Tenn. as IntervenorDef./Cross-Appellee at 9 n.2. Then, when asked at
oral argument before our court if they had any
objection to certification of the now determinative
questions regarding the availability of punitive
damages and the constitutionality of the punitivedamages cap, both sides agreed that certification
would be appropriate.
Thus, all factors seem to point toward certification
here. But because our circuit has no guidelines for

191a
certification beyond suggesting that it is appropriate
for novel and unsettled questions of state law, the
panel could disregard the availability of the
certification procedure.
To clarify our standards is the primary reason we
should have granted rehearing in this case. The case
is appropriate for en banc reconsideration in other
ways as well, however. The Federal Rules of
Appellate Procedure state that one ground for en
banc rehearing is a split in circuit precedent. See Fed.
R. App. P. 35(a)(1). We have that here. Furthermore,
our circuit rules state that a panel decision may not
be overruled except by the en banc court.7 6th Cir. R.
32.1(b). The panel decision here not only departs from
precedent but also creates a major risk of horizontal
forum-shopping, in contravention of fundamental
federalism principles. Thus, it involves an issue of
great importance. See Fed. R. App. P. 35(a)(2)
(providing for en banc rehearing in cases of
“exceptional importance”).
In addition, to the extent our internal operating
procedures counsel against rehearing solely state-law
The Lindenberg majority noted that “a single decision of a
state court of appeals may abrogate this Court’s interpretation of
state law, at least in circumstances where (1) state law treats an
appellate court decision as controlling in the absence of a ruling
from the state supreme court; (2) there is no indication from the
state supreme court that it would reach a different outcome; and
(3) the state appellate court’s decision is irreconcilable with our
own ruling.” 912 F.3d at 357 (citations omitted). However, here,
as the dissent persuasively argued, there is reason to believe the
Tennessee Supreme Court would reach a different outcome. See
id. at 370, 373, 375 (Larsen, J., dissenting in part).
7

192a
issues, see 6th Cir. I.O.P. 35(a), we would not be
reconsidering such issues en banc here. As for the
state-law issues, we would not be deciding them: we
would simply be asking the state court to do that. And
this would not be the first time that we have, while
sitting en banc, certified issues to a state supreme
court. See Duffy v. Foltz, 804 F.2d 50, 53–54 (6th Cir.
1986) (applying state court’s answer to certified
question after en banc court certified the question);
cf. Todd, 9 F.3d at 1222 (Seventh Circuit certifying
two questions of state tort law, which had become
relevant as a result of the en banc court’s vacating the
panel decision, and observing that “[l]ittle would be
served by substituting the guess of eleven judges for
that of three; far better to pose the questions to the
only judges who can give definitive answers”). But, in
any event, if we had reheard this case en banc, we
could have considered a very important federal
question: what certification standard should apply in
our circuit to implement the constitutional federalism
principles articulated by Erie and its progeny.
In other words, we should have used this case to
articulate more meaningful standards to guide
certification decisions. At the very least, there should
be a presumption in favor of certification where, as
here, a state supreme court has not decided an issue;
neither party objects to certification; and a prior
precedential panel decision of this court stands
between the current panel and the decision it wishes
to reach on state law. See Clark, supra note 4, at
1553–54 (arguing for “a presumption in favor of
certification in cases presenting” unsettled questions

193a
of state law whose “resolution entail[s] the exercise of
significant policymaking discretion”); cf. McCarthy,
119 F.3d at 161 (Calabresi, J., dissenting) (stating
that certification is “appropriate” in “virtually any
case in which 1) a significant and dispositive issue of
state law is in genuine doubt . . . and 2) certification
is specifically requested by the party that did not
invoke federal court jurisdiction”). There should
likewise be a presumption in favor of certification
where the panel is facing an unclear issue of state
constitutional law. See LeFrere, 582 F.3d at 1268.
Such a presumption would not upend the way we
currently decide cases in the Sixth Circuit. I am not
advocating for certifying questions in a vast set of
new situations or for requiring every panel to certify
if a certain group of boxes is checked. However, I do
think we should make it easier for litigants to predict
when this court will certify questions and easier for
the en banc court to determine whether a panel has
made a grave error in deciding a question of unsettled
state law itself instead of certifying.
In sum, we have missed an opportunity to address
a significant issue that is likely to recur. Assuming
the Supreme Court provides no further guidance (but
perhaps it will, which I would welcome), the burden
falls on each circuit to define standards for certifying
questions, and at some point we should examine our
standards more carefully. Otherwise, we risk
validating the prediction of the Antifederalists: that
an encroaching federal judiciary would use federal
judicial power to diminish the power of state
judiciaries. To minimize the risk of unnecessary

194a
interference with the autonomy and independence of
the states, we should more frequently accept state
courts’ open invitations to pose to them certified
questions regarding their own law.

195a

STATEMENT

NALBANDIAN, Circuit Judge. Today’s decision
marks a missed opportunity for our court to more
firmly establish its commitment to a “cooperative
judicial federalism.” Arizonans for Official English v.
Arizona, 520 U.S. 43, 77 (1997). I would have granted
rehearing en banc to certify the state-law questions
to the Tennessee Supreme Court, rather than risk the
kind of “friction-generating error” that arises when
federal courts invalidate state statutes. Id. at 79. But
the panel’s decision not to certify the questions is not
the last word on the matter. Nothing prevents future
courts—whether another panel from this circuit or
one of our district court colleagues—from certifying
the same questions to the Tennessee Supreme Court
should they arise again.
At first blush, it may seem inconsistent with stare
decisis for a district court or a later panel of this court
to certify a question after one panel has already made
an Erie prediction about state law. But we have
endorsed using the certification process to clarify
state law in this exact situation. See Geib v. Amoco
Oil Co., 29 F.3d 1050, 1060–61 (6th Cir. 1994). Rather
than allow federal courts to “authoritatively
determin[e] unresolved state law,” the better practice
is to send those questions to the state judiciary for
resolution. Id. at 1061 (quoting Clay v. Sun Ins.
Office Ltd., 363 U.S. 207, 212 (1960)). The state court,

196a
of course, can turn us down. See, e.g., Geib v. Amoco
Oil Co., 163 F.3d 329, 330 (6th Cir. 1995). And in that
case we must keep following the dictates of stare
decisis. Id. But until the state judiciary speaks on an
unsettled issue of state law, no amount of decisions
from this court prevents the next court from certifying
the question.
Years after Geib, another panel in our circuit faced
this same dilemma. The majority opted not to
exercise its discretion to certify because, among other
reasons, “it would arguably be inconsistent with” the
court’s precedent. Rutherford v. Columbia Gas, 575
F.3d 616, 619 (6th Cir. 2009). But in a thoughtful
dissent, Judge Clay cast serious doubt on that
proposition. “[C]ertifying a question to a state court
does not implicate, much less contradict, our
obligations under stare decisis.” Id. at 623 (Clay, J.,
dissenting). That’s because asking the state court to
weigh in does not modify or overturn prior precedent.
Id. It’s an exercise of deference to the judicial body
that actually holds the power to resolve unsettled
questions of state law.
And, more importantly, the majority’s decision in
Rutherford was not inconsistent with what we said in
Geib. The majority in Rutherford only exercised its
discretion not to certify that particular question, did
not cite the prior panel decision in Geib, and did not
discuss the question of whether certification would
have been inconsistent with stare decisis.
To be sure, not every circuit agrees. The Fifth
Circuit, for example, adopts a more restrictive view of
stare decisis. Courts there must continue applying

197a
suspect precedent rather than certify the issue to the
state court. See Hughes v. Tobacco Inst., Inc., 278
F.3d 417, 425 (5th Cir. 2001); Lee v. Frozen Food
Express, Inc., 592 F.2d 271, 272 (5th Cir. 1979). But
the Fifth Circuit also permits rehearing en banc to
correct panel decisions that misapply state law. See
I.O.P. following 5th Cir. R. 35; see also Sturgeon v.
Strachan Shipping Co., 731 F.2d 255, 256 (5th Cir.
1984); Hudson v. R. J. Reynolds Tobacco Co., 427 F.2d
541, 542 (5th Cir. 1970) (“We are bound by the
[precedent] on this issue . . . until, if ever, the Court
en banc redecides the question or the Louisiana
courts hold differently.”). We, on the other hand, have
no such luxury. Our internal rules preclude rehearing
en banc for alleged errors of state law. See 6 Cir.
I.O.P. 35(a). Adopting the Fifth Circuit rule while
maintaining our own rules for rehearing en banc
would turn a randomly selected, three-judge panel
into the court of last resort for many state-law issues.
See Geib, 29 F.3d at 1060 (explaining the “very real
danger that Michigan’s courts will be denied any
meaningful participation in the interpretation of ”
their own law for issues that almost always involve
diverse parties). But we have avoided that
predicament by establishing a narrower view of stare
decisis.
Federal courts have a duty to properly decide
questions of state law. It’s a duty “from which we may
not shrink.” Rutherford, 575 F.3d at 624 (Clay, J.,
dissenting). Certification is one tool to assist us in
this endeavor. See Lehman Bros. v. Schein, 416 U.S.
386, 390–91 (1974). And it makes no difference

198a
whether one panel has already spoken on the issue.
See Geib, 29 F.3d at 1060–61. See also Eads v.
Morgan, 298 F. Supp. 2d 698, 707 (N.D. Ohio 2003).
We are, after all, merely predictors of state law. See
Stryker Corp. v. XL Ins. Am., 735 F.3d 349, 358 (6th
Cir. 2012). We speculate about how the state
judiciary might answer these unsettled questions.
But stare decisis does not turn unsettled questions
of state law into settled ones. And federal courts must
always be free to seek answers from the only judicial
body capable of providing them.
ENTERED BY ORDER OF
THE COURT
/s/ Deborah S. Hunt, Clerk

